<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF HOMELAND SECURITY, THE DEPARTMENT OF COMMERCE, AND NASA</title>
<body><pre>[Senate Hearing 111-507]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-507
 
                           NOMINATIONS TO THE
                    DEPARTMENT OF HOMELAND SECURITY,
                  THE DEPARTMENT OF COMMERCE, AND NASA

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 15, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION




                  U.S. GOVERNMENT PRINTING OFFICE
55-981                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
              Brian M. Hendricks, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 15, 2009.................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     2
    Prepared statement...........................................     3
Statement of Senator Cantwell....................................     4
Statement of Senator Udall.......................................    27
Statement of Senator LeMieux.....................................    29
Statement of Senator Thune.......................................    30

                               Witnesses

Erroll G. Southers, Assistant Secretary-Designate, Transportation 
  Security Administration, U.S. Department of Homeland Security..     5
    Prepared statement...........................................     7
    Biographical information.....................................     9
Patrick Gallagher, Ph.D., Director-Designate, National Institute 
  of Standards and Technology, U.S. Department of Commerce.......    35
    Prepared statement...........................................    37
    Biographical information.....................................    38
Elizabeth (Beth) Robinson, Ph.D., Chief Financial Officer-
  Designate, National Aeronautics and Space Administration.......    45
    Prepared statement...........................................    46
    Biographical information.....................................    47
Paul Martin, Inspector General-Designate, National Aeronautics 
  and Space Administration.......................................    54
    Prepared statement...........................................    55
    Biographical information.....................................    56

                                Appendix

Hon. Jane Harman, U.S. Representative from California, 36th 
  District, prepared statement...................................    69
Response to written questions submitted to Elizabeth Robinson by:
    Hon. Tom Udall...............................................    69
    Hon. Kay Bailey Hutchison....................................    70
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to Paul Martin.......................................    70
Response to written questions submitted to Erroll G. Southers by:
    Hon. John D. Rockefeller IV..................................    71
    Hon. Bill Nelson.............................................    77
    Hon. Maria Cantwell..........................................    77
    Hon. Frank R. Lautenberg.....................................    79
    Hon. Amy Klobuchar...........................................    80
    Hon. Tom Udall...............................................    81
    Hon. Mark Warner.............................................    82
    Hon. Mark Begich.............................................    83
    Hon. Kay Bailey Hutchison....................................    84
    Hon. Jim DeMint..............................................    86
    Hon. John Thune..............................................    86
    Hon. Roger Wicker............................................    87
    Hon. Johnny Isakson..........................................    89
    Hon. Sam Brownback...........................................    91
Response to written questions submitted to Dr. Patrick Gallagher 
  by:
    Hon. John D. Rockefeller IV..................................    92
    Hon. John D. Rockefeller IV and Hon. Kay Bailey Hutchison....    93
    Hon. Frank R. Lautenberg.....................................    94
    Hon. Tom Udall...............................................    94
    Hon. Kay Bailey Hutchison....................................    97
    Hon. Olympia J. Snowe........................................    98
    Hon. David Vitter............................................    98
Letter, dated October 13, 2009, from Millage Peaks, Fire Chief--
  City of Los Angeles, California to Hon. John D. Rockefeller IV 
  and Hon. Kay Bailey Hutchison..................................   100
Letter, dated October 2, 2009, from Clark Kent Ervin, Director, 
  Homeland Security Program--The Aspen Institute to Hon. Kay 
  Bailey Hutchison...............................................   101
Letter, dated October 14, 2009, from Donovan J. Leighton to Hon. 
  John D. Rockefeller IV and Hon. Kay Bailey Hutchison...........   103
Letter, dated October 6, 2009, from Milind Tambe, Professor, 
  Computer Science Department--University of Southern California 
  to Hon. John D. Rockefeller IV and Hon. Kay Bailey Hutchison...   104
Letter, dated September 28, 2009, from Scott M. Gordon, Court 
  Commissioner--The Superior Court to Hon. Kay Bailey Hutchison..   105
Letter, dated October 7, 2009, from Barbara J. Nelson, UCLA 
  Professor of Public Policy, Dean Emerita--UCLA School of Public 
  Affairs to Hon. John D. Rockefeller IV and Hon. Kay Bailey 
  Hutchison......................................................   107
Letter, dated October 9, 2009, from Elliot Brandt, Western States 
  Director--AIPAC to Hon. John D. Rockefeller IV and Hon. Kay 
  Bailey Hutchison...............................................   109
Letter, dated October 7, 2009, from Jane Harman, Congresswoman--
  36th District, California, to Hon. John D. Rockefeller IV and 
  Hon. Kay Bailey Hutchison......................................   110
Letter, dated October 5, 2009, from Leroy D. Baca, Sheriff--
  County of Los Angeles to Hon. John D. Rockefeller IV and Hon. 
  Kay Bailey Hutchison...........................................   111
Letter, dated October 5, 2009, from Stephen C. Hora, Director--
  CREATE, to Hon. John D. Rockefeller IV and Hon. Kay Bailey 
  Hutchison......................................................   113
Letter, dated October 6, 2009, from Matthew E. Broderick, 
  Brigadier General (Ret.), USMC, Former Director of Operations--
  Department of Homeland Security to Hon. John D. Rockefeller IV 
  and Hon. Kay Bailey Hutchison..................................   114
Letter, dated October 5, 2009, from Ronald L. Iden, Senior Vice 
  President, Chief Security Officer--The Walt Disney Company to 
  Hon. John D. Rockefeller IV and Hon. Kay Bailey Hutchison......   115
Letter, dated September 28, 2009, from James T. Butts, Jr., 
  Deputy Executive Director, Airport Law Enforcement and 
  Protection Services--Los Angeles World Airports to Hon. Kay 
  Bailey Hutchison...............................................   116
Letter, dated October 14, 2009, from Jack H. Knott, Ph.D., C. 
  Erwin and Ione L. Piper Dean, School of Policy, Planning and 
  Development--University of Southern California to Hon. Joseph 
  Liberman and Hon. John D. Rockefeller IV.......................   118


                           NOMINATIONS TO THE

                    DEPARTMENT OF HOMELAND SECURITY,



                  THE DEPARTMENT OF COMMERCE, AND NASA

                              ----------                              


                       THURSDAY, OCTOBER 15, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:47 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. The hearing will come to order. I want to 
welcome and congratulate those who are going to be giving 
statements and being questioned today, and entering the eye of 
the storm. I think it's very courageous, people who take 
positions like this and have to go through vetting and all 
kinds of waiting, and we're going to have our hearing on such-
and-such a day, and then all of a sudden it's a week later and 
you're saying: What's going on here. We're actually trying to 
be as nice as possible, as nice as Senators can be.
    We're going to start with Erroll Southers, but we're not 
going to just yet. So that cleared everybody. He will be the 
nominee to be Assistant Secretary of Transportation Security 
Administration of the U.S. Department of Homeland Security. I 
will just say, as if you were at the table, Mr. Southers, the 
Department's going to need very strong and stable leadership in 
the coming years. I've expressed to you my own personal 
dissatisfaction with the--that's fine, you stay there; I'm 
looking right at you--with the Department of Homeland Security, 
in a number of respects. I think it's probably the most 
important agency because it has to do with homeland security. 
It's also the least recognized. It always comes in after all 
those that are making TV, et cetera.
    TSA's success is vital to our Nation's transportation, to 
all the people who use it, and also, most importantly, to our 
Nation's security. Should you be confirmed, I'm particularly 
interested in working with you and your colleagues to complete 
the Cargo and Surface Transportation Initiatives, to improve 
the security of general aviation--I want to talk about general 
aviation--and to discover and implement new technologies in 
commercial aviation security. So I look forward to your 
testimony.
    Our second panel will feature Dr. Pat Gallagher, who is the 
President's nominee to be Director of the National Institute of 
Standards and Technology. NIST, through its measurement, 
research, and calibration services, is essential to keeping our 
country strong and competitive, particularly in issues 
important to me, such as energy, climate change, and 
cybersecurity.
    You have served the organization well and honorably for 
many years and I know it remains in good hands with you at the 
helm.
    Finally, we welcome Beth Robinson, Dr. Beth Robinson, Dr. 
Elizabeth Robinson, the President's nominee to be Chief 
Financial Officer at the National Aeronautics and Space 
Administration; and Mr. Paul Martin, nominated to be the 
Inspector General at the same organization. If confirmed, both 
of you will have your jobs cut out for you. NASA is a major 
agency, which is trailed around with a bit of public 
skepticism, as you well know, particularly on the question of 
fiscal responsibility, accountability, that kind of thing, 
which tends to be important.
    Dr. Robinson, it will be your job to stabilize the agency's 
finances and, with your background, I'm confident you will make 
that happen.
    Meanwhile, the agency has gone without an effective 
inspector general for too long. I like IGs. I serve on the 
Intelligence Committee and I really like IGs. They can bring it 
down and they tend to be independent and they tend to say 
things which are the truth, which some of their bosses may not 
appreciate. But that's the way we learn.
    I think that there's a lot of waste, fraud, and abuse at 
NASA, and there is in Medicare, too. You're not alone. So those 
are very big organizations and it all has to be attacked very 
aggressively.
    With respect to you, Mr. Martin--where's Mr. Martin? OK, 
well, back there. I expect him to lead the effort, not only in 
cleaning up the Office of Inspector General, but, I also want 
him to oversee this multi-billion dollar agency, allocating its 
resources efficiently and using them effectively.
    So, thank you again for presenting yourself for public 
service. Many of you are already in it. All of your testimony 
will be, the full testimony, will be in the record, and then I 
have the honor to call on my colleague, Senator Kay Bailey 
Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I'm very 
pleased to be here. I won't reiterate the welcome that you have 
given to the four nominees, just to say that I have met with 
Mr. Southers in my office and I think that his experience in 
Los Angeles is certainly good experience for this job. I think 
it will be important to know his position on some of the key 
issues that might affect the Transportation Security 
Administration.
    This is an agency that many travelers depend on, and they 
have done an excellent job so far in protecting American 
travelers. But I think that we are looking at issues that might 
arise, and, one of course, would be the collective bargaining 
issue of the employees of this agency. We are always very 
careful when we have security forces and police officers and 
agents of all kinds who protect our security that we always 
protect against striking that might harm the public or disrupt 
the traveling public. So, I will want to know from Mr. Southers 
what his views are on that.
    Certainly I think that I would have to say I hear from many 
stakeholder groups in TSA that--not in TSA, but who work with 
TSA--that maybe the cooperation between the stakeholders and 
the TSA could be improved. I would certainly want to hear more 
about that.
    Dr. Robinson, I don't think anyone is skeptical about NASA. 
I think NASA is a great effort that this country has been 
committed to for a long time, and we just want to make sure 
that it is the best and that the financial reins that you will 
hold are used in a way that will make it as efficient as it can 
possibly be.
    But it is very constrained in its operations by a limited 
budget, and it's hard to put a limit when you are exploring and 
trying to do the creative things and trying things sometimes 
that work and sometimes that don't. So, I will certainly be 
interested in knowing how you will approach that job; and 
hearing from the Inspector General as well, Mr. Martin.
    Dr. Gallagher, for the Director of NIST, I will certainly 
look forward to hearing from you, and I appreciate all of you 
being willing to go through, as the Chairman said so well, the 
rigors of the vetting process to serve your country. So we 
appreciate that and we look forward to hearing more from you 
and having the ability to work with you as we go through this 
process. Thank you.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Chairman Rockefeller, for convening the hearing today to 
review these important nominations. We have several capable nominees to 
consider.
    On the first panel, we will consider Mr. Erroll Southers. Mr. 
Southers, we welcome you and appreciate your interest in being the next 
TSA Administrator. If confirmed, the job before you is extremely 
difficult and the decisions you make will have tremendous impact on the 
safety and economic viability of our national transportation system 
across all modes.
    The challenges and threat assessments our intelligence and security 
community face every day are too numerous to mention, but there are a 
number of initial topics I would like to briefly highlight.
    First is the issue of allowing transportation security officer's 
(TSO), or screeners, to collectively bargain. While Federal law 
prohibits screeners from going on strike, former TSA Administrators 
have argued that allowing screeners to collectively bargain could have 
dire consequences on TSA's fundamental security mission by degrading 
TSA's need for a flexible workforce that can react quickly to emerging 
threats. How you specifically intend to address the collective 
bargaining issue will be of great interest to this Committee.
    Second, you are going to have to work very hard to re-establish a 
more cooperative and trusting relationship with industry across all 
modes. I repeatedly hear from constituents and stakeholder groups that 
TSA quickly turns a deaf ear to cooperation and partnerships with 
industry and too often uses blunt force in policy areas that need a 
more highly coordinated and agreed upon approach.
    Third, the day-to-day management challenges of running and leading 
an agency of over 50,000 people is a difficult task for any manager. I 
will be interested to hear your thoughts on how you intend, if 
confirmed, to lead and manage the agency.
    Congress and the traveling public put an enormous amount of trust 
in the TSA every day. The inherent need and economic implications of 
maintaining a safe and secure transportation system are an integral 
part of our national security.
    I would also like to welcome our other nominees, who will appear on 
the second panel. Dr. Elizabeth Robinson has been nominated for the 
position of Chief Financial Officer at NASA. This is a very important 
position at NASA, and one of the keys to providing confidence in NASA's 
financial management and effective use of taxpayer dollars in 
fulfilling its very complex and challenging mission.
    I am also pleased that a nominee for NASA Inspector General has 
been selected. Mr. Martin appears well qualified for this position, 
which can and should serve as an important resource for both NASA and 
for the Congress.
    NASA is challenged, as never before, with continuing to conduct its 
unique and vital missions in an environment of constrained resources. 
We have seen improvements in NASA's financial management in recent 
years, and it is important that relatively recent new initiatives in 
financial management, accounting and reporting be continued, improved 
where necessary, and brought to fruition as new and effective financial 
policies and practices. Both Dr. Robinson and Mr. Martin hold 
impressive background experience to equip them well to undertake the 
challenges and responsibilities of these positions.
    I am also happy to welcome Dr. Patrick Gallagher, the nominee for 
the Director of the National Institute of Standards and Technology, 
here today. NIST is one of the key components to keeping America 
competitive. I believe that the Administration's selection of a career 
employee with more than fifteen years of experience at NIST will 
strengthen the agency and help further advance the goals and missions 
of NIST.
    Mr. Chairman, thank you, I look forward to hearing from the 
nominees.

    The Chairman. Thank you, Senator Hutchison.
    Now I believe the distinguished Senator from the State of 
Washington has an introduction to make.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
holding this hearing, and Ranking Member Hutchison and other 
committee members. It is important to get these nominees into 
positions that can help us work on these important policy 
issues.
    I'm pleased to introduce today to the Committee, Dr. 
Elizabeth Robinson, the President's nominee to be the Chief 
Financial Officer of NASA. We are very proud in the State of 
Washington that Dr. Robinson is a Washingtonian. While she has 
spent many years here in this Washington, she comes with great 
Pacific Northwest values.
    Currently Beth is the Director for Budget at the White 
House Office of Management and Budget, overseeing the 
development, enactment, and execution of President Obama's 
annual budget request, and she is the most senior career 
official at OMB. I want to thank Beth for her public service to 
date and her willingness to take on another challenging 
assignment.
    Beth's Washington State roots run deep and I know her 
family is with her here today and she's going to introduce 
them. I know that there are others, her mother and brother and 
sister, who could not join us today in person, but are watching 
the hearing on streaming video back in Washington State. They 
should all be very proud of her as well.
    The CFO of a technology agency needs to be very well versed 
in both budgetary and financial matters, needs to recognize the 
role Congress plays and not feel threatened by it, but should 
have the capacity to understand enough of the agency's 
technical issues to be able to ask the right questions. It's 
hard to find people with both of those skill sets.
    After meeting Beth, I came away feeling that her unique 
experience and demeanor makes her a great fit to be NASA's next 
CFO. I am genuinely impressed with her resume. I have always 
been a strong advocate for women who pursue degrees in math and 
science, and the first thing I notice is that Beth earned her 
Ph.D. in geophysics from MIT. Her thesis was about numerical 
modeling of the interior of the Earth, with comparisons to 
satellite data. Without needing to know any of the details, it 
tells me right away she has the ability to help keep NASA's 
program managers on their toes, and she understands numbers, 
but she also understands technology.
    But in addition, Dr. Robinson also understands the Hill. 
Having worked here for Representative Gephardt for several 
years, as a project director at the former Office of Technology 
Assessment, where she cut her teeth, and later for George Brown 
as a staff member of the House Science Committee, she has had 
great interaction with us and our colleagues.
    In the late 90s, Beth left the Hill to work at the Office 
of Management and Budget, and in 2003 she headed back to the 
Hill to serve as Deputy Director of the Congressional Budget 
Office. Among other duties, she oversaw the Management Division 
and reviewed signoff on all of its reports. After 2 years at 
CBO, Beth headed back to OMB to be the Assistant Director, 
where she remains today.
    So, if confirmed as the CFO of NASA, Beth will oversee the 
agency's financial management, personnel activities and 
operations, and I consider her to be a really strong nominee. I 
hope my colleagues will vote her out of the Committee as soon 
as possible so we can get on with the important business that 
needs to be accomplished at NASA.
    I thank the Chairman for this opportunity to introduce Dr. 
Robinson and I look forward to working with her and the other 
nominees that are on the docket today. I thank the Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Dr. Robinson, if you can sort of trade places with Mr. 
Southers. Thank you very much, Senator Cantwell.
    Senator Udall, do you have to make an introduction right 
now?
    Senator Udall. No.
    The Chairman. You don't.
    Senator Udall. No. I'm happy to do it in the order you have 
it set up, Mr. Chairman.
    The Chairman. All right.
    The floor is yours, Mr. Southers. We're happy to see you.

                STATEMENT OF ERROLL G. SOUTHERS,

                 ASSISTANT SECRETARY-DESIGNATE,

            TRANSPORTATION SECURITY ADMINISTRATION,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Southers. Thank you, Senator. Good afternoon, Chairman 
Rockefeller, Ranking Member Hutchison, and distinguished 
members of this Committee. It is a privilege to appear before 
you today as President Obama's nominee to be Assistant 
Secretary of the Department of Homeland Security for the 
Transportation Security Administration. I am honored by the 
President's nomination and greatly appreciate Secretary 
Napolitano's support.
    I look forward to this opportunity to address your 
questions as you consider my nomination. With the Committee's 
indulgence, I would like to thank my parents, James and Thelma; 
my wife, Karen; and our children James and Maiya, for all their 
support during this process and throughout my career. I would 
also like to thank the fine men and women of the Los Angeles 
World Airports Police Department, some of whom traveled to join 
me here today.
    I share the Secretary's vision that protecting our homeland 
from terrorism is a collective responsibility in which all 
Americans have a role to play. To protect our transportation 
systems, it is critical to work with all of our partners, 
including the other Federal agencies, State, local, and tribal 
governments, private industry, our international partners, and 
most important of all, our traveling public.
    By engaging these partners, we will more effectively 
protect the Nation's vital transportation systems, to ensure 
the free flow of United States commerce and the free movement 
of the American people.
    If confirmed, I know the honor of leading TSA will come 
with great challenges and responsibilities. TSA was created to 
respond to the threat of terrorism following the tragic events 
of September 11, 2001. I assure you that protecting our 
transportation systems from the ongoing threat of terrorism, 
while at the same time safeguarding the ability of all law-
abiding citizens to travel freely, will remain my highest 
priority.
    I have worked on public safety and counterterrorism matters 
at the Federal, State, and local level for 30 years, and if 
confirmed, I look forward to bringing valuable experience and 
perspective to TSA. Since 2007, I have served as an Assistant 
Chief, commanding the Office of the Homeland Security and 
Intelligence for the Los Angeles World Airports Police 
Department, LAWA, the largest aviation law enforcement agency 
and explosive detection K9 unit in the United States.
    I understand well the challenges of securing the Los 
Angeles International Airport, one of the most complex airports 
in the United States, as well as general aviation airports in 
Palmdale, Ontario, and Van Nuys. And I fully recognize the 
importance of ensuring the security of surface transportation 
through a risk-based and intelligence-driven approach.
    Since 2006, I also have served as the Associate Director 
for the Center for Risk and Economic Analysis of Terrorism 
Events, CREATE, at the University of Southern California, the 
Nation's first DHS center of excellence, where I developed the 
executive program in counterterrorism. This program is designed 
to challenge international counterterrorism leaders and enhance 
their analysis, coordination, and response capabilities.
    Protecting America against an ever-evolving threat requires 
an innovative and interdisciplinary approach to security. My 
experience with LAWA and CREATE has afforded me the opportunity 
to collaborate with my international counterparts and other 
world experts in sharing best practices to combat terrorism. If 
confirmed, I will continue to draw on these relationships to 
benefit TSA's mission, understanding that a professional and 
effective workforce will help promote public confidence and 
lead to a more secure and resilient America.
    Prior to joining the LAWA Police Department, I served as 
the Deputy Director of the California Office of Homeland 
Security for Governor Schwarzenegger. I was also responsible 
for post-9/11 counterterrorism policy and protection of 
California's critical infrastructure. While serving in this 
capacity, I also had the opportunity to participate in the 
national working group responsible for developing the national 
infrastructure protection plan.
    Secretary Napolitano has emphasized a ground-up approach to 
homeland security, an approach which epitomizes my professional 
development. During my career I have served as a special agent 
with the Federal Bureau of Investigation. There I worked on 
foreign counterintelligence and terrorism investigations and 
served as a member of the Bureau's SWAT team. I began my law 
enforcement career as a police officer for the Santa Monica, 
California, Police Department and I have been a faculty member 
and tactical officer at the Rio Hondo Police Academy.
    If confirmed, I am committed to providing the TSA workforce 
with the necessary leadership and support to ensure TSA's 
ability to protect the American public. I witnessed the great 
work of the transportation security officers every day and know 
firsthand the challenges they face to protect our aviation 
system. I admire their professionalism and dedication and would 
be honored to serve as their Assistant Secretary.
    In closing, I have enjoyed the opportunity to meet with 
members of the Committee and your staffs over the past few 
weeks. I am fully aware that this committee had a leading role 
in creating TSA. I welcome this committee's expertise and 
partnership. If confirmed, I look forward to working closely 
with each of you to support TSA's mission. You have my 
commitment that I will work to strengthen TSA's ability to 
counter the terrorist threat to our transportation systems 
while also safeguarding and enhancing the travel of people and 
the flow of goods.
    Mr. Chairman, Ranking Member Hutchison, I thank you for the 
opportunity to appear before you today and I look forward to 
answering your questions.
    [The prepared statement and biographical information of Mr. 
Southers follows:]

     Prepared Statement of Erroll G. Southers, Assistant Secretary-
 Designate, Transportation Security Administration, U.S. Department of 
                               Homeland 
                                Security
    Good afternoon, Chairman Rockefeller, Ranking Member Hutchison, and 
distinguished members of this Committee. It is a privilege to appear 
before you today as President Obama's nominee to be Assistant Secretary 
of the Department of Homeland Security (DHS) for the Transportation 
Security Administration (TSA). I am honored by the President's 
nomination and greatly appreciate Secretary Napolitano's support. I 
look forward to this opportunity to address your questions as you 
consider my nomination.
    With the Committee's indulgence, I would like to thank my parents, 
James and Thelma; my wife, Caryn; and our children, James and Maia, for 
all their support during this process and throughout my career. I would 
also like to thank the fine men and women of the Los Angeles World 
Airports Police Department, some of whom traveled to join me here 
today.
    I share the Secretary's vision that protecting our homeland from 
terrorism is a collective responsibility in which all Americans have a 
role to play. To protect our transportation systems, it is critical to 
work with all of our partners, including other Federal agencies, state, 
local, and tribal governments, private industry, our international 
partners, and most important of all, the traveling public. By engaging 
these partners, we will more effectively protect the Nation's vital 
transportation systems to ensure the free flow of U.S. commerce and the 
free movement of the American people.
    If confirmed, I know the honor of leading TSA will come with great 
challenges and responsibilities. TSA was created to respond to the 
threat of terrorism following the tragic events of September 11, 2001. 
I assure you that protecting our transportation systems from the 
ongoing threat of terrorism, while at the same time safeguarding the 
ability of all law-abiding Americans to travel freely, will remain my 
highest priority.
    I have worked on public safety and counterterrorism matters at the 
Federal, state, and local level for 30 years and, if confirmed, I look 
forward to bringing valuable experience and perspective to TSA. Since 
2007, I have served as an Assistant Chief, commanding the Office of 
Homeland Security and Intelligence for the Los Angeles World Airports 
(LAWA) Police Department, where I have enjoyed a valuable partnership 
with TSA in Los Angeles. I am currently responsible for all 
counterterrorism and security credential assets at the four airports 
under the LAWA organization. The LAWA Police Department is the largest 
aviation law enforcement agency in the United States and has the 
largest airport explosives canine detection unit in the Nation. I 
understand well the challenges of securing Los Angeles International 
Airport (LAX), one of the most complex airports in the United States, 
as well as general aviation airports in Palmdale, Ontario and Van Nuys, 
which is among the busiest general aviation airports in the Nation.
    Protecting America against an ever-evolving threat requires an 
innovative and interdisciplinary approach to security. In my current 
position with the LAWA Police Department, I participated in the 
conceptualization of the pilot Assistant Randomized Motor Over Routes 
(ARMOR) program designed to detect and deter vehicle-borne improvised 
explosive devices (IED). I am also involved with two DHS Chemical/
Biological Operational Technology Development Pilot and Preventative 
Radiological Nuclear Detection Programs.
    Since 2006, I also have served as the Associate Director for the 
Center for Risk and Economic Analysis of Terrorism Events (CREATE) at 
the University of Southern California (USC). I am responsible for the 
development and enhancement of education programs and special projects 
at CREATE, the Nation's first DHS Center of Excellence, and I developed 
the Executive Program in Counter-Terrorism, designed to challenge 
international counter-terrorism leaders and enhance their analysis, 
coordination, and response capabilities.
    My experience with LAWA and CREATE has afforded me the opportunity 
to collaborate with my international counterparts and other world 
experts in sharing best practices to combat terrorism. If confirmed, I 
will continue to draw on these relationships to benefit TSA's mission, 
understanding, that a professional and effective workforce will help 
promote public confidence and lead to a more secure and more resilient 
America.
    Prior to joining the LAWA Police Department, I served as the Deputy 
Director of the California Office of Homeland Security for Governor 
Schwarzenegger. I was responsible for post-9/11 counterterrorism policy 
and the protection of California's critical infrastructure. While 
serving in this capacity, I also had the opportunity to participate in 
the national working group responsible for developing the National 
Infrastructure Protection Plan (NIPP).
    Secretary Napolitano has emphasized a ``ground-up'' approach to 
homeland security, an approach which epitomizes my professional 
development. During my career I have served as a Special Agent with the 
Federal Bureau of Investigation. There I worked on foreign 
counterintelligence and terrorism investigations, and served as a 
member of the Bureau's SWAT Team. I began my law enforcement career as 
a police officer for the Santa Monica, California Police Department and 
I have been a faculty member and tactical officer at the Rio Hondo 
Police Academy.
    If confirmed, I am committed to providing the TSA workforce with 
the necessary leadership and support to ensure TSA's ability to protect 
the American public. I witness the great work of Transportation 
Security Officers every day and know firsthand the challenges they face 
to protect our aviation system. I admire their professionalism and 
dedication and would be honored to serve as their Assistant Secretary.
    I also believe that a close working relationship with Congress and 
this Committee is essential. I am fully aware that this Committee had a 
leading role in creating TSA, and has encouraged TSA to enhance 
security in surface transportation, while never losing focus on the 
continuing threat to aviation and the flow of goods. I fully recognize 
and understand that improving surface transportation security is a work 
in progress and one to be addressed with a strategy that is risk-based 
and intelligence-driven.
    I have enjoyed the opportunity to meet with Members of this 
Committee and your staffs over the past few weeks. I welcome this 
Committee's expertise and important oversight function, and if 
confirmed I look forward to working closely with this committee to 
support TSA's mission.
    In closing, I wish to again thank President Obama and Secretary 
Napolitano for their confidence in my ability to lead TSA. If 
confirmed, I will work to improve TSA's ability to counter the 
terrorist threat to our transportation systems, while also safeguarding 
and enhancing the travel of people and the flow of goods. Mr. Chairman, 
Ranking Member Hutchison, I thank you for the opportunity to appear 
before you today and I look forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Erroll 
Gregory Southers.
    2. Position to which nominated: Assistant Secretary of Homeland 
Security (Transportation Security Administration).
    3. Date of Nomination: September 17, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Los Angeles World Airports Police Department, 9841 
        Airport Boulevard, Los Angeles, CA 90045.

        Office: University of Southern California, 3710 McClintock 
        Avenue, RTH 305, Los Angeles, CA 90089.

    5. Date and Place of Birth: August 9, 1956; Elizabeth, New Jersey.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Caryn S. Beck-Southers (Spouse), Literacy Coach, Los Angeles 
        Unified School District; children: James E. Southers (Son--22 
        yrs.), Maia D. Southers (Daughter--9 yrs.).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Brown University, BA--1978.

        University of Southern California, MPA--1998.

        University of Southern California (I am currently a student in 
        the doctorate program--DPPD expected in 2011).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    Management-level or related

        Assistant Chief of Homeland Security and Intelligence (2007 to 
        present)--Los Angeles World Airports Police Department.

        Associate Director (2006 to present)--CREATE (Center for Risk 
        and Economic Analysis of Terrorism Events), University of 
        Southern California (A Department of Homeland Security ``Center 
        of Excellence'').

        Deputy Director for Critical Infrastructure (2004-2006)--
        California Governor's Office of Homeland Security.

        Chief of Protective Services (1991-1993/1995-1999).

        Assistant Vice President/Chief of Protective Services (1999-
        2004)--Los Angeles County Museum of Art.

        President and CEO (1997-2004)--Risk Management Consultants 
        International.

        Executive Director (1993-1995)--City of Long Beach, Citizen 
        Police Complaint Commission--City Manager's Office.

    Other Employment

        Adjunct Professor of Homeland Security and Public Policy (2003 
        to present)--University of Southern California.

        Special Agent (1984-1988)--Federal Bureau of Investigation.

        Faculty and Tactical Officer (1982-1984)--Rio Hondo Police 
        Academy.

        Police Officer (1980-1984, 1988-1991)--Santa Monica Police 
        Department.

        Research Assistant (1978-1979)--Department of Endocrinology, 
        Rhode Island Hospital, Rhode Island.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        LAX Airport Security Advisory Committee (2005-2006).

        DHS Center for Risk Economic Analysis and Terrorism Events 
        (CREATE) Government Advisory Board (2004-2006) (This was not a 
        Federal advisory committee).

        U.S. Department of State Overseas Security Advisory Council.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Risk Management Consultants International, President and CEO, 
        (1997-2004).

        University of Southern California, School of Policy, Planning 
        and Development Alumni Association--Co-Chair (2004-2007); Board 
        Member Emeritus--honorary position (2007 to present).

        Risk Management Solutions, Consultant (2007).

        Contemporary Services Corporation, Consultant (2006).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

    Current Memberships

        Society of Former Special Agents of the FBI, 1997 to present.

        International Association of Chiefs of Police, 1991-1993/2008 
        to present.

        University of Southern California School of Policy, Planning 
        and Development Alumni Association, Co-Chair, 2004-2007; Board 
        Member Emeritus, 2007 to present.

    Past Memberships

        International Association for Counterterrorism and Security 
        Professionals, Member, 2007-2009.

        Miracle Mile Chamber of Commerce, Member, 2004-2005.

        University of Southern California Professional Development 
        Mentor Program, Member, 2003-2005.

        University or Southern California, School of Policy, Planning 
        and Development Strategic Planning Group, Member, 2003-2004.

        University of Southern California Alumni Advisory Committee, 
        Member, 2003-2004.

        LA Youth Newspaper Advisory Board, Member, 2003-2004.

        International Foundation for Cultural Property Protection, 
        Chair; Chair, 2001-2002; Member, 1996-2004.

        American Society for Public Administration, Member, 1996-1998.

        Western Museums Association, 1995-2004; Board of Directors, 
        1999-2004; Member, 1995-1998.

        American Association of Museums, Security Committee, Member, 
        1992-2004.

        American Society for Industrial Security, 1991-2004; Member, 
        1991-2004; Chair, Museum and Cultural Properties Committee, 
        1998-2000.

        Brown University Alumni Schools Committee, (approximate dates) 
        1991-1995/2001-2004).

    * None of these organizations restricts membership on the basis of 
sex, race, color, religion, national origin, age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Yes. I was appointed Deputy Director for Critical Infrastructure 
and served from 2004-2006 in the California Governor's Office of 
Homeland Security.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    I served as a volunteer advisor to the Homeland Security Policy 
Group during Senator Obama's Presidential Campaign. (2008)
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        USC Widney Alumni House Award (2007).

        American Assembly of Columbia University Next Generation Fellow 
        (2007).

        UCLA School of Public Affairs Senior Fellow (2006-2009).

        Certified in Homeland Security Program Top Achiever Award 
        (2006).

        Los Angeles Miracle Mile Civic Coalition Good Heart Award 
        (2005).

        USC School of Policy, Planning and Development Outstanding 
        Alumni Award (2004).

        International Organization of Black Security Executives Leading 
        Edge Award (1999).

        Police Department Medals for: Counterterrorism, 1984 Olympics, 
        Professional Achievement and Marksmanship.

        Rio Hondo Police Academy Outstanding Cadet Award (1980).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Articles and Publications

        International Research Proposal: Peroxide-Based Explosives 
        Detection Technologies and Risk Assessment--This was a grant 
        proposal the University of Southern California submitted in 
        2007 to the Department of Homeland Security. I co-authored the 
        proposal.

        International Counter-Terrorism Conference (Herzliya, Israel) 
        Abstract--In 2008, at the World Summit on Counter-Terrorism, I 
        presented information on aviation related terrorism.

        Nuclear Power Plant Conference Abstract--In 2007, at the 
        National Radiological Emergency Preparedness Conference, I 
        outlined a brief history of the lessons learned from a variety 
        of international incidents, my studies abroad, and work 
        undertaken by the Homeland Security Centers of Excellence.

        Counter-Terrorism Tools and Approaches Abstract--In 2006, at 
        the LA Terrorism Early Warning Group Conference, I presented 
        information describing the beginning of an interdisciplinary 
        response to the proposed implementation of the National 
        Infrastructure Protection Plan (NIPP).
Speeches

    2009

        Joint Chiefs of Staff Level IV Antiterrorism Seminar, ``Social 
        Network Analysis and the Protection of Critical 
        Infrastructure'', McLean, VA.

        International Terrorism Intelligence (ITI) Conference, ``Threat 
        Categorization and Pro-Active, Intelligence-Led Preventive 
        Security'', Washington, D.C.

        Airport Security Coordinator Training Program, ``Homeland 
        Security and the Protection of the Aviation Domain'', Los 
        Angeles, CA.

        CPM 2009 West--Business Resilience Strategies, Keynote Speaker, 
        Las Vegas, NV.

        10th Annual California Tourism Safety and Security Conference, 
        Keynote Speaker, Anaheim, CA.

        Stanford University, Guest lecturer--``Dilemmas in Counter-
        Terrorism Decision-Making'', Palo Alto, CA.

        Redondo Police Department Citizens Academy, ``Counter-Terrorism 
        101'', Redondo, CA.

        2009 International AVSEC Conference, ``Strategies Against 
        Terrorism'', Hong Kong, Hong Kong.

        Joint Chiefs of Staff Level IV Antiterrorism Executive Seminar, 
        ``Social Network Analysis and the Protection of Critical 
        Infrastructure'', Tysons Corner, VA.

        Federal Air Marshals International Group, ``LAX Counter-
        Terrorism Brief'', Los Angeles, CA.

        Los Angeles Mayor's Office Retreat, ``LAX Homeland Security and 
        Intelligence'', Los Angeles, CA.

        The Boeing Corporation, ``Industrial Security Counter-Terrorism 
        Brief'', Huntington Beach, CA.

        El Segundo Law Enforcement Roundtable, ``Social Network 
        Analysis & The Protection of Critical Infrastructure'', El 
        Segundo, CA.

    2008

        DHS and IBC Roundtable on Security and Liberty: Perspectives of 
        Young Leaders, ``Toronto, London and Madrid: Could it Happen 
        Here?'', Los Angeles, CA.

        19th Annual ISAC Seminar, ``Terrorist Networks and Protecting 
        Critical Infrastructure'', Long Beach, CA.

        California Governor's Office of Homeland Security Training 
        Conference, ``Threat Briefing'', Monterey, CA.

        Chairman, Joint Chiefs of Staff Level IV Antiterrorism 
        Executive Seminar, ``Terrorist Networks and Protecting Critical 
        Infrastructure'', Washington, D.C.

        Research Security Associates Seminar, ``Analyzing, Mitigating, 
        Responding and Managing Threats and Emergencies'', Fountain 
        Valley, CA.

        World Summit on Counter-Terrorism, ``Aviation Terrorism: Common 
        Sense or Ticking Boxes'', Herzliya, Israel.

        Visit to California of British Columbia Officials, ``Social 
        Networking and Critical Infrastructure Protection'', Los 
        Angeles, CA.

        Governor's Office of Homeland Security Annual Conference, 
        ``Social Networking and Terrorism'', Palm Desert, CA.

        Great Lakes Homeland Security Training Conference and Expo, 
        ``Keynote'', Great Lakes, MI.

        National Radiological Emergency Preparedness Conference, ``The 
        Terrorist Threat in America: What CNN Hasn't Told You!'', Las 
        Vegas, NV.

        Chairman, Joint Chiefs of Staff Level IV Antiterrorism 
        Executive Seminar, ``Terrorist Networks and Protecting Critical 
        Infrastructure'', Washington, D.C.

        2008 Beijing Olympics, Terrorism Update and Counter-terrorism 
        Assessment, Beijing, Shanghai and Qingdao, China.

        Homeland Security S&T Stakeholders Conference--West, Keynote 
        Speaker, Los Angeles, CA.

    2007

        Boeing National Security Briefing, ``Counter-Terrorism 
        Update'', Huntington Beach, CA.

        Greater LA ISAC Seminar, ``The Terrorist Threat'', Long Beach, 
        CA.

        LAX Chamber of Commerce Annual Protector's Breakfast, 
        ``Intelligence and Counter-Terrorism'', Los Angeles, CA.

        Center for Asymmetric Warfare Conference, ``Terrorism 
        Radicalization and Indoctrination'', Los Angeles, CA.

        Western Museums Association Annual Conference, ``Counter-
        Terrorism Update'', Oakland, CA.

        USC Executive Management in Leadership Master's Program, 
        ``Guest Lecture--Leadership in Adversity'', Los Angeles, CA.

        Aviation Career Education Graduation, ``Career Development'', 
        Los Angeles, CA.

        Santa Monica Rotary Club, ``LAX--Intelligence and Counter-
        Terrorism'', Los Angeles, CA.

        Sacramento Homeland Security Regional Training, ``Counter-
        Terrorism High Rise Training Class'', Sacramento, CA.

        2007 American Council of Young Political Leaders--UCLA, ``The 
        Ethics of Decision Making'', Los Angeles, CA.

        2007 University of Southern California Commencement, ``Alumni 
        Address'', Los Angeles, CA.

        National Radiological Emergency Preparedness Conference, 
        ``Terrorism: The Threat, The Response'', Newport Beach, CA.

        Chicagoland Chapter of Young Presidents Organization, 
        ``Terrorism: The Threat, The Response'', Chicago, IL.

        Boeing Aerospace, ``Reducing the Risks After 9/11'', Anaheim, 
        CA.

        University of Southern California Board of Trustees Annual 
        Retreat, CREATE panel presentation, La Quinta, CA.

        Whittier College Homeland Security Conference, ``America at 
        Risk: The Nexus of Homeland Security and Transportation 
        Policy'', Whittier, CA.

        Ottawa Law School, ``Terrorist Targeting Methodology: Lessons 
        Learned'', Ottawa, Canada.

        Global Futures Forum, ``An Interdisciplinary Perspective: 
        Preventing and Contributing to Social Tension-The Paradox of 
        Education in Multiculturalism'', Ottawa, Canada.

        Los Angeles District Rotary Meeting, ``Creating Networks to 
        Counter Terrorist Networks'', Los Angeles, CA.

    2006

        CALSAGA 2006 Annual Conference, ``Report on California Homeland 
        Security'', Temecula, CA.

        17th Annual ISAC Seminar, ``Critical Infrastructure: The 
        Terrorist Threat--The Response'', Long Beach, CA.

        LA Terrorism Early Warning Group Conference, ``Counter-
        Terrorism Tools and Approaches'', Santa Monica, CA.

        Long Beach Rotary Club, ``Responding to the Terrorist Threat: 
        Creating Networks to Combat Terrorist Networks'', Long Beach, 
        CA.

        CalTrans Response and Recovery Conference, ``Responding to the 
        Terrorist Threat: Creating Networks to Combat Terrorist 
        Networks'', Rancho Cordova, CA.

        The One Hundred Club of Contra Costa County, ``Responding to 
        the Terrorist Threat: Building Networks to Counter Terrorist 
        Networks'', San Ramon, CA.

        California Alliance for Response, ``The Terrorist Threat--
        Building Networks to Fight Networks'', Los Angeles, San Diego, 
        San Francisco and Sacramento, CA.

        Irvine Police Department Public/Private Partnership, 
        ``Countering the Terrorist Threat'', Irvine, CA.

        Los Angeles Police Protective League Annual Delegates 
        Conference, ``Homeland Security'', Rancho Mirage, CA.

        Black Journalists Association of Southern California, 
        ``Homeland Security and the Terrorist Threat'', Los Angeles, 
        CA.

        Los Angeles County 2006 Commissioner's Leadership Conference, 
        ``Luncheon Speaker'', Los Angeles, CA.

        San Diego Regional Terrorism Threat Assessment Center Briefing, 
        ``OHS and the State of Critical Infrastructure Protection'', 
        San Diego, CA.

        CREATE--The Risks and Economic Impacts of Terrorist Attacks 
        Conference, ``Risk Based Decision Making Panel'', Los Angeles, 
        CA.

        Anti-Defamation League Advanced Security Training for Jewish 
        Institutions, ``Homeland Security--Keynote'', Los Angeles, CA.

        Rotary GSE Forum, ``Homeland Security'', Wilmington, CA.

        Chemistry Industrial Council of California, ``Critical 
        Infrastructure'', Los Angeles, CA.

        Office of Homeland Security Community College Briefing, 
        ``Critical Infrastructure'', Long Beach, CA.

        The Security Network Seminar on the Protection of Critical 
        Infrastructure, ``Homeland Security'', San Diego, CA.

        International Organization of Black Security Executives Annual 
        Conference, ``Status of Homeland Security'', Orlando, FL.

        Project GRAD, ``Careers in Justice: A Town Hall Meeting'', Van 
        Nuys, CA.

        UCLA Spring 2006 Lecture Series on National and Human Security 
        Worldwide, ``California Counter-Terrorism UNCLASSIFIED: 
        Everything You Thought You Heard on CNN but Didn't'', Los 
        Angeles, CA.

        California State University OHS Briefing, ``State OHS 
        Strategy'', Long Beach, CA.

        Research Security Administrators Seminar, ``State OHS Role'', 
        San Ramon, CA.

        Law Enforcement Leadership Management Symposium, ``Law 
        Enforcement's Important Role in Homeland Security'', San 
        Francisco, CA.

        Aerospace Security Conference, ``Critical Infrastructure 
        Protection'', El Segundo, CA.

        Independent Cities Association Annual Conference, ``Homeland 
        Security'', Santa Barbara, CA.

        Office of Homeland Security Regional Conference, ``Critical 
        Infrastructure'', Los Angeles, CA.

        Office of Homeland Security Regional Conference, ``Critical 
        Infrastructure'', San Jose, CA.

        Chief Executive Forum--Criminal Intelligence Bureau, ``Critical 
        Infrastructure Protection'', San Diego, CA.

        HID Corporation Seminar, ``Take Control in a Rapidly Changing 
        Security Market'', Houston, TX.

    2005

        Chief Executive Seminar, ``Homeland Security and Infrastructure 
        Protection'', Monterey, CA.

        International Association of Museum Facilities Administrators, 
        ``Homeland Security'', San Francisco, CA.

        San Jose Water District, ``Terrorism Threat Update'', San Jose, 
        CA.

        California State Conference of the NAACP, ``Governor's 
        Remarks'', Los Angeles, CA.

        USC Graduate Policy Administration Community, ``Leadership 
        Series'', Los Angeles, CA.

        Peace Officers Association of Los Angeles County, ``Luncheon 
        Keynote'', Montebello, CA.

        American College of Forensic Examiners Institute Homeland 
        Security Conference, Homeland Security Keynote, San Diego, CA.

        St. Mary's Medical Center Emergency Preparedness Forum, 
        Critical Infrastructure and the Terrorist Threat, Long Beach, 
        CA.

        ASIS Law Enforcement and Security Officer Appreciation Day, 
        Keynote Address, Studio City, CA.

        Orange County Ready Disaster Conference, ``Homeland Security 
        and Emergency Preparedness'', Garden Grove, CA.

        MCI Security Conference, ``Homeland Security'', Santa Ana, CA.

        Monterey County Chief Law Enforcement Officers, ``California 
        Critical Infrastructure Protection Strategy'', Salinas, CA.

        Orange County American Society of Safety Engineers Professional 
        Development Conference, ``California Homeland Security in 
        2005'', Costa Mesa, CA.

        Infragard 2005 Security Symposium, ``The Terrorist Threat and 
        Disaster Preparedness'', Sacramento, CA.

        California Fire Technology Director's Association, ``Homeland 
        Security and Emergency Preparedness'', Sacramento, CA.

        Chief Special Agents Association, ``Homeland Security'', 
        Oakland, CA.

        Miracle Mile Safety Summit, ``Emergency Preparedness and the 
        Local Community'', Los Angeles, CA.

        Long Beach Pipeliners Association, ``Critical Infrastructure 
        and the Terrorist Threat'', Long Beach, CA.

        MCI Security Conference, ``Homeland Security and Buffer Zone 
        Protection Plans'', Sacramento, CA.

        Southeast Region Community Awareness and Emergency Response 
        Forum, ``Buffer Zone Protection Plans and the Chemical Industry 
        Sector'', Whittier, CA.

        LAPD Law Enforcement and Private Security Conference, 
        ``Homeland Security and Private Security'', Los Angeles, CA.

        Los Angeles Sheriff's Department University Graduation, 
        ``Commencement Keynote Address'', Whittier, CA.

        Chiefs Executive Seminar on Criminal Intelligence, ``Critical 
        Infrastructure Protection and the Buffer Zone Protection 
        Plan'', Monterey, CA.

        California College and University Police Chiefs Association 
        Conference, ``Weapons of Mass Destruction and the Terrorist 
        Threat'', South Lake Tahoe, CA.

        American Legal Institute--American Bar Association, 
        ``Preventative Planning and Emergencies, Including Terrorism'', 
        San Francisco, CA.

        Computer Crime Conference, ``Homeland Security'', Los Angeles, 
        CA.

        Department of Justice--Criminal Intelligence for Executives, 
        ``Identifying Critical Assets and the Use of Criminal 
        Intelligence to Analyze Pre-Incident Indicators'', San Diego, 
        CA.

        South Bay Cities Council of Governments Task Force on Homeland 
        Security, ``Homeland Security and Buffer Zone Protection 
        Plans'', El Segundo, CA.

        South Bay Industrial Security Meeting, ``Homeland Security 
        Update'', El Segundo, CA.

        National Conference on Cultural Property Protection, Keynote: 
        ``Homeland Security'', Las Vegas, NV.

        Independent Cities 17th Annual Winter Forum, ``Homeland 
        Security Forum: Be Prepared'', Santa Barbara, CA.

        Baaden, Hoy and lannone 4th Annual Security Symposium, 
        ``Homeland Security'', Torrance, CA.

        California Community Awareness and Emergency Response 
        Association, ``Buffer Zone Protection Plans'', Carson, CA.

        USC Capitol Career Day, ``Careers in Government'', Sacramento, 
        CA.

    2004

        UCLA School of Public Affairs Homeland Security Conference, 
        ``Local and State Preparedness'', Los Angeles, CA.

        Fire Chiefs Leadership Seminar, ``Homeland Security Strategy 
        and Exercise/Training Programs'', Monterey, CA.

        Los Angeles Tenth Council District Public Safety Fair, 
        ``Emergency Preparedness'', Los Angeles, CA.

        International Foundation for Cultural Property Protection 
        Conference, ``Homeland Security Update'', Las Vegas, NV.

        Los Angeles Sheriff's Department Community Advisory Conference, 
        ``Homeland Security'', Los Angeles, CA.

        Los Angeles County Fire Chiefs Meeting, ``Homeland Security'', 
        Los Angeles, CA.

        USMC Antiterrorism and Critical Infrastructure Protection 
        Conference, Closing Keynote for Governor Schwarzenegger, San 
        Diego, CA.

        Tri-Valley Human Resources Association, ``Homeland Security'', 
        Pleasanton, CA.

        Second Annual Bay Area Conference on Homeland Security, 
        ``Building State and Regional Preparedness'', Oakland, CA.

        Homeland Security Forum, ``California Office of Homeland 
        Security'', Irwindale, CA.

        Mayor James K. Hahn Homeland Security Leadership Summit, 
        ``California Roundtable: The State of Preparedness'', Los 
        Angeles, CA.

        League of California Cities Conference, ``Homeland Security and 
        Emergency Preparedness'', Long Beach, CA.

        National Association of Emergency Medical Services Educators, 
        Invited Speaker--Represented Governor Schwarzenegger, 
        Hollywood, CA.

        Release of Souls USA Tour--9/11 Salute to Uniformed Personnel, 
        Guest Speaker, San Diego, CA.

        Release of Souls USA Tour--9/11 Salute to Uniformed Personnel, 
        Master of Ceremonies, Pasadena, CA.

        Southern California Petroleum Club, ``Homeland Security'', Long 
        Beach, CA.

        California State University Police Chiefs, ``Homeland 
        Security'', Long Beach, CA.

        International Electronics Security Group, ``The Governor's 
        Office of Homeland Security'', Santa Clara, CA.

        General Accounting Office, ``Terrorism in a Post-9/11 World'', 
        Los Angeles, CA.

        Miracle Mile Residential Association Annual Meeting and 2151 
        Anniversary Celebration, ``Emergency Preparedness for the 
        Miracle Mile'', Los Angeles, CA.

        Independent School Association of the Southwest Conference, 
        ``How Big Is Your Security Blanket?'', Dallas, TX.

        Foundations Inc. Beyond School Hours Conference, ``How Big Is 
        Your Security Blanket?'', San Diego, CA.

    2003

        Culver City Rotary Club, ``Terrorism in a Post 9/11 World'', 
        Culver City, CA.

        National Middle School Association Annual Conference, ``How Big 
        Is Your Security Blanket?'', Atlanta, GA.

        Los Angeles County Office of Education Regional Training, 
        ``Security and Safety for After-School Programs'', Los Angeles 
        and Long Beach, CA.

        International Foundation for Cultural Property Protection, 
        ``Cultural Institutions and the Terrorist Threat'', ``Homeland 
        Security'' San Simeon, CA.

        Mid-Atlantic Association of Museums Annual Conference, 
        ``Security in a Post-9/11 World'', Newark, NJ.

        RTK ArchitectsfRisk Management Consultants International 
        Seminar, ``Rethinking Public Safety: Security Through Design'', 
        Santa Monica, CA.

        California League of Middle Schools Annual Conference, ``How 
        Big Is Your Security Blanket?'', San Diego, CA.

        California League of High Schools/National High School 
        Association, ``How Big Is Your Security Blanket?'', North Lake 
        Tahoe.

    2002

        University of Southern California, School of Policy, Planning 
        and Development, ``Intergovernmental Management'', Los Angeles, 
        CA.

        California League of High Schools/National High School 
        Association Annual Conference, ``How Big Is Your Security 
        Blanket?'', Monterey, CA.

        International Foundation for Cultural Property Protection 
        Training Seminar, ``Changing the Face of Security,'' 
        ``Emergency Preparedness/Evacuations'', ``Insider Theft'', 
        Dallas, TX.

        International Foundation for Cultural Property Protection 
        Training Seminar, Certified Institutional Protection Manager 
        Training, Athens, GA.

        Museum Association of Arizona Annual Conference, ``Stealing 
        Away: Preventing Theft Inside and Out'', Camp Verde, AZ.

        American Legal Institute-American Bar Association Annual 
        Conference, ``Safeguarding and Security of Museums, Visitors, 
        Staff, Collections, and Facilities: Practical Issues'', 
        ``Disaster Planning and Response'', Los Angeles, CA.

        National Conference on Cultural Property Protection, ``The Pros 
        and Cons of Contract Security'', Charleston, SC.

        California Association of Independent Schools Trustee/Heads 
        Annual Conference, ``The Independent School in a Changed World: 
        Security Implications'', San Francisco, CA.

        Pueblo Grande Museum Regional Training Seminar, ``How Big is 
        Your Security Blanket?'', Phoenix, AZ.

    2001

        University of Southern California, School of Policy, Planning 
        and Development, ``The FBI and Local Government'', Los Angeles, 
        CA.

        International Foundation For Cultural Property Protection 
        Annual Conference, ``Emergency Preparedness,'' ``Workplace 
        Violence,'' ``Domestic Terrorism, Gangs and Subversive 
        Groups'', Keystone, CO.

        Los Angeles County Museum of Art Docent Council, ``Security--At 
        Work and At Home'', Los Angeles, CA.

        Western Museums Association Annual Conference, ``Threats in 
        Museums'', Palm Springs, CA.

        American Association of Museums Annual Meeting, ``Blockbuster 
        Planning and Recovery'', St. Louis, MO.

        Association of Art Museum Administrators Conference, ``The 
        Visitor Experience'', Los Angeles, CA.

        Texas Association of Museums Annual Conference, ``Preparing for 
        the Inevitable: Emergency Preparedness and Response'', San 
        Antonio, TX.

        Los Angeles County Museum of Art Docent Training Session, 
        ``Security Awareness'', Los Angeles, CA.

        National Conference on Cultural Property Protection, 
        ``Challenges in Managing the Blockbuster Exhibition: Designing 
        a Visitor Services Plan'', Arlington, VA.

        International Foundation for Cultural Property Protection 
        Annual Conference, ``Emergency Preparedness/Workplace 
        Violence'', Denver, CO.

        The Center for Early Education Parent Night, ``Conceptual 
        Protection Plan'', West Hollywood, CA.

    2000

        Wildwood School Staff Orientation, ``Security Awareness'', Los 
        Angeles, CA.

        ASIS International 46th Annual Seminar and Exhibits, ``Assaults 
        on Public Institutions'', Orlando, FL.

        Federal Protective Service Regional Director's Conference, 
        ``Tactical Ultraviolence: Preparing for Catastrophic Events'', 
        Potomac, MD.

        American Association of Museums, ``Assaults on Public 
        Institutions--Protecting Life and Valuable Assets in the New 
        Millennium'', Baltimore, MD.

        International Organization of Black Security Executives Annual 
        Conference, ``Lessons Learned from Schoolplace Violence'', 
        Washington, D.C.

        National Conference on Cultural Property Protection, 
        ``Preparing for Crisis--Assaults on Public Institutions'', 
        Arlington, VA.

        California Association of Independent Schools Trustee School 
        Head Conference, ``At Risk Youth and Schoolplace Violence'', 
        San Francisco, CA.

    1999

        International Foundation for Cultural Property Protection 
        Annual Conference, ``Assaults on Public Institutions: Lessons 
        Learned'', ``Subversive Groups, Gangs, Domestic Terrorists'', 
        Denver, CO.

        KTWV ``Points of Light Program'', ``Hate Crimes, Workplace and 
        School Violence'', Culver City, CA.

        ASIS International Annual Seminar and Exhibits, ``Soft Targets 
        and the Terrorist Threat'', Las Vegas, NV.

        Western Museums Association Annual Meeting, ``The Impact of 
        Terrorism on Cultural Institutions'', Sacramento, CA.

        International Organization of Black Security Executives Annual 
        Conference, ``Terrorism: The Real Threat'', San Francisco, CA.

        The Human Resources Consortium of Cultural Institutions of 
        Massachusetts, ``Visitor Services/Emergency Preparedness and 
        Response Seminars'', Boston, MA.

    1998

        National Conference on Cultural Property Protection, ``Customer 
        Service Means Better Security'', Arlington, VA.

        American Association of Museums 93rd Annual Meeting and Museum 
        Expo, ``And If the Creeks Don't Rise: Preparing for and 
        Recovering from Emergencies'', Los Angeles, CA.

        Mashantucket Pequot Museum and Research Center, ``Security 
        Officer Basic Training Program'', Mashantucket, CT.

        Museum of Fine Arts, ``Emergency Preparedness in Museums'', 
        Boston, MA.

        Dallas Museum of Art, ``Emergency Preparedness and Response in 
        Museums'', Dallas, TX.

    1997

        National Conference on Cultural Property Protection, ``Gangs 
        and Youth Violence'', Raleigh, NC.

        American Association of Museums Annual Meeting, ``Gangs and 
        Youth Violence'', Atlanta, GA.

        African American Museum Association Conference, ``The Role of 
        Security in Visitor Services'', Baltimore, MD.

        American Society for Industrial Security, ``Gangs and Youth 
        Violence'', St. Louis, MO.

        Denver Crimestoppers, ``Gangs and Extremist Groups'', Denver, 
        CO.

    1994

        Long Beach Rape Treatment Center, ``Gang Recognition and 
        Response'', Long Beach, CA.

    1993

        Western Museums Association Conference, ``Gang Awareness'', 
        Riverside, CA.

        South Bay Security Directors Association, ``Gang Recognition 
        and Response'', El Segundo, CA.

    1992

        Museum Security Directors Roundtable Meeting, ``Gang 
        Recognition and Response'', San Marino, CA.

        National Conference on Cultural Property Protection, 
        ``Recovering the Museum Collection from the 1992 Civil 
        Unrest'', Washington, D.C.

        Hughes Aircraft Employee Awareness Training, ``Gang 
        Awareness'', El Segundo, CA.

    1991

        Los Angeles County Museum of Art Docent Council, ``Gang 
        Awareness'', Los Angeles, CA.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I provided testimony before the U.S. House of Representatives 
Committee on Homeland Security on May 6, 2008, at a hearing on the 
following topic--``The Resilient Homeland--Broadening the Homeland 
Security Strategy.''
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Over thirty years, I have worked at every level of government, in 
the private sector and in academia, engaged in efforts to protect the 
public safety and ensure our national security. As the Associate 
Director of the DHS Center of Excellence (COE), the Center for Risk and 
Economic Analysis of Terrorism Events (CREATE) at the University of 
Southern California (USC), I am responsible for the development and 
enhancement of educational programs and special projects. In an effort 
to analyze the counter-terrorism challenges and best practices I have 
observed around the world, I conceptualized the Executive Program in 
Counter-Terrorism, which challenges international counterterrorism 
leaders and enhances their analysis, coordination and response 
capabilities to the evolving terrorism threat. CREATE has also become 
known internationally for the implementation of the ARMOR (Assistant 
for Randomized Motoring Over Routes) Program, a game theory, algorithm-
based system, we piloted at the Los Angeles International Airport 
(LAX). As a result of its success, ARMOR has been adopted by DHS for 
use in other critical infrastructure targets throughout the Nation.
    As Chief of the Office of Homeland Security and Intelligence for 
the Los Angeles World Airports Police Division, I am responsible for 
the security of one of the primary terrorist targets in the United 
States. I was recruited to join the police division, the largest in the 
nation, in order to advance the airport's counter-terrorism strategies. 
During my tenure, we have introduced a number of premier, 
interdisciplinary projects, garnering the attention of the national 
security and aviation community. CREATE and LAX have taken the lead in 
experimenting with solutions to critical infrastructure 
vulnerabilities, including several projects involving other nations, 
with long-standing experience with specific terrorist targeting 
methodologies.
    I have also lectured internationally and as an adjunct professor of 
homeland security and public policy in the Master's Program at USC 
since 2003. It was a highlight of my career, to be invited to Beijing, 
Shanghai and Qingdao to assess the proposed terrorism counter-measures 
before the 2008 Olympics. During my tenure as the Deputy Director for 
Critical Infrastructure in the California Governor's Office of Homeland 
Security, I was responsible in 2004 for the statewide rollout of 
Homeland Security Presidential Directive 7, the identification, 
prioritization and protection of critical infrastructure. I was also 
chosen to serve as the California representative for the Protected 
Critical Infrastructure Information (PCII) Program, an initiative 
piloted by DHS. I believe that my time at the FBI investigating 
terrorism and foreign counterintelligence matters and serving on the 
Bureau's SWAT Team, my 10 years as Chief of Protective Services at the 
Los Angeles County Museum of Art, and the start of my law enforcement 
career as a patrol officer in the Santa Monica Police Department are 
all important experiences that I can bring to DHS if I am confirmed.
    Ultimately, I understand the importance of a strong work ethic and 
education. They are the cornerstones of my life and provide the 
foundation of my leadership style. I have a proven record of increasing 
education, working with people and providing successful leadership of 
organizations throughout my career. This is a historic time in our 
Nation's history and I would enjoy the opportunity to serve my country 
and add value to the achievement of our Nation's homeland security 
mission as a member of the administration.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Budgets and financial management systems are not only important 
tools for planning, prioritizing and operating organizational programs, 
but also serve as critical mechanisms for assuring accountability, 
control, and fulfillment of executive and legislative intent. If 
confirmed, my responsibility will be to both lead the agency toward a 
vision consonant with the President's strategic mandates and manage the 
organization effectively. Proper fiscal management techniques and 
accounting controls are critical to assuring managerial, and 
organizational, success. I have been responsible for budget execution, 
in several large organizations, with positive results. I achieved 
results by building confidence while maintaining a reputation for 
integrity and responsiveness.
    During my tenure with the Governor's Office of Homeland Security, I 
was accountable for the distribution of resource allocations in the 
form of Department of Homeland Security grant funds. These financial 
resources were essential in addressing Homeland Security Presidential 
Directive 7. My office worked seamlessly with the Grant Management and 
Legislative sections to ensure the risk-based funding would be directed 
to infrastructure targets in direct response to their threat level, 
vulnerability and consequence of natural or man-enabled events. We were 
responsible for funding in the amount of more than $250 million 
annually.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing the TSA exist within 
three areas: people, science and technology, and public confidence.

        People--The TSA employs one of the most visible work forces in 
        the Department of Homeland Security. The TSA must select the 
        ``best'' people. It must invest the resources to identify these 
        individuals, recruit them, train them, emphasize their 
        importance to the success of the organization and retain them 
        by providing opportunities for professional development. The 
        accomplishment of this goal is dependent upon a very critical 
        element--leadership. There is no time like the present to raise 
        the level of expectation and performance, insisting on 
        professional, motivated and enthusiastic employees.

        Science and Technology--On April 15, 2008, the GAO issued a 
        report entitled, ``Transportation Security: Efforts to 
        Strengthen Aviation and Surface Transportation Security 
        Continue to Progress, but More Work Remains.'' The study 
        concluded that the TSA had implemented a myriad of valuable 
        security programs, policies and procedures designed to secure 
        the Nation's transportation network, since the inception of the 
        organization in 2001, but requires a strategic long-term plan 
        as it relates to future enhancements. If confirmed, I look 
        forward to working to ensure that TSA technology is used as 
        effectively as possible.

        Public Confidence--As Secretary Napolitano has noted, it is 
        critical that we create a culture of preparedness in this 
        country, not a culture of fear. The TSA has a key role to play 
        in achieving this goal to ensure public confidence in the 
        safety of air, rail and surface transportation. If confirmed, I 
        look forward to promoting common-sense personal preparedness 
        techniques that will significantly strengthen the security of 
        all members of the public from the threats we face.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I participate in a defined benefit retirement plan with the Los 
Angeles City Employees' Retirement System where I will receive monthly 
payments beginning at age 61; I participate in a defined benefit 
retirement plan with the California Public Employees' Retirement System 
where I will receive monthly payments beginning at age 55; I will 
maintain my current investments with the defined contribution 
retirement plan (403(b) and (401(c)) with the University of Southern 
California, but no further contributions will be made by either party 
if I am confirmed. These agreements/arrangements are reported on my 
nominee Public Financial Disclosure Report (Standard Form 278), which 
has been provided to the Committee.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Homeland 
Security's Designated Agency Ethics Official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Homeland 
Security's Designated Agency Ethics Official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I served as a volunteer advisor to the Homeland Security Policy 
Group during Senator Obama's Presidential Campaign. (2008)
    I provided testimony before the U.S. House of Representatives 
Committee on Homeland Security on May 6, 2008, at a hearing on the 
following topic--``The Resilient Homeland--Broadening the Homeland 
Security Strategy.''
    In December 2007, I briefed officials at the Department of Homeland 
Security on ARMOR--Assistant for Randomized Motoring Over Routes.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Homeland 
Security's Designated Agency Ethics Official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's designated agency ethics 
official and that has been provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    In 1988, I received a letter of censure from the FBI for using my 
official position to resolve a personal problem. I had asked a co-
worker's husband, who worked for the San Diego police department, to 
run a database check on my ex-wife's new boyfriend. The boyfriend had 
moved in with my wife, from whom I had separated only a short time 
before, and I was concerned for the safety of her and my infant son, 
who was also living with them. The database search revealed an 
outstanding warrant for the boyfriend's arrest, about which I informed 
my ex-wife. I recognize that it was a mistake to have used my official 
connections to investigate the matter.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    No, except as described in C1 above.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In 2003, I was the plaintiff in a small claims action in Los 
Angeles, California against a client for non-payment of services 
rendered as an expert witness. I was awarded a judgment by the court.
    In the early 1990s, I was named as a defendant to a lawsuit in my 
official and administrative capacity as the Chief of Protective 
Services of the Los Angeles County Museum of Art. My understanding is 
that this was a personnel matter, and that there were no allegations of 
personal wrongdoing on my part. I was not interviewed or otherwise 
involved in the investigation, and I am not familiar with the details 
of the complaint or the case's disposition.
    In 1992, as the Chief of Protective Services of the Los Angeles 
County Museum of Art, I was accused of discrimination based on race, by 
an African-American police lieutenant in Protective Services, who was 
unhappy with the force-wide policies that resulted in his receiving a 
work assignment he did not want. It is my understanding that he filed a 
suit against the Museum and me, but I do not recall participating in 
any legal proceedings. This was resolved in the Museum's favor, and he 
was required to perform the work assignment.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    As described in Question 3 above, in 1992, as the Chief of 
Protective Services of the Los Angeles County Museum of Art, I was 
accused of discrimination based on race, by an African-American police 
lieutenant in Protective Services, who was unhappy with the force-wide 
policies that resulted in his receiving a work assignment he did not 
want. It is my understanding that he filed a suit against the Museum 
and me, but I do not recall participating in any legal proceedings. 
This was resolved in the Museum's favor, and he was required to perform 
the work assignment.
    In 1996, as the Chief of Protective Services of the Los Angeles 
County Museum of Art, I was named, along with two members of my staff, 
in a sexual harassment/discrimination complaint by a contract security 
employee. Her supervisor denied her preferred choice of a work 
assignment and she claimed I failed to support her request because of a 
romantic relationship between us. Her allegations, both of the 
relationship and of retaliation, are entirely unfounded. An independent 
investigation was conducted by the Museum, and her complaint was 
determined to be unsubstantiated,
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of erroll g. southers
Professional Experience
    City of Los Angeles, Los Angeles, CA--Assistant Chief, Los Angeles 
World Airports Police Department, 2007-present.

        Chief of the Office of Homeland Security and Intelligence, 
        responsible for all counter-terrorism and security credential 
        assets, for the 4 Los Angeles World Airports. Conceptualized 
        the pilot ARMOR (Assistant Randomized Motor Over Routes) 
        Program designed to detect and deter vehicle borne IEDs 
        (Improvised Explosive Devices). Currently engaged in two DHS 
        Chem/Bio Operational Technology Development Pilot Programs. The 
        LAWA Police Department is the largest aviation law enforcement 
        agency in the United States, with the largest airport 
        explosives canine detection unit in the world.

    University of Southern California, Los Angeles, CA--Associate 
Director, Center for Risk and Economic Analysis of Terrorism Events 
(CREATE), 2006-present.

        Counter-terrorism and infrastructure protection expert 
        responsible for the development and enhancement of the 
        educational programs and special projects at CREATE, an 
        interdisciplinary national research center, based at USC and 
        funded by the Department of Homeland Security. Created the 
        Executive Program in Counter-Terrorism, designed to challenge 
        international counter-terrorism leaders and enhance their 
        analysis, coordination and response capabilities to the 
        evolving terrorism threat. Co-author on the ``Peroxide-Based 
        Explosives: Properties, Technologies and Risk Assessment'' 
        international research project, with Technion Israel Institute 
        of Technology.

    State of California, Office of Governor Arnold Schwarzenegger, 
Sacramento, CA--Deputy Director, Office of Homeland Security, 2004-
2006.

        Appointed by Governor Arnold Schwarzenegger to the Office of 
        Homeland Security and responsible for post-9/11 
        counterterrorism policy issues, initiatives and projects 
        developed to protect the critical infrastructure of the world's 
        fifth largest economy. Responsible for state oversight of the 
        National Asset Data Base, Automated Critical Asset Management 
        System, Critical Infrastructure/Key Resources, Buffer Zone 
        Protection Plan and Protected Critical Infrastructure 
        Information Programs (PCII), including several nation pilot 
        programs. Served as a member of the National Infrastructure 
        Protection Plan (NIPP) national working group, responsible for 
        developing the NIPP. Appointed Deputy Director of the state's 
        Protected Critical Infrastructure Information (PCII) Program by 
        the Department of Homeland Security.

    University of Southern California, Los Angeles, CA--Adjunct 
Professor, 2003-present.

        Professor of terrorism, homeland security and public policy in 
        the Master's Program of the School of Policy, Planning and 
        Development.

    Risk Management Consultants International, Los Angeles, CA--
President and CEO, 1997-2004.

        Founder and nationally recognized leader of a security 
        consulting firm specializing in violence prevention, premises 
        protection and emergency preparedness.

    <bullet> Nationally recognized authority on policy development for 
            security and safety measures designed to counteract 
            potential losses produced by hostile actions or natural 
            disasters.

    <bullet> Violence prevention, premises protection and disaster 
            planning consultant to major corporations, educational and 
            cultural institutions throughout the United States.

    Los Angeles County Museum of Art, Los Angeles, CA--Chief of 
Protective Services/Assistant Vice President, 1991-1993, 1995-2004.

        Assigned to the Museum of Art as Chief of Police, having direct 
        responsibility for public safety and security services at the 
        Nation's 4th largest art museum, with facilities spanning 22 
        acres, hosting more than one million visitors annually. 
        Promoted to Assistant Vice President in 1998, with 
        responsibility for three of the museum's departments.

    <bullet> Fiscal and management responsibility for a $3.2 million 
            budget and more than 200 personnel supporting exhibition 
            planning, security, ticket sales and members' on-site 
            amenities.

    <bullet> Using a zero-based budgeting approach, designed an 
            institutional reengineering plan resulting in a $2 million 
            annual budget reduction.

    <bullet> Developed and implemented the museum's emergency 
            preparedness program, outlining policies and procedures for 
            training and response to specific disasters and the 
            appropriate recovery efforts.

    <bullet> Designed and implemented the museum's Injury and Illness 
            Prevention Program.

    <bullet> Americans with Disabilities Act Coordinator.

    City of Long Beach, Long Beach, CA--Executive Director, 1993-1995.

        Executive Director for the City Manager of the City of Long 
        Beach, California's 5th largest city, with more than 440,000 
        citizens.

    <bullet> Executive Director, Youth, Education and Community 
            Services Unit, recommending policies focused on community 
            development and the suppression of youth violence/gang 
            activity, resulting in a 38 percent reduction in gang 
            related crime in less than one year.

    <bullet> Executive Director, Citizen Police Complaint Commission, 
            responsible for managing the investigation of allegations 
            of police misconduct in the Long Beach Police Department.

    <bullet> Represented the Office of the City Manager at community, 
            educational and political events; coordinating and managing 
            special projects and developing community consortiums.

    Federal Bureau of Investigation, San Diego, CA--Special Agent, 
1984-1988.

        Assignments included: Foreign counter-intelligence/terrorism 
        investigations, SWAT Team member and police instructor.

    Rio Hondo Police Academy, Whittier, CA--Faculty/Tac Officer, 1982-
1984.

        Community college instructor responsible for the education of 
        police cadets at a regional academy serving more than 36 law 
        enforcement agencies.

        Managed the training and evaluation of all aspects of cadet 
        field performance, weapons proficiency and physical fitness.

    Santa Monica Police Department, Santa Monica, CA--Investigator/
Police Officer, 1980-1984, 1988-1991.

        Assignments included: Gang Investigator, Background 
        Investigator, Field Training Officer, Crime Impact Team Member, 
        Shoot and K-9 Review Boards, Departmental Stress Management 
        Instructor and Fitness Program Instructor.
Professional Training
    2007--832 P.C. Aviation Security Training

    2007--JTTF Education Session/West Point Combating Terrorism Center

    2006--Consequence Management Training, Israeli Defense Forces' Home 
Front Command, Israel

    2006--Homeland Security Counter-Terrorism Training, Ministry of 
Foreign Affairs, Israel

    2002--Threat Assessment Seminar, U.S. Secret Service and U.S. 
Department of Education

    1996--Museum Management Program, University of Colorado; Total 
Quality Management Program, National Safety Council

    1995--ICMA Community Oriented Policing Seminar; Cambodian Cross-
Cultural Training

    1992--Disaster Response Training for Emergency Managers

    1989--AIDS Education Instructor's Course

    1985--Employee Assistance Training for Police Supervisors; Hearing 
Impaired (Sign Language) Program; Peer Counseling Training Program
Accreditations/Certifications
    2007--Airport Security Coordinator (ASC) Certification

    2006--Certified in Homeland Security--Level V, American College of 
Forensic Examiners Institute

    2005--Protected Critical Infrastructure Information (PCII) 
Accreditation

    1999--Certified Institutional Protection Manager (CIPM)

    1993--California Peace Officers Standards & Training (POST) 
Executive Development Certificate

    1992--California POST Management Certificate

    1990--California Superior Court Qualified Gang Expert

    1982--California Community College Teaching Credential

    1980--California POST Basic, Intermediate and Advanced Certificates
Security Clearance
    Top Secret/SCI--Active, granted 2009
Education
    University of Southern California, Los Angeles, CA
    Doctor of Policy, Planning and Development
    Expected date of completion: 2011

    University of Southern California, Los Angeles, CA
    Master of Public Administration, 1998

    Brown University, Providence, RI
    Bachelor of Arts, 1978
Affiliations
    CREATE Government Advisory Board

    Society of Former Special Agents of the FBI

    International Association of Chiefs of Police

    LAX Airport Security Advisory Committee, Executive Board

    U.S. Department of State Overseas Security Advisory Council

    LA Youth Newspaper Advisory Board

    American Society for Industrial Security

    American Society for Public Administration

    Brown University Alumni Schools Committee

    Western Museums Association, Board of Directors

    American Association of Museums, Security Committee

    ASIS Library, Museum and Cultural Properties Committee

    International Foundation for Cultural Property Protection Advisory 
Board

    University of Southern California Professional Development Mentor 
Program

    USC School of Policy Planning and Development Alumni Association, 
Founding Co-Chair
Honors and Awards
    USC Widney Alumni House Award

    UCLA School of Public Affairs Senior Fellow

    American Assembly of Columbia University Next Generation Fellow

    Certified in Homeland Security Program Top Achiever Award

    USC School of Policy, Planning and Development Outstanding Alumni 
Award

    Los Angeles Miracle Mile Civic Coalition Good Heart Award

    International Organization of Black Security Executives Leading 
Edge Award

    Rio Hondo Police Academy Outstanding Cadet Award

    The Chairman. Thank you very much, and right on time.
    Let me just start with a few, then I'll turn to Senator 
Hutchison, Ranking Member Hutchison.
    As we discussed in our conversation, I was Chairman of the 
Intelligence Committee for a while and I'm still on it. One of 
the things that overwhelmed all of us and still does is the 
instinct not to share. I mean, it's one thing, the first law we 
passed after 9/11 was to make it legal for the CIA and the FBI 
to talk to each other. So it's on the books.
    But if you infer from that there is a cooperative 
atmosphere among the agencies, I would find a lot of reason to 
disagree with that. We went a step further and appointed a 
Director of National Intelligence, sort of making him the 
admiral, the overseer of all. Even that has not been able to 
break down the shell of protectiveness, the tradition that's 
built up within some of these agencies over the years.
    So I worry about that a lot. I worry about the lack of 
information-sharing and our ability to have the best 
intelligence analysis that we possibly can.
    Now, as Chairman of the Commerce Committee, I need to know 
that the Department of Homeland Security, which has its own 
intelligence unit, and TSA officials are working together with 
other agencies to protect our security. I'll pick out a couple 
of examples. Recent press reports have raised questions about 
how well the TSA and the FAA vet individuals who receive airman 
certificates, which include pilot licenses, mechanic licenses, 
and everyone else who has direct access to aircraft. What steps 
is the agency taking to address this vetting issue? I might 
just ask you that; then I'll follow up.
    You may not see it as a problem, in which case you need to 
say that.
    Mr. Southers. Thank you, Senator. First I'd like to speak 
to the information-sharing component of your question, and I'll 
certainly draw on personal experiences. I'm currently living in 
Los Angeles. We, as most regions, have a fusion center, and we 
also have several joint terrorism task forces. All of our 
State, local, and Federal partners are members of those 
elements.
    We meet routinely, share information routinely. We've also 
engaged all of the critical infrastructure elements in the 
region--rail, transportation, chemical, ports--and we sit on 
those committees several times a month, and that relationship 
has been quite seamless.
    One of the beauties of it is actually having training 
exercises and forums where we get to meet quite frequently, and 
we are able to build on those relationships and we forward all 
grant proposals in a regionalized manner, which pulls everyone 
into the room as well. So our sharing capacity there has been 
quite successful and it has been something that I think has 
been very noteworthy.
    As it relates to FAA and the vetting of the airman 
certificates, I had reason a couple of weeks ago to meet with 
Acting Deputy Assistant, Lynne Osmus. We talked about working 
together. Hopefully, it's the beginning of a very positive 
relationship. I can say that the Department of Transportation 
some time ago left the safety component to FAA and the security 
component to TSA, and that vetting process now where TSA is 
vetting airmen is happening on a daily basis. Some 3.9 million 
people are being vetted each day against a database, a 
terrorism database.
    That's a relationship----
    The Chairman. I don't understand that, being vetted each 
day, 3.9 million people against a database? I mean, it sounds 
great, but I just don't understand it.
    Mr. Southers. So each day those names that are in the 
database currently are placed against no-fly lists, the 
selectee lists, and the remaining components of the terrorism-
screening database list to see, if in fact, if there's any 
anomaly from the previous day, where that name has changed or 
the status of that name has changed, and to ensure that 
everything is intact.
    This is certainly a relationship that needs to grow. I look 
forward to working with the FAA on this issue and I look 
forward to working with the Committee as well.
    The Chairman. It's anybody that has any contact with an 
airplane at all, mechanics, pilots, the whole deal?
    Mr. Southers. Yes, sir.
    The Chairman. General aviation is more or less not touched 
by these folks. Is that going to remain the same?
    Mr. Southers. Actually, Senator, I'm not quite sure if 
general aviation is touched by these folks. I do have a general 
aviation responsibility currently, but it's not for vetting, so 
I'm unable to say whether or not that's actually happening.
    The Chairman. Well, you would know if they were vetting for 
general aviation, and since you don't know, I think the answer 
is they're not vetting for general aviation, which is a problem 
we'll talk about a little bit more.
    Just as a follow-up, what steps do you believe the agency 
needs to take to make sure that individuals receiving or 
holding airman certificates are not a legitimate threat to 
national security? Are you considering taking steps to review 
other criminal watch lists housed in the Department, in the 
government, for example at Treasury, that are not currently 
being used by the Department of Homeland Security, for airman 
vetting?
    Mr. Southers. Senator, I think it's most efficient if we 
could have a compilation of the databases placed together, so 
that we have a very huge, if you will, consortium of names and 
have them all in one spot. I do know that in the vetting that 
does take place currently, the terrorism screening database is 
one that has a near-name matching algorithm that they use, as 
well as a date of birth matrix that's used, and it's quite 
efficient.
    But the other databases need to be pulled in so that we 
can, in fact, make sure that we're looking at all sources and 
ensure that that person is not being placed in the environment 
and is a risk to our security.
    The Chairman. I thank you. My time has expired and I turn 
to Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    First, Mr. Southers, the Committee wants to be assured that 
in your important position that you would always be able to 
give us and would work with all the members of the Committee, 
Republicans as well as Democrats, with information, data, and 
anything that we rightfully need for our oversight 
responsibility.
    Mr. Southers. Yes, Senator.
    Senator Hutchison. Second, you, having been of course so 
involved in the Los Angeles Airport, would know that there are 
many times when stakeholders are concerned about cooperation 
with the TSA. Sometimes they think TSA oversteps. One example: 
They sort of miscommunicated to the general aviation community 
details of the large aircraft security program, that caused a 
lot of confusion and heartburn, if you will.
    My question is what would you do to alleviate that non-
cooperation when it occurs or how would you avoid it occurring?
    Mr. Southers. What we have done has been quite 
collaborative in our approach. We've reached out to 
stakeholders, specifically in general aviation as it relates to 
the large aircraft security program. We're trying to, of 
course, look at best practices, and we're trying to be risk-
driven. We think that that is the appropriate response to this 
issue.
    In addition to that, we've taken some steps to provide 
education and awareness to these groups, so that they can in 
fact be part of our security system. We are part of what's 
called the SARS program now, which is the Suspicious Activity 
Reporting. We now have persons in general aviation and at, for 
example, LAX, at our category X airport, where they are able to 
participate in the security system by providing us with 
information.
    So, it has been a relationship, if you will, of education, 
awareness, and information flow back and forth. Communication 
has been the key to our success there in addressing those kinds 
of issues.
    Senator Hutchison. Let me ask you. On the non-aviation 
side, you are still responsible for other modes. We talk about 
aviation the most because it is clearly the biggest job that 
you have. But there is concern about buses, trains, other modes 
of transportation, and the security there, including ports. 
What would you consider your number one non-aviation 
responsibility or area that needs addressing?
    Mr. Southers. Senator, if we look at events as they occur 
around the world, and certainly trying to remain again risk-
driven and intelligence-driven, it would appear that the non-
aviation elements would certainly include buses and trains. 
We've seen Madrid, we've seen London. We've seen the 
introduction of peroxide-based explosives there. So those 
elements of the transportation system I think would be a 
priority.
    It is for that reason that TSA, to my understanding, has 
been moving resources to those regions as the risk and threat 
dictates. We've seen VIPR units move to the rain system in Los 
Angeles. Our K9 units from the airport have supported rail 
systems and bus systems in Los Angeles.
    Then we have several committees, as I mentioned previously, 
where we have critical infrastructure partners that meet 
regularly, that include the port, rail, and the airport. We 
work very closely together to ensure that we're all working on 
the same mission, with the same goal in mind, and actually 
maximizing the resources that we have available.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman. I appreciate it.
    The Chairman. Thank you.
    Senator Cantwell's not here, so it would be Senator Udall, 
because you want to introduce Mr. Gallagher.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. That's correct.
    The Chairman. Shall we just do that right now?
    Senator Udall. I can wait until he comes forward on the 
panel and question Mr. Southers. That would be great, Chairman 
Rockefeller. Thank you very much today.
    Mr. Southers, I appreciate our meeting before today's 
hearing and want to thank you again for your willingness to 
serve. The Transportation Security Administration has the 
difficult task of ensuring both security and the free movement 
of people and goods. In your testimony, you note that this will 
be your highest priority. I would like to follow up with a few 
questions related to how you would approach this challenge.
    For example, USA Today recently reported that TSA plans to 
greatly expand its use of whole-body imaging, WBI, for primary 
passenger screening at airports. Albuquerque Sunport is one 
airport where the TSA piloted the use of these machines for 
primary passenger screening. Citizens and Members of Congress 
have expressed concerns about the privacy implications of using 
WBI as a primary screening device. Although TSA has voluntarily 
taken certain measures to protect passenger privacy, I believe 
several serious questions should be addressed before TSA 
deploys WBI machines more widely.
    Last October TSA released a privacy impact assessment for 
whole-body imaging. That assessment outlined many of the 
policies TSA would use with WBI machines to protect passengers' 
privacy. Would you support a follow-up report either by GAO or 
the DHS Inspector General to assess whether those policies have 
been followed and that they adequately protect passenger 
privacy?
    Mr. Southers. Senator, thank you. I would welcome any 
investigative or regulatory agencies or groups that would be 
willing to support us in having us be more efficient and 
effective. Whole-Body Imaging gives us the ability to detect 
metallic and non-metallic objects on travelers without any 
physical contact. The Whole-Body Imaging platform, if you will, 
still remains 100 percent optional, so our travelers still have 
the option to not participate.
    It's my understanding that the privacy concerns--and that, 
of course, is the most important balance that we have to 
maintain here, one of security and civil liberties--has been 
ensured by a number of steps that are in place for the 
operators of Whole-Body Imaging.
    Additionally, Senator, I'd like to mention, as whole-body 
imaging fits into another category, we've reached out to 
specific religious groups that have come to us in Los Angeles 
and expressed some concern that they might be singled out for 
this kind of technology. We've partnered with the Sikh 
community. They now participate in the training of our 
officers. We've partnered with the Muslim community and now we 
have several imams who vet our training material.
    So we believe again reaching out to the stakeholders, 
reaching out to the persons who travel, forming and building 
very important relationships with people to explain, if you 
will, why we do what we do and what kind of impact it would 
have, I think is the way of going forward to ensure that we 
have their cooperation and the most secure system possible.
    Senator Udall. Thank you.
    Now, no single technology is a cure-all for aviation 
security. Drug smugglers already swallow and insert packets of 
drugs into their bodies to avoid detection at airport security. 
News reports about an attempted assassination of a Saudi prince 
reveal that an al Qaeda terrorist detonated explosives hidden 
inside his body. He apparently avoided detection despite two 
sets of airport security and palace security.
    My understanding is that WBI machines cannot detect 
explosives hidden inside of the body. Is that correct?
    Mr. Southers. Senator, to my understanding that's correct.
    Senator Udall. If so, does it make sense to spend more than 
$100,000 per WBI machine for a technology that we already know 
can be circumvented?
    Mr. Southers. Senator, as risk would indicate, I know of 
that one instance that you refer to of the Saudi prince and I 
don't know of any others. It would seem that our greatest risk 
here is those prohibited items that are still being carried 
outside the body. One of the things that I think would be 
critical going forward is in fact to become more 
interdisciplinary in our approach. As you know, I am an 
Associate Director at one of the DHS centers of excellence, 
which is out of the Science and Technology Directorate. 
Technology will never be 100 percent, but it certainly can move 
us into addressing tomorrow's threat, which it appears internal 
improvised explosive devices may be tomorrow's threat. So it is 
something I look forward to, if confirmed, working on further, 
engaging with our science and technology community to see if, 
in fact, those kinds of countermeasures can be implemented.
    Senator Udall. Great. And we would like to work with you 
very carefully on that to see if any additional legislative 
changes or resources need to be put into that. Thank you very 
much.
    Thank you, Mr. Chairman.
    Mr. Southers. Thank you, Senator.
    The Chairman. Thank you very much.
    Senator DeMint is next up. Is he out? So then that will be 
Senator LeMieux, and welcome.

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman.
    Mr. Southers, thank you for submitting yourself, again 
submitting yourself for public service. I enjoyed our 
conversation earlier today. I just want to talk about a couple 
of broad topics that you and I discussed.
    There is obviously a balance between what you do in terms 
of protecting the public and then interacting, the folks at 
TSA, interacting with our citizens. We talked about the fact 
that most people in America don't have a lot of connection or 
contact with their government directly, but this is one place 
that they do.
    So, I'd like for you to kind of repeat for the group here 
today and the other Senators on the panel some of the things 
that we talked about about the importance of treating people 
who come through TSA as customers, as well as looking to make 
sure that we have safe travel.
    Mr. Southers. Thank you, Senator. My vision for TSA, if 
confirmed, would be no less than hoping to lead this 
organization to the next level so that it could become an 
international model for transportation security. The four law 
enforcement agencies that I have had privilege to work for, two 
in a chief capacity, I attended the training academies for 
those agencies. If confirmed, I would appreciate the 
opportunity to attend Transportation Security Officer training 
and Federal Air Marshall training so that I can have a full 
understanding of what it is they understand, how they're 
trained, what they do, and how they're able to do such a good 
job.
    It has been my experience that when we invest in our people 
they invest in the organization, they internalize the mission 
and our values, and everyone is the better for it. I'm very 
proud today to have two officers behind me who I happen to have 
sat on their promotional panels. We offer education incentives 
to our officers. We encourage professional development and 
leadership development. Both of these officers behind me got 
their master's degrees within the last year and one of them is 
a graduate of our executive program in counterterrorism at USC.
    These are tomorrow's leaders, and I would hope that some 
day, Senator, that the nominee for this position as a result of 
professional development and leadership development would come 
from the ranks and perhaps is a screener today at a checkpoint 
somewhere in America.
    Senator LeMieux. Thank you.
    We also talked about the CLEAR program, which currently, as 
I understand it, is no longer in use or is in suspension. This 
is a program that allows frequent travelers to be able to 
circumvent some of the normal portions of the airport screening 
because they have been properly vetted. Can you talk about the 
CLEAR program, whether we're going to see it again? It's very 
important for businesspeople who are traveling around this 
country to be able to do so efficiently and effectively so they 
can do the work that they need to do to make sure that our 
country continues to have a strong economic engine. Can you 
talk about the CLEAR program and your thoughts about it?
    Mr. Southers. Well, Senator, as you know, the CLEAR program 
was part of a registered traveler program where we had a vetted 
population that submitted biographical information and 
biometric information for a card that they would subsequently 
obtain. I would imagine that everyone here is a frequent 
traveler, and if we're going to be a risk-driven organization 
it would appear that moving forward, if confirmed, it's 
something I'd like to explore very heavily that if we could 
have a vetted population that we would never compromise 
security and it would still have to be submitted to the 
checkpoint for prohibited items, we could then focus on the 
risk, which in fact is the unvetted population or those 
travelers that remain.
    I think it would be a very wise and efficient use of our 
resources, and I think it would make the expeditious throughput 
of our vetted personnel easier to attain.
    Senator LeMieux. Thank you, Mr. Southers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator LeMieux.
    Now Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    Mr. Southers, I want to also congratulate you and express 
my appreciation for your willingness to serve and that of your 
family as well. It's nice that you have many of them with you 
here today. We appreciate the sacrifice that comes with public 
service and that certainly applies to families as well.
    I appreciate also the extensive background that you have 
when it comes to matters of aviation security and law 
enforcement, and we look forward to having you serve at TSA.
    There's one question I think in particular that we face in 
all of the challenges of dealing with terrorist threats and 
everything else. That is, how do we keep the country safe? 
We've done, I think, a good job of that. There are ongoing 
changing terrorist threats that we have to react to, and I 
think perhaps one of the biggest issues and challenges we have 
to deal with is just public complacency and a lack of 
understanding when it comes to some of the screening protocols 
that have been put in place.
    I know that since 9/11, we've had a lot of heightened 
understanding by the public when it came to accepting some of 
these new security measures. But at the same time, it's still a 
challenge to help continue to educate the public about what all 
of these things mean, in particular, those who aren't frequent 
travelers.
    But I'd be curious in knowing just what some of your 
thoughts might be about what you would do as the Assistant 
Secretary at TSA to address the issue of public complacency.
    Mr. Southers. Thank you, Senator. TSA has embarked on a 
``Why'' campaign. The ``Why'' campaign is explaining the 
everyday practices and protocols of our security procedures so 
that the public can understand the methodologies that we're 
engaging in. One of the things that I've noticed in societies 
where challenges or the risk is much greater, such as the 
Middle East, where I travel quite frequently, and in London, 
those societies seem to have become more resilient because they 
have educated and made their public more aware.
    If confirmed, I would look forward to an education and 
awareness program that's attached to the ``Why'' campaign of 
TSA, so that we could make our society more resilient. I think 
if we have a public that internalizes our vision and 
understands what our mission is, they too become part of the 
security system.
    Along with that, I think it's very important then to invest 
in our people at TSA. As I mentioned earlier, investing in our 
workforce, making sure they understand why they're so important 
to what we do, and they will again make the organization better 
and make us more efficient.
    The last piece would be one of technology. In explaining 
why, it's important that people understand what the technology 
does, and what it doesn't do. We need to be engaged with the 
science and technology community in looking at the appropriate 
technology for the right environment with the skill sets of our 
workforce to provide the best security.
    Senator Thune. I want to follow up on that question. This 
certainly isn't any reflection on you, but earlier this year, I 
was alarmed by the treatment that a number of veterans from 
South Dakota received when they traveled to our Nation's 
capital as part of the honor flight program. You may be 
familiar with that. It's a program which allows World War II 
veterans from across the country to come and have the 
opportunity to visit our Nation's capital as a way of saying 
thank you to them for their service.
    I think probably the most disturbing part of that visit 
were the reports that I received from some of those World War 
II veterans who expressed frustration with the way that they 
were treated by TSA screeners at Dulles Airport. There were 
about 118 veterans on the trip, and they passed through the 
security screening at Sioux Falls Regional Airport when they 
came to Washington without any trouble. But when preparing to 
return to South Dakota via Dulles, a number of measures were 
taken which subjected many of these brave men and women to what 
I would classify as disrespectful scrutiny.
    Outside of being forced to wait through long lines, one 
veteran who utilized a cane was told to walk through the metal 
detector unassisted. It was also reported that another veteran 
had his oxygen tank taken away for screening and was forced to 
wait without oxygen while his tank was screened. A number of 
veterans reported that the TSA screeners were rude and 
unhelpful.
    Now, these reports I know--as I said, the majority of TSA 
screeners are very professional. I, like most of my colleagues, 
travel a lot. But I think it underscores sometimes the 
disconnect that can exist between some of the guidelines and 
how those are carried out by TSA employees, and particularly 
with a population like that, which probably doesn't travel 
frequently and has some unusual, I would say, needs with regard 
to the screening process.
    So, I know that the TSA employees don't always receive the 
recognition that they deserve when it comes to keeping the 
traveling public safe. But incidents like this that were 
reported by World War II veterans from South Dakota call for 
just a little different way of dealing with a flight like that 
and a population like that that, as I said before, is pretty 
extraordinary, many of whom are in their 80s, some of whom are 
in their 90s.
    So my question in all this is for your thoughts about that. 
What ideas or policies would you suggest that might correct or 
remedy that situation or situations like that going forward?
    Mr. Southers. Senator, first, although not confirmed, but 
at least as an American, you have my apologies for those men 
and women who served our country and were treated that way. It 
appears that we have perhaps two issues here. First is one of 
training, the appropriate training so that we can address 
populations like that in the future and do it in a sensitive 
way that ensures our security protocols are in place and we're 
able to have appropriate throughput.
    Second is one of organizational values. That comes from 
leadership. I, as you know, command a police department. When 
we have instances like this, it's very important that we just 
not only address the citizen who might have felt the conduct 
was inappropriate, but we address our entire department using 
that as an example and we learn from it, because we don't want 
to repeat it.
    But it starts with me as a Chief and it's filtered down and 
it's embraced by the entire organization that there are certain 
values, certain behaviors, that are appropriate and certain 
that will not be tolerated. I think that's a critical element 
to success in dealing with these kinds of issues in the future.
    Senator Thune. I would appreciate any steps you can take to 
make sure that that situation doesn't happen again. We've 
obviously got a lot of these honor flights. In fact, we have 
another one coming in from South Dakota tomorrow, and they are 
from all over the country and it is a very, very deserving 
group of people who we want to honor. Obviously, this 
experience, which was--I have to say we got a lot of feedback 
on that from folks on that trip.
    So, I would appreciate any steps that you can take to make 
sure that that doesn't happen again.
    Mr. Southers. Thank you, Senator.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Thune.
    Senator Udall, do you have further questions?
    Senator Udall. No. No, Mr. Chairman, I don't.
    The Chairman. Do you feel badly about that?
    Senator Udall. Not at all, not at all. I want to move on to 
Dr. Gallagher.
    Mr. Southers. Thank you, Mr. Chairman.
    The Chairman. Thank you very, very much.
    Do you have anyone you want to introduce? What about those 
heroes of the future right behind you?
    Mr. Southers. I'd like to introduce Sergeant Tarek Azmy, 
who was one of my intelligence officers prior to getting 
promoted, so he lost his privileges there and had to go back in 
uniform; and Sergeant William Hanley, who was in my dignitary 
protection unit and lost his suit and had to go back in 
uniform, two of our finest, and I'm happy that they traveled 
here today.
    Thank you.
    The Chairman. Thank you, sir.
    Mr. Robinson--I mean, Mr. Gallagher.
    [Pause.]
    The Chairman. Senator Udall, if you would be prepared to 
introduce our nominee for NIST.
    Senator Udall. I am prepared, Mr. Chairman. Thank you very 
much, and other distinguished members of the Committee.
    Today I'm pleased to recommend Dr. Patrick Gallagher for 
the position of Director of the National Institute of Standards 
and Technology. He's accompanied by his wife, Karen and, as he 
said, ``my three sons.''
    Dr. Gallagher is highly qualified for this role and already 
serves as the agency's Acting Director. His curriculum vitae 
would be too long to recite here. Yet it is worth noting that 
he first joined NIST 16 years ago as a physicist and has since 
held numerous leadership positions at the agency. He earned his 
Ph.D. in physics at the University of Pittsburgh and has an 
undergraduate degree from Benedictine College in Kansas.
    Patrick Gallagher began his academic career, however, in 
the Albuquerque public schools and earned his first diploma 
from St. Pius High School. So in addition to being an 
accomplished scientist and public servant, he is a New Mexican.
    Dr. Gallagher's aptitude for science may come from his 
father, who came to New Mexico in the 1960s to work at Sandia 
National Laboratory. His parents, John and Clair Gallagher, 
raised young Patrick and three daughters in the Northeast 
Heights area of Albuquerque, and I understand from Patrick that 
they're watching by webcast as we speak here.
    As a young man in Albuquerque, Dr. Gallagher developed a 
strong commitment to public service that continues to this day. 
He joined the volunteer organization Amigos de los Omaticas and 
spent summers working on public health and sanitation projects 
in Ecuador, Honduras, and Mexico. After earning his bachelor's 
degree, he taught math and science to high school students in 
St. Joseph, Missouri.
    Dr. Gallagher then decided to pursue his true passion for 
science and became a physicist, a career path that led him to 
the National Institute of Standards and Technology.
    NIST is an often-unappreciated agency. Yet its work 
enhances our quality of life in many ways. Numerous products 
and services rely in some way on technology, measurement, and 
standards provided by NIST. Some examples include bank ATM 
machines, bulletproof vests worn by police, and medical 
diagnostic tools such as X-rays and mammograms.
    The agency's scientists have won many awards, including 
Nobel Prizes, for their research. In addition, NIST 
manufacturing extension partnership centers in all 50 states 
have helped thousands of small businesses grow.
    As NIST Director, Dr. Gallagher will be committed to 
enhancing NIST's role as an agency that promotes American 
innovation, industrial competitiveness, and trade. I share 
President Obama and Secretary Locke's confidence in Dr. 
Gallagher as a strong leader who can harness NIST's talented 
workforce and resources to advance this mission.
    Chairman Rockefeller and members of the Committee, thank 
you for allowing me to recommend Patrick Gallagher to lead the 
National Institute of Standards and Technology. I look forward 
to working together with you on confirming Dr. Gallagher for 
this important position.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Actually, it would probably be a good idea at this point, 
Dr. Gallagher, Dr. Robinson, and Paul Martin, if you have any 
family, people that you're vaguely familiar with that you want 
to introduce, we would welcome that.
    Dr. Gallagher. I'd be delighted to introduce my family, who 
is with me today: my wife Karen, my sons Devon, Sean, and Ryan, 
who were it seems happy to be out of school to support me 
today, and I appreciate that; and also my family who's watching 
and my many colleagues at NIST who are supporting me in 
cyberspace.
    The Chairman. Dr. Robinson.
    Dr. Robinson. I'd like to introduce my two children, Andrew 
and Dana, my niece Robin, and my significant other, Douglas 
Holzhaken. And I'd also like to say hi to my family and friends 
out in cyberspace, especially my mother.
    The Chairman. Well done, well done.
    Dr. Robinson. Especially my mother back in Seattle, who 
makes me very proud every day, and my sisters and brother and 
their families, who are just tops people, who are watching from 
my brother's house.
    The Chairman. Otherwise you have no emotional feelings at 
all.
    [Laughter.]
    The Chairman. Mr. Martin.
    Mr. Martin. Mr. Chairman, I'd like to recognize my parents, 
Jean and George Martin, my in-laws Steven and Christine Liu. 
Two of my five siblings are here, Susan Brazill and Diane 
Murray, and their husbands, both named Tim; their children; 
several colleagues from the Department of Justice; and perhaps 
most importantly, my wife, Rebecca Liu, and my three daughters, 
Anna, Emily, and Grace.
    The Chairman. Good. Why did you say ``perhaps''?
    [Laughter.]
    The Chairman. We have to have a little humor around here.
    All right. Dr. Gallagher, why don't you proceed.

        STATEMENT OF PATRICK GALLAGHER, Ph.D., DIRECTOR-

         DESIGNATE, NATIONAL INSTITUTE OF STANDARDS AND

            TECHNOLOGY, U.S. DEPARTMENT OF COMMERCE

    Dr. Gallagher. Chairman Rockefeller, thank you very much. 
Distinguished members of the Committee: It really is a great 
honor to appear before you today as the nominee for the 
position of Director of the National Institute of Standards and 
Technology. As Senator Udall noted in his wonderful 
introduction--and I appreciate that very much--I was born and 
raised in Albuquerque, New Mexico, went to school in Kansas to 
study physics and philosophy, and ended up teaching high school 
science and math for one year in St. Joseph, Missouri.
    I returned to graduate school at the University of 
Pittsburgh to pursue my interest in physics. And this slow 
eastward drift, finally culminated in my arrival at NIST 16 
years ago. Since then my entire professional career has been in 
public service as a Federal employee working at NIST, starting 
as a beam line research scientist at the NIST Center for 
Neutron Research and serving finally as the director of the 
center and most recently as Deputy Director for the agency.
    I have had a wonderful, challenging career as a public 
servant. It is, therefore, a profound privilege and honor to 
have President Obama nominate me to serve as Director of NIST.
    I also want to thank Secretary Locke for his tremendous 
support for NIST and for placing his trust in me by 
recommending me for this position. If confirmed, I look forward 
to working closely with each one of you on the Committee to 
ensure that NIST continues to support its essential mission.
    Since its founding in the middle of the Nation's Industrial 
Revolution, NIST, or as it was known up until 1988, the 
National Bureau of Standards, had a clear mandate to promote 
U.S. innovation and industrial competitiveness by advancing 
measurement science, standards, and technology in ways that 
enhance our economic security and improve our quality of life.
    For over 108 years NIST has carried out this role and made 
essential contributions to industry, science, public safety, 
and national security. Many of the technologies and 
measurements that we take for granted today are based on 
results of groundbreaking research at NIST and the transfer of 
that technology and know-how into practice. Radio and 
telecommunications, radar, lasers, household smoke detectors, 
and computers are a few examples from a very long list.
    Federal agencies depend on NIST for key measurements to 
support their missions. U.S. manufacturers depend on NIST to 
address critical measurement problems, to develop and promote 
new technologies, to disseminate data on best practices, and to 
ensure that there is a fair and equitable market and reliable 
supply chain through effective standards and a traceable system 
of measurements.
    This is a remarkable history and it's one which I've been 
privileged to be a part of for the past 16 years. I believe 
that this outstanding legacy of achievement is built on a 
foundation of excellence, dedication, and integrity on the part 
of the entire NIST staff. The NIST reputation for getting it 
right, for impartiality, and for hard work are well deserved 
and have resulted in a remarkably productive national asset. 
NIST is a crown jewel of the Nation's science and technology 
enterprise.
    Today's world is quite different from the one 108 years 
ago, but I believe that the critical importance of NIST to the 
Nation has grown. Today NIST is deeply engaged in some of the 
most urgent and critical challenges facing our country, 
including the smart grid, cybersecurity, electronic health 
records, climate change, and promoting manufacturing in this 
country. NIST expertise in measurement science and standards 
touches on these and many other sectors.
    The President has emphasized that our economic prosperity 
depends on our ability to lead the world in innovation. It is 
the foundation for creating high-quality jobs for all 
Americans. Secretary Locke has focused the work of the 
Department of Commerce on this critical task to put the country 
back to work and build the foundation for long-term economic 
prosperity.
    NIST is a key part of these strategies. In my view, NIST 
has never been in a more important position and it has never 
been so important to the country that NIST succeed. Building 
upon the foundations of its talented workforce, its world-
leading capabilities, and its legacy of working closely with 
industry and other stakeholders, NIST is ready to meet these 
challenges. If confirmed, I look forward to leading NIST in 
that effort.
    As you can tell, I am passionate about the work before us. 
I am deeply humbled and honored to be considered for this 
position, and if confirmed, I pledge to work in close 
cooperation with this committee and with all of Congress to 
develop effective solutions to these challenges.
    I'm grateful for your consideration of my nomination and 
for the opportunity to address you, and I am looking forward to 
any questions you may have.
    [The prepared statement and biographical information of Dr. 
Gallagher follows:]

  Prepared Statement of Patrick Gallagher, Ph.D, Director-Designate, 
  National Institute of Standards and Technology, U.S. Department of 
                                Commerce
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
members of the Committee, it is a great honor to appear before you 
today as the nominee to be the Director of the National Institute of 
Standards and Technology.
    With your permission before I begin my statement, I would like to 
introduce you to my wife, Karen, and my three sons, Sean, Devin, and 
Ryan, who graciously skipped work and school this afternoon to be with 
me today.
    I am a life-long scientist. I believe in the power of both basic 
research and of standardization to propel economic growth and improve 
our standards of living. I am committed to public service. If confirmed 
as Director, I look forward to combining these passions and managing 
NIST as it enters a new era.
    I was born and raised in Albuquerque, New Mexico, and went to 
college in Kansas to study Physics and Philosophy. After teaching high 
school science and math for one year in Missouri, I returned to 
graduate school at the University of Pittsburgh to pursue my interest 
in physics. This slow, eastward drift finally culminated in my arrival 
at NIST 16 years ago. Since then, my entire professional career has 
been in public service as a Federal employee working at NIST, first as 
a beam line researcher at the NIST Center for Neutron Research, then 
serving as the Director of that Center, and most recently serving as 
Deputy Director for NIST.
    I have had a wonderful, challenging career as a public servant. It 
is, therefore, a profound privilege and honor to have President Obama 
nominate me to serve as Director of NIST. I also want to thank 
Secretary Locke for his tremendous support for NIST and for placing his 
trust in me by recommending me for this position. If confirmed, I look 
forward to working closely with all members of this Committee to ensure 
that NIST continues to perform its essential mission--and improves upon 
its core functions.
    Since its founding in the middle of the Nation's industrial 
revolution, NIST--or as it was known up until 1988, the National Bureau 
of Standards--has had a clear mandate to promote U.S. innovation and 
industrial competitiveness by advancing measurement science, standards, 
and technology that enhance economic security and improve our quality 
of life. For more than 108 years, NIST has carried out this role and 
made essential contributions to industry, science, public safety, and 
national security. Many of the technologies and measurements we take 
for granted today are based on the results of groundbreaking research 
at NIST and the transfer of that technology and know-how into practice: 
radio and telecommunications, radar, lasers, household smoke detectors, 
and computers. It is a very long list. Federal agencies depend on NIST 
for key measurement technologies to support their missions. U.S. 
manufacturers depend on NIST to address critical measurement problems, 
to develop and promote new technologies, to disseminate data and best 
practices, and to ensure that there is a fair and equitable market and 
a reliable supply chain through effective standards and a traceable 
system of measurements.
    This is a remarkable history, and one which I've been privileged to 
be part of for the past 16 years. I believe that this legacy of 
achievement is built on a foundation of excellence, dedication, and 
integrity on the part of the NIST staff. The NIST reputation for 
``getting it right,'' for impartiality and for hard work are well 
deserved and have resulted in a remarkably productive national asset. 
NIST is a crown jewel of the Nation's science and technology 
enterprise.
    Today's world is quite different from the one 108 years ago, but I 
believe that the critical importance of NIST to the Nation is not only 
undiminished, but has grown. Today, NIST is deeply engaged in some of 
the most urgent and critical challenges facing our country, including 
the Smart Grid, cybersecurity, electronic health records, climate 
change, and manufacturing. NIST expertise in measurement science and 
standards touches on these and many other sectors.
    The President has emphasized that our economic prosperity depends 
upon our ability to lead the world in innovation. It is the foundation 
for creating high quality jobs for all Americans. Secretary Locke has 
focused the work of the Department of Commerce on this critical task to 
put the country back to work and build the foundations for long term 
economic prosperity. NIST is a key part of these strategies. Its 
mission is uniquely focused to provide critical expertise to address 
these particular challenges. In my view, NIST has never been in a more 
important position, and it has never been so important to the country 
that NIST succeed. Building upon the foundations of its talented work 
force, its world leading capabilities, and its legacy of working 
closely with industry and other stakeholders, NIST is ready to meet 
these challenges. If confirmed, I look forward to leading NIST in that 
effort.
    As you can tell, I am passionate about the work before us. I am 
humbled and honored to be considered for this position and, if 
confirmed, I pledge to work in close partnership with Congress to 
develop effective solutions to these challenges.
    I am grateful for your consideration of my nomination and for the 
opportunity to address the Committee. I look forward to any questions 
you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Patrick David 
Gallagher.
    2. Position to which nominated: Director, National Institute of 
Standards and Technology.
    3. Date of Nomination: October 7, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 100 Bureau Drive, Gaithersburg, MD 20899-1000.

    5. Date and Place of Birth: March 29, 1963; Albuquerque, NM.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

    Spouse: Karen Jane Gallagher, Occupational Therapist, Potomac 
Valley Orthopaedic Associates, 3414 Olandwood Court, Olney, MD 20832; 
children: Sean Patrick Gallagher, age 17; Devin Scott Gallagher, age 
14; Ryan Michael Gallagher, age 12.

    7. List all college and graduate degrees. Provide year and school 
attended.

        1991--PhD, Physics, University of Pittsburgh, Pittsburgh, PA.

        1987--M.S., Physics, University of Pittsburgh, Pittsburgh, PA.

        1985--BA, Physics and Philosophy, Benedictine College, 
        Atchison, KS.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1985-86--High School Teacher, Bishop LeBlond High School, 8529 
        Frederick Avenue, St. Joseph, MO 64507.

        1986-1991--Graduate Student/Research Assistant, University of 
        Pittsburgh, 100 Allen Hall, Pittsburgh, PA 15260.

        1991-1993--Research Associate, Boston University, 590 
        Commonwealth Avenue, Boston, MA 02215.

        1993-2004--Physicist, NIST, 100 Bureau Drive, Gaithersburg, MD 
        20833.

        1998-present--Leader, Research Facilities Operations Group, 
        NIST Center for Neutron Research.

        1999-2001--Agency Representative, National Science and 
        Technology Council, White House Office of Science Policy and 
        Technology (detail).

        2004-2008--Director, NIST Center for Neutron Research (SES).

        2008-present--Deputy Director, NIST (and acting as Director).
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Member, Math and Physical Sciences Advisory Committee, National 
        Science Foundation (2008).

        Chair, Interagency Working Group on Neutron Science, National 
        Science and Technology Council, Office of Science and 
        Technology Policy (2000-2008).

        Chair, Interagency Working Group on Synchrotron Light Sources, 
        National Science and Technology Council, Office of Science and 
        Technology Policy (2002-2008).

        Member, SNS Neutron Sciences Advisory Board (2007-2008).

        Member, 2006 DOE/BES Committee on Visitors, Division of 
        Materials Science and Engineering.

        Member, 2007 DOE/BES Committee on Visitors, Scientific User 
        Facilities Division.

        Member, Neutrino Facility Advisory Committee, Board on Physics 
        and Astronomy, National Research Council (2002-2003).

        Member, Committee for an Assessment of and Outlook for New 
        Materials Synthesis and Growth, Board on Physics and Astronomy, 
        National Research Council (2007-2009).

        Acting Chair, NIST Ionizing Radiation Safety Committee (2003-
        2008).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

------------------------------------------------------------------------
                                                             Restricted
                Organization                      Dates      Membership
                                                               Policy?
------------------------------------------------------------------------
Tanterra (neighborhood) pool membership        Since 1993            No
------------------------------------------------------------------------
USA Swimming (for officiating at meets)        Since 2007            No
------------------------------------------------------------------------
American Association for the Adv. Of Science   Since 2000            No
------------------------------------------------------------------------
American Physical Society                      1991-2005*            No
------------------------------------------------------------------------
* Intermittent membership over period

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15.List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Sigma Xi Honor Society, elected 1987.

        Sigma Pi Sigma Honor Society, elected 1994.

        2007 Department of Commerce Gold Medal.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Scientific Journal Articles
        1. P. D. Gallagher and J. V. Maher, ``Adsorption and Wetting on 
        Moveable Walls'' in Festschrift for Michael E. Fisher, eds. E. 
        Domany and D. Jasnow, Physica A 177, 489 (1991).

        2. P. D. Gallagher and J. V. Maher ``Partitioning of 
        Polystyrene Latex Spheres in Immiscible Critical Liquid 
        Mixture'', Phys. Rev. A 46, 2012 (1992).

        3. P. D. Gallagher, M. L. Kurnaz, and J. V. Maher, 
        ``Aggregation in Polystyrene-Sphere Suspensions in Near-
        Critical Binary Liquid Mixture'', Phys. Rev. A 46, 7750 (1992).

        4. Sharon C. Glotzer, Rama Bansil, Patrick D. Gallagher, Mark 
        F. Gyure, Francesco Sciortino, and H. Eugene Stanley, 
        ``Physical Gels and Microphase Separation in Multiblock 
        Copolymers'', Physica A 201, 482 (1993).

        5. P. Lambooy, T. P. Russell, G. J. Kellogg, A. M. Mayes, P. D. 
        Gallagher, and S. K. Satija, ``Observed Frustration in Confined 
        Block Copolymers'', Phys. Rev. Lett. 72, 2899 (1994).

        6. Huai Zhang, P. D. Gallagher, S. K. Satija, R. M. Lindstrom, 
        R. L. Paul, T. P. Russell, P. Lambooy, and E. J. Kramer, 
        ``Grazing Incidence Prompt Gamma Emissions and Resonance-
        Enhanced Neutron Standing Waves in a Thin Film'', Phys. Rev. 
        Lett. 72, 3044 (1994).

        7. Thomas P. Russell, Peter Lambooy, John G. Barker, Patrick 
        Gallagher, Sushil K. Satija, Gregory J. Kellogg, and Anne M. 
        Mayes, ``Small Angle Neutron Scattering Studies on Ultrathin 
        Films'', Macromolecules 28, 787 (1995).

        8. Nagraj Koneripalli, Navjot Singh, Rastislav Levicky, Frank 
        S. Bates, Patrick D. Gallagher, and Sushil K. Satija, 
        ``Confined Block Copolymer Thin Films'', Macromolecules 28, 
        2897 (1995).

        9. Huai Zhang, S. K. Satija, P. D. Gallagher, J. A. Dura, K. 
        Ritley, C. P. Flynn, and J. F. Ankner, ``Grazing-incidence 
        neutron diffraction by thin films with resonance enhancement'', 
        Phys. Rev. B 52, 17501 (1995).

        10. S. K. Satija, H. Zhang, P. D. Gallagher, R. M. Lindstrom, 
        R. L. Paul, T. P. Russell, P. Lambooy, and E. J. Kramer, 
        ``Resonance Enhanced Neutron Standing Waves in Thin Films'', 
        Mat. Res. Soc. Symp. Proc. 376, 259 (1995).

        11. Fragneto, J. R. Lu, D. C. McDermott, R. K. Thomas, A. R. 
        Rennie, P. D. Gallagher, and S. K. Satija, ``Structure of 
        Adsorbed Layers of Tetraethylene Glycol Monododecyl Ether 
        Adsorbed on Self-assembled Monolayers on Silicon: A Neutron 
        Reflectivity Study'', Langmiur 12, 477 (1996).

        12. G. J. Kellogg, D. G. Walton, A. M. Mayes, P. Lambooy, T. P. 
        Russell, P. D. Gallagher, and S. K. Satija, ``Observed Surface 
        Energy Effects in Confined Diblock Copolymers'', Phys. Rev. 
        Lett. 76, 2503 (1996).

        13. S. Kent, B. J. Factor, Sushil Satija, Pat Gallagher, G. S. 
        Smith, ``Structure of Bimodal Polymer Brushes in a Good Solvent 
        by Neutron Reflectivity'', Macromolecules 29, 2843 (1996).

        14. Yonglin Xie, Karl F. Ludwig, Jr., Rama Bansil, Patrick D. 
        Gallagher, Cestmir Kaiak, and Guarionex Morales, ``Time-
        Resolved Small Angle X-ray Scattering Studies of Spinodal 
        Decomposition Kinetics in a Semidilute Polystyrene-Dioctyl 
        Phthalate Solution'', Macromolecules 29, 6150 (1996).

        15. S. K. Satija, P. D. Gallagher, A. Karim, L. J. Fetters, 
        ``Neutron reflectivity study of a chemically end-grafted 
        polystyrene brush in a binary solvent mixture'', Physica B 248, 
        204 (1998).
National Academy Reports (as a contributing member of the committee)
        Neutrinos and Beyond: New Windows on Nature (2003), Neutrino 
        Facilities Assessment Committee.

        Frontiers in Crystalline Matter: From Discovery to Technology 
        (2009), Committee for an Assessment of and Outlook for New 
        Materials Synthesis.
Talks (given while acting as Director of NIST)
    The following general staff or public talks contained general 
remarks about NIST and its programs. All were given in the capacity of 
Deputy Director of NIST:

        September 17, 2008--Safety at NIST, Blue Ribbon Commission on 
        Safety--Gaithersburg, MD.

        October 6, 2008--Improving Safety at NIST, Blue Ribbon 
        Commission on Safety--Boulder, CO.

        October 14, 2008--Welcoming Remarks, Combined Federal Campaign 
        Kickoff--Gaithersburg, MD.

        October 16, 2008--NIST ``Town Hall Meeting''--Gaithersburg, MD.

        October 20, 2008--Remarks, NIST/UMBI Conference on 
        Biosciences--Gaithersburg, MD.

        October 23, 2008--Remarks at World Standards Day--Washington, 
        D.C.

        December 3, 2008--Welcome Address, NIST Annual Awards 
        Ceremony--Gaithersburg, MD.

        January 26, 2009--Welcome to NRC Panel of Assessment, NCNR--
        Gaithersburg, MD.

        February 3, 2009--Deputy Director's Overview, VCAT Meeting, 
        Gaithersburg, MD.

        February 23, 2009--Welcome to NRC Panel of Assessment, CNST--
        Gaithersburg, MD.

        March 14, 2009--Welcoming Remarks, Adventures in Science--
        Gaithersburg, MD.

        April 7, 2009--Introduction of Secretary Locke to NIST Staff--
        Gaithersburg, MD.

        April 16, 2009--Welcoming Remarks, NIST Standards Alumni 
        Association Annual Meeting--Willow Tree, Gaithersburg, MD.

        April 20, 2009--Overview for the University-Federal Dialogue 
        re: Responding to Energy and Environmental Challenges--Madison 
        Hotel, Washington, D.C.

        April 20, 2009--Welcome to NRC Panel of Assessment for EEEL--
        Gaithersburg, MD.

        April 22, 2009--NIST ``Town Hall Meeting''--Gaithersburg, MD.

        April 23, 2009--NIST Boulder ``Town Hall Meeting''--Boulder, 
        CO.

        April 28, 2009--Opening Remarks, First Workshop on Smart Grid 
        Standards--Reston, VA.

        May 14, 2009--Association Meeting on NIST Budget--DOC, 
        Washington, D.C.

        May 15, 2009--NIST: Promoting U.S. Innovation, Industrial 
        Competitiveness, and Homeland Security--Gaithersburg, MD.

        May 19, 2009--Opening Remarks, Second Workshop on Smart Grid 
        Standards--National Harbor, MD.

        June 9-10, 2009--Deputy Director's Overview, VCAT Meeting--
        Gaithersburg, MD.

        June 12, 2009--Remarks to the June ANSI Caucus--Washington, 
        D.C.

        June 25, 2009--Remarks, COMSCI Graduation--DOC, Washington, 
        D.C.

        June 29, 2009--Opening Remarks for Setting the Standards for 
        Competing Globally Workshop--Gaithersburg, MD.

        June 30, 2009--NIST's Activities in Health IT--Cambridge, MA 
        (MIT).

        July 7, 2009--Welcome to TIP Advisory Board--Gaithersburg, MD.

        August 3, 2009--Welcoming Remarks, Third Smart Grid Workshop--
        Chantilly, VA.

        August 6, 2008--Welcome to Smart Grid Cyber Security 
        Coordination Task Group--Gaithersburg, MD.

        August 27, 2009--Supporting Economic Development With 
        Metrology: NIST's Experience, Opening of NIM Changping Campus, 
        Beijing, China.

        September 15, 2009--Scripps Groundbreaking Remarks--San Diego, 
        CA.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Testified before the House Committee on Science and Technology on 
Monitoring, Measurement and Verification of Greenhouse Gas Emissions 
II: The Role of Federal and Academic Research and Monitoring Programs, 
April 22, 2009.
    Testified before the Senate Committee on Energy and Natural 
Resources on the progress on smart grid initiatives authorized in the 
Energy Independence and Security Act of 2007, March 3, 2009.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have over 16 years of experience at NIST, encompassing work as a 
research scientist, group leader, division chief, facility director, 
and as acting director of the agency. Fourteen of my sixteen years at 
NIST have been in supervisory and leadership positions. I have a 
passion for the work that NIST does and a deep understanding of the 
strengths and weaknesses of the agency. I also have 18 months of 
experience as a detailee to the Office of Science and Technology Policy 
(late 1999-mid 2001) and have since had an active role in promoting 
interagency coordination particularly in the area of major scientific 
user facilities. I believe that the President has articulated a 
compelling vision for the critical role that science and technology can 
play in addressing our most pressing national needs. I wish to serve as 
NIST Director because I believe that my background and experience make 
me well suited to see that NIST can effectively address the challenge 
laid out by the President.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    My responsibilities as NIST Director are to ensure that NIST is 
effectively managed to: promote maximum efficiency; to ensure 
accountability over the use of all public resources--financial, 
information technology, and property; to develop and implement a 
strategic planning process to effectively focus the agency on the most 
urgent priorities; to implement the agency's plans and ensure 
accountability for results; and to ensure that NIST is a safe, healthy 
and productive place to work. As noted above, I have over 14 years of 
management and leadership experience at NIST, including 1 year acting 
in the capacity of NIST Director.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Over the past year, I have communicated three major goals to the 
NIST staff:

  <bullet> Improve the focus of NIST programs and services so that they 
        address the most urgent priorities and are properly coordinated 
        with the work of other agencies, industry, and other 
        institutions.

  <bullet> Improve the effectiveness and efficiency of NIST programs 
        through better planning, decision-making, execution, and 
        assessment and review;

  <bullet> Strengthen safety management at NIST.

    These goals are essential to the agency for several reasons. NIST's 
broad mission and diverse, world-class technical capabilities represent 
incredible strengths for the organization. However, they also pose a 
problem: the NIST efforts can too easily become unfocused or too 
diffuse to achieve meaningful results. The breadth of NIST's work also 
means that it is seldom concentrated in any one particular area. This 
means that NIST researchers must work closely with other agencies, 
industries, or other organizations to amplify the effectiveness of our 
work. The challenge at NIST is not a lack of talent, rather it is the 
need to effectively plan, develop, and implement programs so that 
efforts are effectively focused and coordinated to maximize impact. It 
also requires that our NIST staff have access to the best facilities 
and equipment and that work is performed in a way to ensure their 
safety and health.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Only income is from Federal income and retirement is with FERS. 
(Spouse salary and 401(k) mutual fund information is included in 
financial disclosure forms).
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: No.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As part of my responsibilities as Deputy Director of NIST I have 
participated in multiple meetings with senior Administration officials 
and Congressional staff on legislation affecting NIST. Similarly, from 
1999-2001, as a NIST agency representative of the Office of Science and 
Technology Policy, I was a participant in preparing Administration 
responses to proposed legislation in coordination with the Office of 
Management and Budget.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    N/A, none apply since they are part of my official duties.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     resume of patrick d. gallagher
Federal Employment History
    National Institute of Standards and Technology, U.S. Department of 
Commerce (since June 1, 1993).

    Highest Grade: Senior Executive Service ES-1301 (since 2004).
Education
    Ph.D. in Physics, 1991, University of Pittsburgh, Pittsburgh, PA 
15260.

    M.S. in Physics, 1987, University of Pittsburgh, Pittsburgh, PA 
15260.

    B.A. in Physics and Philosophy, 1985, Benedictine College, 1020 
North St., Atchison, KS 66002.
Professional Experience
    Deputy Director, National Institute of Standards and Technology, 
2008-present.

        I carry out the responsibilities of NIST's Director while the 
        NIST Director position is vacant, including overall 
        programmatic, management, and operational responsibility for 
        NIST. The agency's mission is to promote U.S. innovation and 
        industrial competitiveness by advancing measurement science, 
        standards, and technology. N1ST's FY 2009 resources total $1.6 
        billion, including $819 million in appropriations from the 
        Omnibus Appropriations Act of 2009, $610 million in funds from 
        the American Recovery and Reinvestment Act, $48 million in 
        service fees, and $125 million from other agencies. The agency 
        employs about 2,900 scientists, engineers, technicians, support 
        staff and administrative personnel at two main locations in 
        Gaithersburg, Maryland and Boulder, Colorado.

    Director, NIST Center for Neutron Research, 2004-2008.

        Overall management, programmatic, and operational 
        responsibility for the NIST Center for Neutron research, a 20MW 
        nuclear reactor-based facility and the Nation's leading neutron 
        research facility. Initiated a 5-year, $100M project to expand 
        the facility, increasing the research capacity by 30 percent 
        and increasing cost-effectiveness. The Center had over 100 
        Federal employees, over 60 associate researchers, and an annual 
        operating budget of approximately $30M (excluding expansion 
        project).

    Leader, Research Facilities Operations Group, NIST Center for 
Neutron Research, 1998-2004.

    Reporting directly to the Director of the NIST Center for Neutron 
Research, I had overall responsibility for all aspects of neutron 
scattering facility operations and neutron instrumentation development, 
including: design, fabrication, installation, operation and 
maintenance. The group had over 30 full-time employees and long-term 
guest researchers, and an annual budget of over $13M.

    Agency Representative, National Science and Technology Council, 
Office of Science Policy and Technology (detail), November 1999-June 
2001.

        Working under the Associate Director for Science at the OSTP, I 
        represented the Administration on a number of issues in the 
        area of national science policy, including: radiation safety 
        and standards, large-scale science facilities, the government-
        university partnership, Federal laboratory reform, and science 
        budgets.

    Physicist, NIST Center for Neutron Research, 1993-1998.

        Hired originally as an instrument responsible for the 
        horizontal neutron reflectometer, I was responsible for the 
        routine operation, maintenance and improvement of the 
        instrument. In addition to the instrument responsibilities, I 
        maintained an active research program. Later, I supervised the 
        technical support teams (engineering and electronic 
        technicians) and was the Beam Experiment Coordinator. In this 
        capacity, I was responsible for the successful development of 
        all NCNR beamlines and instruments and for ensuring that all 
        scattering activities received full and appropriate safety 
        approval and review.

    Research Associate, with Rama Bansil, Boston University, 1991-1993.

        Research activities in phase separation kinetics in polymeric 
        systems, interfacial instabilities in non-equilibrium systems, 
        and technique development in small angle light scattering, 
        microscopy, and small angle x-ray scattering.

    Research Assistant, with James V. Maher, University of Pittsburgh, 
1986-1991.

        Research activities in wetting phenomena, phase behavior in 
        binary critical mixtures and colloidal systems, and interfacial 
        instabilities in driven systems. Technique development in 
        dynamic light scattering and video microscopy.
Other Experience
    High School Teacher, LeBlond High School, St. Joseph, MO, 1985-
1986. I taught one year at a four year high school as a math and 
science teacher. The teaching load was six contact hours per day 
teaching Physics, Chemistry, and Geometry. I additionally served as 
Head Coach for the cross-country track team.
Research Interests
    Neutron scattering instrumentation development, including: neutron 
guide systems, small angle scattering, neutron reflectometry, and high 
resolution inelastic spectroscopy. Neutron and x-ray diffraction of 
nanoscale structure, especially in soft condensed matter systems such 
as liquids, polymers and gels. Experimental study of non-equilibrium 
structure and processes in complex condensed matter systems. Examples 
include: wetting and adsorption phenomena; phase behavior of structured 
polymers including polymer brushes, and linear and dendritic 
copolymers; kinetics of phase separation; and interfacial instability.
Selected Professional Activities
    Member, American Association for the Advancement of Science.

    Member, Math and Physical Sciences Advisory Committee, National 
Science Foundation (2008)

    Chair, Interagency Working Group on Neutron Science, National 
Science and Technology Council, Office of Science and Technology Policy 
(since 2000)

    Chair, Interagency Working Group on Synchrotron Light Sources, 
National Science and Technology Council, Office of Science and 
Technology Policy (2002-2008)

    Member, SNS Neutron Sciences Advisory Board (2007-2008)

    Member, 2006 DOE/BES Committee on Visitors, Division of Materials 
Science and Engineering

    Member, 2007 DOE/BES Committee on Visitors, Scientific User 
Facilities Division

    Member, Solid State Sciences Committee, Board on Physics and 
Astronomy, National Research Council (2002-2004)

    Member, Neutrino Facility Advisory Committee, Board on Physics and 
Astronomy, National Research Council (2002-2003)

    Member, Committee for an Assessment of and Outlook for New 
Materials Synthesis and Growth, Board on Physics and Astronomy, 
National Research Council (2007-2009)

    Acting Chair, NIST Ionizing Radiation Safety Committee (2003-2008)

    Sigma Xi Honor Society, elected 1987

    Sigma Pi Sigma Honor Society, elected 1994
Scientific Journal Articles
    1. P. D. Gallagher and J. V. Maher, ``Adsorption and Wetting on 
Moveable Walls'' in Festschrift for Michael E. Fisher, eds. E. Domany 
and D. Jasnow, Physica A 177, 489 (1991).

    2. P. D. Gallagher and J. V. Maher ``Partitioning of Polystyrene 
Latex Spheres in Immiscible Critical Liquid Mixture'', Phys. Rev. A 46, 
2012 (1992).

    3. P. D. Gallagher, M. L. Kurnaz, and J. V. Maher, ``Aggregation in 
Polystyrene-Sphere Suspensions in Near-Critical Binary Liquid 
Mixture'', Phys. Rev. A 46, 7750 (1992).

    4. Sharon C. Glotzer, Rama Bansil, Patrick D. Gallagher, Mark F. 
Gyure, Francesco Sciortino, and H. Eugene Stanley, ``Physical Gels and 
Microphase Separation in Multiblock Copolymers'', Physica A 201, 482 
(1993).

    5. P. Lambooy, T. P. Russell, G. J. Kellogg, A. M. Mayes, P. D. 
Gallagher, and S. K. Satija, ``Observed Frustration in Confined Block 
Copolymers'', Phys. Rev. Lett. 72, 2899 (1994).

    6. Huai Zhang, P. D. Gallagher, S. K. Satija, R. M. Lindstrom, R. 
L. Paul, T. P. Russell, P. Lambooy, and E. J. Kramer, ``Grazing 
Incidence Prompt Gamma Emissions and Resonance-Enhanced Neutron 
Standing Waves in a Thin Film'', Phys. Rev. Lett. 72, 3044 (1994).

    7. Thomas P. Russell, Peter Lambooy, John G. Barker, Patrick 
Gallagher, Sushil K. Satija, Gregory J. Kellogg, and Anne M. Mayes, 
``Small Angle Neutron Scattering Studies on Ultrathin Films'', 
Macromolecules 28, 787 (I995).

    8. Nagraj Koneripalli, Navjot Singh, Rastislav Levicky, Frank S. 
Bates, Patrick D. Gallagher, and Sushil K. Satija, ``Confined Block 
Copolymer Thin Films'', Macromolecules 28, 2897 (1995).

    9. Huai Zhang, S. K. Satija, P. D. Gallagher, J. A. Dura, K. 
Ritley, C. P. Flynn, and J. F. Ankner, ``Grazing-incidence neutron 
diffraction by thin films with resonance enhancement'', Phys. Rev. B 
52, 17501 (1995).

    10. S. K. Satija, H. Zhang, P. D. Gallagher, R. M. Lindstrom, R. L. 
Paul, T. P. Russell, P. Lambooy, and E. J. Kramer, ``Resonance Enhanced 
Neutron Standing Waves in Thin Films'', Mat. Res. Soc. Symp. Proc. 376, 
259 (1995).

    11. Fragneto, J. R. Lu, D. C. McDermott, R. K. Thomas, A. R. 
Rennie, P. D. Gallagher, and S. K. Satija, ``Structure of Adsorbed 
Layers of Tetraethylene Glycol Monododecyl Ether Adsorbed on Self-
assembled Monolayers on Silicon: A Neutron Reflectivity Study'', 
Langmiur 12, 477 (1996).

    12, G. J. Kellogg, D. G. Walton, A. M. Mayes, P. Lambooy, T. P. 
Russell, P. D. Gallagher, and S. K. Satija, ``Observed Surface Energy 
Effects in Confined Diblock Copolymers'', Phys. Rev. Lett. 76, 2503 
(1996).

    13. S. Kent, B. J. Factor, Sushil Satija, Pat Gallagher, G. S. 
Smith, ``Structure of Bimodal Polymer Brushes in a Good Solvent by 
Neutron Reflectivity'', Macromolecules 29, 2843 (1996).

    14. Yonglin Xie, Karl F. Ludwig, Jr., Rama Bansil, Patrick D. 
Gallagher, Cestmir Konak, and Guarionex Morales, ``Time-Resolved Small 
Angle X-ray Scattering Studies of Spinodal Decomposition Kinetics in a 
Semidilute Polystyrene-Dioctyl Phthalate Solution'', Macromolecules 29, 
6150 (1996).

    15. S. K. Satija, P. D. Gallagher, A. Karim, L. J. Fetters, 
``Neutron reflectivity study of a chemically end-grafted polystyrene 
brush in a binary solvent mixture'', Physica B 248, 204 (1998).
Proceedings
    P. D. Gallagher and J. V. Maher, ``Interaction of Colloidal 
Particles with Critical Liquid Mixtures'', in Structure and Dynamics of 
Strongly Interacting Colloids and Supramolecular Aggregates in 
Solution, eds. Sow-Hsin Chen, John S. Huang, and Piero Tartaglia, 
(Kluwer Academic Publishers, Dordrcht, The Netherlands) 1992.

    The Chairman. Thank you very much.
    Dr. Robinson, would you like to give your testimony?

STATEMENT OF ELIZABETH (BETH) ROBINSON, Ph.D., CHIEF FINANCIAL 
       OFFICER-DESIGNATE, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Dr. Robinson. Yes, thank you. Chairman Rockefeller and 
members of the Committee: Thank you for the opportunity to 
appear today while you consider--for me to appear today while 
you consider my nomination to be CFO at NASA. It's an honor to 
be here and to have been introduced by Senator Cantwell. I also 
appreciate the time that members have already taken to meet 
with me, and, if confirmed, I look forward to working with you 
to continue the Nation's effort in pioneering space science and 
technology.
    If I may ask, Mr. Chairman, I'd like to submit my entire 
written testimony for the record.
    The Chairman. They're all in, yes.
    Dr. Robinson. Excellent.
    I'm privileged to have been nominated by the President to 
this post, more so because in many ways being confirmed for 
this position would be like coming home. After growing up in 
Seattle and earning my Ph.D. in geophysics, I started my career 
as a geophysist working with NASA data. I eventually joined the 
staff of the House Committee on Science, Space, and Technology 
and worked for Chairman George Brown from California. 
Congressman Brown was a very wise man and someone I'm glad to 
have known before his untimely death. He loved science and he 
loved NASA. He was just thrilled every time he heard of a new 
NASA discovery, and his boundless optimism about the future of 
the Nation and its scientific underpinnings has remained with 
me to this day.
    If confirmed, I would commit to improving NASA's strategic 
planning, budget, and financial performance to make that future 
vision more robust and attainable. I would work with NASA 
leadership and its dedicated professionals, especially those in 
the CFO office, who have been very ably led by Ron Spoehel, the 
current CFO.
    I would also work with the Congress, the White House, the 
private sector, and other key constituencies to meet the 
President's and the Nation's objectives for NASA, all the time 
undertaking the mission in the most effective and efficient 
manner possible, especially during a time when there are 
competing demands for our Nation's resources.
    I believe that public service is a duty and a privilege. I 
have served as a career staff member for over 20 years in the 
Executive and Legislative branches, most recently as the 
Assistant Director for Budget at the Office of Management and 
Budget, and before that as Deputy at the Congressional Budget 
Office.
    I believe in the importance of creative and tenacious 
leaders in the Nation's government agencies, and I'm 
enthusiastic about the opportunity, if confirmed, to address 
the challenges of the position of NASA CFO and to bring my 
budget, financial, and leadership experience into the service 
of NASA and the Federal Government.
    Mr. Chairman and members of the Committee, I thank you 
again for your consideration of my nomination and I look 
forward to working with you if confirmed. I also look forward 
to answering any questions you may now have. Thank you.
    [The prepared statement and biographical information of Dr. 
Robinson follows:]

Prepared Statement of Elizabeth (Beth) Robinson, Ph.D., Chief Financial 
    Officer-Designate, National Aeronautics and Space Administration
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, thank you for the opportunity to appear before you today as 
you consider my nomination for the position of Chief Financial Officer 
at the National Aeronautics and Space Administration (NASA). It is an 
honor to be here. I also appreciate the time Members of this Committee 
already have taken to meet with me, and, if confirmed, I look forward 
to working with the Committee to address the challenges of maintaining 
the Nation's critical efforts to pioneer space science, technology, and 
exploration and aeronautics, while also undertaking key research 
programs to advance our knowledge and understanding of our own planet.
    I am privileged to have been nominated by the President to this 
post, more so, because, in many ways, being confirmed for this position 
would be like ``coming home'' for me. After growing up in Seattle, 
Washington, studying at the University of Washington, graduating from 
Reed College, and earning a PhD from the Massachusetts Institute for 
Technology, I started my career as a geophysicist, working with NASA 
data. I eventually joined the staff of the House Committee on Science, 
Space and Technology, where I worked for Chairman George E. Brown of 
California. Congressman Brown was a very wise man and someone that I am 
very glad I came to know well before his untimely death. He loved 
science, and he loved NASA. And he was just thrilled every time he 
heard of a significant new NASA discovery. His boundless optimism about 
the future of the Nation and its scientific underpinnings has remained 
with me to this day, as I am honored to be considered for the position 
of NASA Chief Financial Officer.
    If confirmed, I would commit to improving NASA's strategic 
planning, budget and financial performance to make that future vision 
more robust and attainable. Working with Administrator Bolden, Deputy 
Administrator Garver, NASA's dedicated professionals, Congress, the 
White House, the private sector, and other key constituencies, I would 
strive to meet the President's and Nation's objectives for NASA, while 
undertaking the mission in the most effective and efficient manner 
possible, especially during a time when there are other competing 
demands for our Nation's resources.
    The position of Chief Financial Officer in any organization carries 
a tremendous responsibility as the pivotal point where budget, 
accountability, evaluation, and sound fiscal management all reside. 
Moreover, NASA has faced challenges in the performance of its financial 
and project management functions that must be addressed as quickly as 
possible. If confirmed, I would build upon the progress that NASA has 
already made, while continuing to improve the management, performance, 
and results for the Agency.
    Over my career, I am fortunate to have gained broad experience in 
strategic planning, budget, financial management and leadership. At the 
Office of Management and Budget, I enjoyed a unique perspective from 
which to learn about, and participate in, the planning, budget, 
financial and evaluation process of the Federal Government. At the 
House Science Committee and Congressional Office of Technology 
Assessment, I gained valuable expertise in research and development 
workforce issues, project planning and execution, and program 
oversight, and, more importantly, how to work with the Congress on 
those issues. My executive experience in several agencies also has 
provided direct experience in the leadership of complex organizations. 
If I am confirmed, I would bring to NASA broad experience within 
budget, finance and general management, as well as particular 
experience in coordinating the President's Budget and related products.
    If confirmed, I would make it a priority to work closely with NASA 
leadership and each of the constituencies with which NASA's CFO 
organization interfaces to understand the current key challenges which 
NASA and its CFO organization face. I would work with the CFO staff to 
focus appropriate attention and resources to ensure Agency success in 
meeting these challenges. I would also make it a priority to work with 
the staff to support Agency efforts to achieve unqualified audit 
opinions and be a first-class management organization.
    I believe public service is a duty, a privilege and an honor. I 
have served as a career staff member for over 20 years in the Executive 
and Legislative branches of government, and I believe in the importance 
of creative and tenacious leaders in the Nation's government agencies. 
I am enthusiastic about the opportunity, if confirmed, to address the 
challenges of the position NASA Chief Financial Officer and to bring my 
budget, financial and leadership experience into the service of NASA 
and the Federal Government.
    Mr. Chairman and members of the Committee, I thank you, again, for 
your consideration of my nomination, and I look forward to answering 
any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (include any former names or nicknames used): Elizabeth M. 
Robinson (nickname: Beth).
    2. Position to which nominated: Chief Financial Officer, NASA.
    3. Date of Nomination: September 21, 2009.
    4. Address (List current place of residence and. office addresses):

        Residence: Information not released to the public.

        Office: EEOB, Rm. 207, Executive Office of the President, 
        Washington, DC 20515.

    5. Date and Place of Birth: June 12, 1964; Chapel Hill, NC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Son: Andrew R. Leinbach, 18; Daughter: Dana R. Leinbach, 15.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Ph.D. in Geophysics, Massachusetts Inst. of Technology (1987).

        BA in Physics, Reed College (1982).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Research Assistant and NSF Fellow, MIT., (1982-1987).

        Post-doctoral fellow/Assistant Professor, Stanford Univ. (1987-
        88).

        Congressional Science Fellow, Geological Society of America, 
        Office of Cong. Gephardt (1988-89).

        Project Scientist and Project Director, Office of Technology 
        Assessment (1989-1994)--while Project Director, led a team of 
        three over the course of more than a year.

        Professional Staff Member, House Science Committee (1994-1998).

        Office of Management and Budget (1998-2003)--became Branch 
        Chief (managing 15 people) in 2000; Deputy Asst. Director 
        (managing 30 people) in 2002.

        Congressional Budget Office (2003-2005)--Deputy Director for an 
        institution of 235 people.

        Office of Management and Budget (2005-Present) Assistant 
        Director for Budget, managing 67 people and leading the 
        development of the Federal Budget.

        Adjunct Professor, George Washington University (2009).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Unitarian Universalist Church of Arlington (Member).

        National Academy of Public Administration (Fellow, member of 
        the finance board).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: None.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Congressional Science Fellowship, Geological Society of America 
        (1988).

        National Science Fellowship (1982-1985).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Robinson, E. M., Impact of the Americans with Disabilities Act 
        on Bus Service, TR News, September-October 1993, pp. 22-23.

        Preparing for an Uncertain Climate, October, 1993; U.S. 
        Congress, Office of Technology Assessment, Principal Analyst.

        Access to Over-the-Road Buses for Persons with Disabilities, 
        May, 1.993; U.S. Congress, Office of Technology Assessment. 
        Project Director.

        Chubin, D. E. and E. M. Robinson, Human Resources for the 
        Research Work Force, Science and Public Policy, vol. 19, #6, 
        December 1992, pp. 334-342.

        Chubin, D. E. and E. M. Robinson, Accounting for the Costs of 
        Research: Some Policy Rethinking, Science and Public Policy, 
        vol. 19, #3, June 1992, pp. 181-186.

        Robinson, E. M., Know thy Sponsor: Project Selection Methods at 
        Federal Research Agencies, BioScience, vol 41, #8, September 
        1991, pp. 575-577.

        Chubin, D. E. and E. M. Robinson, Sound Science Policy Requires 
        Better Data Management, The Scientist, vol. 5, #18, September 
        1991, pp. 11-13.

        Chubin, D. E. and E. M. Robinson, Data on the Federal Research 
        System: What is Known and What's Not?, Knowledge: Creation, 
        Diffusion, Utilization, vol. 13, September 1991, pp. 49-78.

        Chubin, D. E., E. M. Robinson, N. Carson and J. Andelin, 
        Research Priority Setting and the U.S. Congress, Science and 
        Technology Policy, August 1991 pp. 9-13,

        Chubin, D. E. and E. M. Robinson, Setting Priorities is 
        Imperative If We Are to Develop a Successful Federal Research 
        Portfolio for the 1990s, The Chronicle of Higher Education, vol 
        37, June 5, 1991, pp. B1-B2.

        Federally Funded Research: Decisions for a Decade, May, 1991 
        U.S. Congress, Office of Technology Assessment. Principal 
        Analyst.

        Robinson, E. M., Science and Engineering Indicators: What They 
        Do (and Do Not) Tell Policymakers, proceedings of the R&D 
        Colloquium of the American Association for the Advancement of 
        Science, April 11-12, 1991.

        Robinson, E. M., Inside Congress, a series of news articles for 
        News and Information of the Geological Society of America, 
        March-September, 1989.

        Robinson, E. M., The topographic and gravitational expression 
        of density anomalies due to melt extraction in the uppermost 
        oceanic mantle, Earth and Planetary Science Letters, 90, 221-
        228, 1988.

        Robinson, E. M., B. Parsons and M. Driscoll, The effect of a 
        shallow low viscosity zone on mantle convection and geoid and 
        topography anomalies at fracture zones, Geophysical Journal, 
        93, 25-43, 1988.

        Robinson, E. M. and B. Parsons, The effect of a shallow low 
        viscosity zone on the formation of mid-plate swells, Journal of 
        Geophysical Res., 93, 3144-3156, 1988.

        Robinson, E. M. and B. Parsons, The effect of a shallow low 
        viscosity zone on small scale convective instabilities under 
        the cooling oceanic plates, Journal of Geophysical Res., 93, 
        3469-3479, 1988.

        Robinson, E. M., B. Parsons and S. F. Daly, The effect of a 
        shallow low viscosity zone on the apparent composition of mid-
        plate swells. Earth and Planetary Science Letters, 82, 335-349, 
        1987.

        Robinson, E. M., L. Shure and R. L. Parker, Recovering seamount 
        magnetism: An inverse approach, EOS, 65, 198, 1984

        Robinson, E. M., M. K. McNutt and R. Batiza, Paleomagnetism of 
        Cocos plate seamounts: Revisited, EOS, 64, 218, 1983.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental. capacity and specify the date and subject matter of each 
testimony.
    House Science Committee, April 1990, on the OTA report, Federally 
Funded Research: Decisions for a Decade, with Daryl Chubin.
    18.Given the current mission, major programs, and major operational 
objectives of the dcpartment/agency to which you have been nominated, 
what in your background or employment experience do you believe 
affirmatively qualifies you for appointment to the position for which 
you have been nominated, and why do you wish to serve in that 
position'?
    I believe that I am qualified to become the Chief Financial Officer 
for NASA for three reasons. First, my experience in the Office of 
Management and Budget as the senior-most career civil servant and 
manager of the policy process to develop the President's Budget has 
prepared me for the day-to-day work of the NASA CFO. My OMB position 
has provided a unique opportunity from which to learn about, and 
participate in, the entire budget and financial process in the Federal 
Government; and, in addition to working in the process at the White-
House level, my current position also oversees the development of 
budget formulation, execution and financial management rules and 
procedures for all Executive Branch agencies, including NASA.
    Second, I am experienced in the research and development issues 
facing NASA. Through my work at the Office of Technology Assessment, 
the House Science, Space, and Technology Committee, and OMB, I have 
expertise in R&D workforce issues, project planning and execution, and 
program oversight.
    Finally, I have extensive experience working in--and with--the 
Congress, especially on R&D issues. I understand the information needs 
of the Authorizing and Appropriations Committees, and the schedules and 
timetables they must keep.
    Because of this experience and my long-time interest in satellites 
and space (e.g., my Ph.D. thesis, over 20 years ago, used satellite 
data extensively), I am very much interested in serving at NASA to help 
improve the agency's ability to create--and maintain course in--its 
strategic plan and to provide solid budget and financial reporting and 
accountability.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The CFO of any organization is directly responsible for the quality 
and accountability of the organization's management, budget, and 
accounting controls. NASA faces challenges in this area, but has made 
improvements in recent years. It would be my job to continue to build 
on those improvements and institute new ones with the ultimate goals of 
producing a solid multi-year budget plan and financial reports with a 
clean audit.
    My experience in managing large organizations includes: (a) Deputy 
Director of the Congressional Budget Office, where 1 was responsible 
for the day-to-day management of the organization, which employed 235 
civil servants; and (b) Assistant Director for Budget, where I directly 
managed the Budget Review Division (62 staff and 30 contractors) and 
oversaw the development of the Federal Budget, which required that I 
indirectly manage the work of 400 other OMB staff for portions of each 
year.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    First, beginning this Fall, NASA must implement the decision of the 
President on the future direction of human space flight, following the 
final report of the Augustine Commission. That reorientation will 
involve the development of a new strategic plan, a long-term budget 
plan that is executable, and strong management initiatives to ensure 
that the program can deliver. At the same time, NASA must also balance 
its R&D portfolio to ensure that important earth science, aeronautics, 
and other areas are vibrant and meet the needs of the Nation.
    Second, NASA must earn the Congress' respect by improving its 
ability to cost and deliver projects on time and within budget. Too 
many NASA projects have exceeded their initial cost estimates and been 
delayed for internal reasons, which has undermined the trust of 
policymakers in the ability of NASA to execute its long-term plans. 
While NASA has made improvements in recent years, there is much yet to 
be done.
    Third, NASA has not yet earned a clean audit on its financial 
books, which also undermines confidence in the day-to-day controls at 
NASA. To do so, it must improve its financial control and property 
management systems. Multi-year efforts are underway, but here too much 
work remains.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    Do you have any commitments or agreements, formal or informal, to 
maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? if so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in. 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    None (except in the course of my job to provide information on the 
budget and Presidential initiatives to Congress and the 
Administration).
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I know of none; however any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with NASA's designated agency ethics official and 
that has been provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Divorce proceeding, divorce granted on Nov. 22, 2006 in the state 
of Virginia.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which. you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional. witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
               resume of elizabeth (beth) robinson, ph.d.
Experience
    Office of Management and Budget, Assistant Director for Budget.

        Primary responsibilities include overseeing the development of 
        the President's Budget and implementation of the President's 
        policies through legislation, budget execution and financial 
        reporting; leading the Budget Review Division, which operated 
        with seven managers in the Senior Executive Service and 
        includes units that control and oversee the President's budget 
        data base, develop and maintain the U.S. Federal budget system 
        (and the collaborative MAX Community), set and implement budget 
        execution policy, provide budget analysis and alternatives to 
        OMB leadership, implement Federal credit policy, and run a 
        large number of ad hoc activities to address the policy needs 
        of the OMB Director and Deputy. September 2005 to the present.

    Congressional Budget Office, Deputy Director.

        Primary responsibilities included substituting for the 
        Director, when absent; reviewing and signing cost estimates; 
        reviewing all reports, pre-publication; overseeing the 
        Management Division, including all pay and finance actions; 
        leading the development of a replacement budget system; and 
        presenting CBO findings at conferences and to Congressional 
        staff. Additional responsibilities included serving as the 
        agency's representative on the Federal Accounting Standards 
        Advisory Board. August 2003 to September 2005.

    Office of Management and Budget, Deputy Assistant Director for 
Budget Review and Concepts.

        Primary responsibilities included overseeing development of: 
        the database supporting the President's annual budget and 
        production of other budget documents; revisions to Circular A-
        11 and scorekeeping rules; budget execution and financial 
        reporting issues; proposals for, and monitoring Congressional 
        action on, appropriations legislation; discretionary spending 
        estimates for ``fast numbers'' exercises; and a wide variety of 
        policy analysis projects. Early in the period, served as the 
        Branch Chief for Budget Review. November 2000 to August 2003.

    Office of Management and Budget, Program Examiner, Energy Issues.

        Budget and management responsibilities included at various 
        times the defense, intelligence, fossil energy, and science 
        programs at the Department of Energy. Specific projects 
        included creation of the National Nuclear Security 
        Administration, determination of the disposition of U.S. 
        Enrichment Corporation assets, and planning for the development 
        of the Next Linear Collider. From May-August, 2000, I rotated 
        to the National Reconnaissance Office to work on a joint study 
        with the National Security Agency. May 1998 to November 2000.

    Committee on Science, U.S. Congress, Principal Minority Staff 
Member, Subcommittee on Energy and Environment.

        Budget and legislative responsibilities included all research 
        and development and civilian clean-up programs at the 
        Department of Energy, the National Earthquake Hazards Reduction 
        Program, and various science policy issues. Investigatory 
        responsibilities included oversight of all agencies under 
        Committee jurisdiction. January 1995 to May 1998.

    Committee on Science, Space, and Technology, U.S. Congress, 
Professional Staff Member.

        Budget authorization and legislative responsibilities included 
        the physics budgets at. the Department of Energy, the National 
        Science Foundation, university research expenditures, 
        international collaboration in big-science projects, the 
        National Earthquake Hazards Reduction Program, academic 
        earmarking, and various science policy issues. 1994-1995.

    Office of Technology Assessment, U.S. Congress, Project Director.

        Expert on research and development activities, agency budget 
        issues, and transportation policy. Responsibilities included 
        research, writing, crafting policy options, and supervising a 
        research team. I directed the assessment, Access to Over-the-
        Road Buses for Persons with Disabilities, and was the Principal 
        Analyst on the reports, Federally Funded Research: Decisions 
        for a Decade, and Preparing for an Uncertain Climate. 1989-
        1994.

    Office of Representative Richard A. Gephardt, U.S. Congress.

        Legislative Assistant and Congressional Science Fellow (from 
        the Geological Society of America) for environment, science, 
        and technology issues. 1988-1989.

    Stanford University, Geophysics, Post-doc and Assistant Professor.

        I investigated fluid flow in the interior of the Earth and in 
        hydrogeologic settings, taught ATectonophysics and 
        Geodynamics,@ and participated in the Values, Technology, 
        Science, and Society Program. 1987-1988.
Education
    Ph.D.--Massachusetts Institute of Technology, Cambridge, MA. Degree 
awarded in Geophysics jointly with the Woods Hole Oceanographic 
Institution, September, 1987--thesis on numerical modeling of the 
interior of the Earth with comparisons to satellite data. 1982-1987.

    National Science Foundation Fellow, 1982-1986.

    B.S.--Reed College, Portland, OR. Degree in Physics, June 1982. 
Broad curriculum in physics, math, and the humanities. Editor of the 
school. newspaper (the Quest) and Senator on the Student Senate. 1980-
1982.

    University of Washington, Seattle, WA. Majors in Physics and Math, 
with an English minor. Participated in the Early Entrance Program. 
1978-1980.
Publications
    Robinson, E. M., Impact of the Americans with Disabilities Act on 
Bus Service, TR News, September-October 1993, pp. 22-23.

    Preparing for an Uncertain Climate, October, 1993; U.S. Congress, 
Office of Technology Assessment. Principal Analyst.

    Access to Over-the-Road Buses for Persons with Disabilities, May, 
1993; U.S. Congress, Office of Technology Assessment, Project Director.

    Chubin, D. E. and E. M. Robinson, Human Resources for the Research 
Work Force, Science and Public Policy, vol 19, #6. December 1992, pp. 
334-342.

    Chubin, D. E. and E. M. Robinson, Accounting for the Costs of 
Research: Some Policy Rethinking, Science and Public Policy, vol 19, 
43, June 1992, pp. 1.81-186.

    Robinson, E. M., Know thy Sponsor: Project Selection Methods at 
Federal Research Agencies. BioScience, vol. 41, 08, September 1991. pp. 
575-577.

    Chubin, D. E. and E. M. Robinson, Sound Science Policy Requires 
Better Data Management, The Scientist, vol 5, #18, September 1991, pp. 
11-13.

    Chubin, D. E. and E. M. Robinson, Data on the Federal Research 
System: What is Known and What's Not?, Knowledge: Creation, Diffusion, 
Utilization. vol. 13, September 1991., pp. 49-78

    Chubin, D. E., E. M. Robinson, N. Carson and J. Andelin, Research 
Priority Setting and the U.S. Congress, Science and Technology Policy, 
August 1991, pp. 9-13.

    Chubin, D. E. and E. M. Robinson, Setting Priorities is Imperative 
If We Are to Develop a Successful Federal Research Portfolio for the 
1990s, The Chronicle of Higher Education, vol. 37, June 5, 1991, pp. 
B1.-B2.

    Federally Funded Research: Decisions for a Decade, May, 1991; U.S. 
Congress, Office of Technology Assessment. Principal Analyst.

    Robinson, E. M., Science and Engineering indicators: What They Do 
(and Do Not) Tell. Policymakers, proceedings of the R&D Colloquium Of 
the American Association for the Advancement of Science, April 11-12, 
1991.

    Robinson, E. M., Inside Congress, a series of news articles for 
News and Information of the Geological Society of America, March-
September, 1989.

    Robinson, E. M., The topographic and gravitational expression of 
density anomalies due to melt extraction in the uppermost oceanic 
mantle, Earth and Planetary Science Letters, 90, 221-228, 1988.

    Robinson, E. M., B. Parsons and M. Driscoll, The effect of a 
shallow low viscosity zone on mantle convection and geoid and 
topography anomalies at fracture zones, Geophysical Journal, 93, 25-43, 
1988.

    Robinson, E. M. and B. Parsons, The effect of a shallow low 
viscosity zone on the formation of mid-plate swells, Journal of 
Geophysical Res., 93, 3144-3156, 1988.

    Robinson, E. M. and B. Parsons, The effect of a shallow low 
viscosity zone on small scale convective instabilities under the 
cooling oceanic plates, Journal of Geophysical Res., 93, 3469-3479, 
1988.

    Robinson, E. M., B. Parsons and S.F. Daly, The effect of a shallow 
low viscosity zone on the apparent composition of mid-plate swells, 
Earth and Planetary Science Letters, 82, 335-349, 1987.

    Robinson, E. M., L. Shure and R.L. Parker, Recovering seamount 
magnetism: An inverse approach, EOS, 65, 198, 1984.

    Robinson, E. M., M. K. McNutt and R. Batiza, Paleomagnetism of 
Cocos plate seamounts: Revisited, EOS, 64, 218, 1983.

    The Chairman. Thank you.
    Mr. Martin.

                   STATEMENT OF PAUL MARTIN,

                  INSPECTOR GENERAL-DESIGNATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Martin. Thank you, Mr. Chairman, members of the 
Committee. I'm honored to be nominated to serve as the 
Inspector General at NASA. If confirmed, I look forward to 
working closely with this committee to provide timely, 
accurate, and aggressive oversight of NASA operations.
    In addition to my family and friends that I recognized 
earlier, I'd like to recognize the staff at the NASA OIG, and 
in particular Deputy Inspector General, Tom Howard, who has 
ably managed the office during the past 6 months.
    I've spent the bulk of my professional life in Washington, 
D.C., working at two important Federal agencies, the U.S. 
Sentencing Commission and the U.S. Department of Justice. The 
former, I was privileged to help establish, while at the 
latter, I was honored to be part of a team that conducted 
vigorous oversight of the FBI, the DEA, and other Department of 
Justice components during a specially trying period in our 
Nation's history.
    Most relevant to today's hearing, I joined the Department 
of Justice OIG in 1998. During my time there, I have served in 
a variety of positions, including Deputy Inspector General for 
the past 6 years under Glenn Fine, who to me and many others in 
the oversight community, epitomizes the kind of leader any 
inspector general should strive to emulate. Glenn and my 
colleagues at the DOJ OIG are some of the brightest, hardest 
working, and most dedicated public servants on the planet.
    As the Committee considers my nomination as Inspector 
General, I am energized by the prospect of working with NASA 
Administrator Bolden, Deputy Administrator Garver, and NASA 
leadership across the country to help ensure the integrity, 
efficiency, and effectiveness of NASA programs. One meeting 
with the Administrator and Deputy and I am convinced that they 
understand and appreciate the independent oversight role played 
by the Office of Inspector General.
    From my outsider's vantage point, I see three primary 
challenges facing the NASA OIG in the months ahead. Number one, 
the OIG must conduct timely reviews of NASA's top management 
challenges. Number two, the OIG must maintain a professional, 
cooperative, yet independent, working relationship with NASA 
managers, employees, and contractors. Number three, the OIG 
must help to ensure the integrity of NASA programs and 
personnel through investigations of serious allegations of 
waste, fraud, abuse, or mismanagement.
    I am thankful for this nomination and the opportunity, if 
confirmed, to serve alongside the men and women of the NASA 
Office of Inspector General as we work together to help NASA 
achieve its challenging and important mission.
    Thank you very much.
    [The prepared statement and biographical information of Mr. 
Martin follows:]

    Prepared Statement of Paul Martin, Inspector General-Designate, 
             National Aeronautics and Space Administration
    Mr. Chairman, Ranking Member Hutchison, and members of the 
Committee:
    Thank you for holding this hearing today. I am honored to be 
nominated to serve as the Inspector General at the National Aeronautics 
and Space Administration (NASA). If confirmed, I look forward to 
working closely with this Committee to provide timely, accurate, and 
aggressive oversight of NASA operations.
    At the outset, I would like to recognize my family who are here 
today: my parents, Jean and George Martin from Pittsburgh; my in-laws, 
Stephen and Christine Liu from Potomac (by way of Ann Arbor); several 
siblings and their families; and my colleagues from the Department of 
Justice Office of the Inspector General (OIG), including Inspector 
General Glenn Fine. I am honored that all of these family and friends 
are here today, but I am especially gratified that I can share this day 
with my wife, Rebekah Liu--an attorney at the SEC--and my daughters 
Anna, Emily, and Grace.
    In addition, I would like to recognize the staff at the NASA OIG, 
and in particular, Deputy Inspector General Tom Howard, who has ably 
managed the office during the past 6 months when the Agency has been 
without a confirmed Inspector General.
    I have spent the bulk of my professional life in Washington, D.C., 
working at two important Federal agencies--the U.S. Sentencing 
Commission and the U.S. Department of Justice. The former I was 
privileged to help establish, while at the latter I was honored to be 
part of a team that conducted vigorous oversight of the Federal Bureau 
of Investigation, the Drug Enforcement Administration, the Federal 
Bureau of Prisons, and other Department of Justice components during an 
especially trying period in our national history.
    I moved to Washington, D.C. in 1985, fresh from a 3-year stint as 
an investigative reporter at a South Carolina newspaper. At that time, 
President Reagan had appointed then-Federal district court Judge 
William W. Wilkins, Jr. as Chairman of the newly formed Sentencing 
Commission, and I was fortunate enough to be one of the agency's first 
three employees. I worked alongside Judge Wilkins, then-Judge Stephen 
Breyer, five other Commissioners, and a handful of staff to create a 
new Federal agency and, at the same time, develop the initial set of 
Federal sentencing guidelines. I served first as a Special Assistant to 
the Staff Director, then as the Commission's Communications Director, 
and finally as the Commission's Deputy Staff Director where I helped 
supervise a staff of more than 100 lawyers, researchers, guidelines 
trainers, and data technicians. Along the way I attended evening law 
school at Georgetown University where I received a Juris Doctor but, 
much more significantly, where I met my wife, Rebekah.
    I moved to the Department of Justice OIG in 1998. During my time at 
the Justice Department, I have served in a variety of positions, most 
recently as Deputy Inspector General for the past 6 years under Glenn 
Fine, who to me and many others in the Inspector General community is 
the epitome of the kind of leader any Inspector General should strive 
to emulate. Glenn and my colleagues at the DOJ OIG are some of the 
brightest, hardest working, most dedicated public servants on the 
planet.
    As the Committee considers my nomination as Inspector General at 
NASA, I am excited and energized by the prospect of working with NASA 
Administrator Bolden, Deputy Administrator Garver, and NASA leadership 
across the country to help ensure the integrity, efficiency, and 
effectiveness of NASA programs. One meeting with the Administrator and 
Deputy Administrator and I am convinced that they understand and 
appreciate the independent oversight role played by the Office of 
Inspector General.
    From my vantage point outside of NASA, I see three primary 
challenges facing the NASA OIG in the months and years ahead:

  <bullet> The OIG must conduct timely audits and reviews of NASA's top 
        management challenges that: (1) are helpful to NASA managers 
        and contain practical recommendations for improvement; (2) 
        provide substantive and timely information to Congress in its 
        oversight role; and (3) ensure transparency and accountability 
        to the public about how NASA spends its funds;

  <bullet> The OIG must maintain a professional, cooperative, yet 
        independent working relationship with NASA managers and 
        employees; and

  <bullet> The OIG must help to ensure the integrity of NASA programs 
        and personnel and the proper use of taxpayer funds through 
        criminal and administrative investigations of allegations of 
        waste, fraud, abuse, or mismanagement.

    I am thankful for this nomination and the opportunity, if 
confirmed, to serve alongside the men and women of the NASA Office of 
Inspector General as we work together to help NASA achieve its 
challenging and important mission.
    Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Paul Kenneth 
Martin.
    2. Position to which nominated: Inspector General, National 
Aeronautics and Space Administration.
    3. Date of Nomination: October 1, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 950 Pennsylvania Avenue, NW, Suite 4706, Washington, DC 
        20530.

    5. Date and Place of Birth: December 31, 1959; Pittsburgh, PA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Wife: Rebekah C. Liu, Special Counsel, Securities and Exchange 
        Commission; children: Anna Martin--age 15; Emily Martin--age 
        13, Grace Martin--age 7.

    7. List all college and graduate degrees. Provide year and school 
attended.

        The Pennsylvania State University, 1978-1982, Bachelor of 
        Arts--Journalism (May 1982).

        The Georgetown University Law Center, 1987-1990, Juris Doctor 
        (December 1990).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Deputy Inspector General, U.S. Department of Justice Office of 
        the Inspector General (Washington, D.C.), 2003-present.

        Counselor to the Inspector General, U.S. Department of Justice 
        Office of the Inspector General (Washington, D.C.), 2001-2003.

        Special Counsel to the Inspector General, U.S. Department of 
        Justice Office of the Inspector General (Washington, D.C.), 
        1998-2001.

        Deputy Staff Director, United States Sentencing Commission 
        (Washington, D.C.), 1991-1998.

        Communications Director, United States Sentencing Commission 
        (Washington, D.C.), 1987-1991.

        Special Assistant to the Staff Director, United States 
        Sentencing Commission (Washington, D.C.) 1985-1987.

        Newspaper reporter, The Greenville News (Greenville, SC), 1982-
        1985.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: N/A.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: N/A.
    12.Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Elder, The National Presbyterian Church, Washington, D.C. 
        (various times from 1998-present) (although membership at The 
        National Presbyterian Church is open to those who profess their 
        Christian faith, church services are open to all regardless of 
        their faith tradition, and the church has a variety of other 
        programs open to all).

        Member, Board of Directors, Thurgood Marshall Child Development 
        Center (various times between 1995-1998).

        Treasurer, Shamrocks WAGS U-13 soccer team (2007-2009).

        Member, Virginia State Bar.

        Member, District of Columbia Bar.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personalty liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: N/A.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Variety of performance and other awards during government 
        career.

        Scripps Howard Journalism Scholarship (college).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: N/A.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    March 10, 2005, appearance before the House Committee on the 
Judiciary, Subcommittee on Immigration, Border Security, and Claims, 
concerning ``Interior Immigration Enforcement Issues.''
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My qualifications for this position include my 23 years of Federal 
service, including my 11 years in senior management positions in the 
Department of Justice Office of the Inspector General, in particular my 
service during the last 6 years as Deputy Inspector General of a 425-
employee agency. I am excited for the challenge of bringing my 
management and organizational skills to the NASA OIG and working with 
OIG staff to improve the quality and timeliness of the office's work 
products.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As noted previously, I have served for the past 20 years in senior 
leadership positions in two Federal agencies, As such, I have 
successfully managed the agency's personnel and resources to achieve 
the mission of each organization in a cost effective manner. If 
confirmed as Inspector General, my office would conduct audits and 
reviews of NASA programs to ensure that proper internal controls have 
been established and are being followed. In addition, the OIG oversees 
NASA's annual financial statement audit and I would work closely with 
NASA management to develop strategies to reduce any material weaknesses 
or significant deficiencies, and to improve the agency's internal 
controls.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Conduct timely audits/reviews of NASA's top management 
        challenges that: (a) are helpful to NASA managers and contain 
        practical recommendations for improvement; (b) provide 
        substantive information to Congress in its oversight role; and 
        (c) ensure transparency and accountability to the public about 
        how NASA's budget is being spent.

        2. Establish a professional and cooperative working 
        relationship between OIG managers/employees and agency 
        managers/employees.

        3. Ensure the integrity of NASA programs and the proper use of 
        Federal funds through criminal and administrative 
        investigations of allegations of waste, fraud, abuse, or 
        mismanagement.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: N/A.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: N/A.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: N/A.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: N/A.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage., defeat, or modification of any legislation or affecting the 
administration and. execution of law or public policy.
    In my role as legislative liaison for both the Department of 
Justice Office of the Inspector General (and previously the U.S. 
Sentencing Commission), I have frequently interacted with Congressional 
staff to provide input on proposed directives that affect the 
activities of the OIG. In addition, I interact periodically with staff 
from the House and Senate Appropriations Committees regarding the OIG's 
budget.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I know of no potential conflicts of interest. Nevertheless, any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
designated agency ethics official and that has been provided to this 
Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I am a defendant (in my individual capacity and in my capacity as 
treasurer of daughter's former soccer team) in a dispute between my 
daughter's former soccer team and the team's former paid soccer coach. 
The amount in dispute is between $400-$850 and the matter is currently 
in negotiations between an attorney for the team and an attorney for 
the coach. The civil action was filed in June 2009 in the District 
Court of Maryland for Montgomery County.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are yon appear and test before any duly constituted committee of 
the Congress on such occasions as you may be reasonably requested to do 
so? Yes.
                                 ______
                                 
                        resume of paul k. martin
Professional Experience
    Office of the Inspector General, U.S. Department of Justice, 
Washington, D.C., Deputy Inspector General--June 2003 to Present.

        Assists the Inspector General in managing all aspects of 415-
        employee agency with $74 million annual budget and nationwide 
        audit and investigations field office structure; reviews and 
        edits major agency products, including sensitive and highly 
        classified reviews of Department of Justice programs; developed 
        agency's 5-year strategic plan; reviewing official for agency's 
        eight senior executive/senior level managers; primary agency 
        liaison to Congress.

    Counselor to the Inspector General--December 2001 to June 2003.

        Served as senior advisor to the Inspector General on matters of 
        management and policy; conducted and oversaw special projects 
        of a sensitive and high-profile nature; reviewed and edited 
        major agency work products; drafted congressional testimony; 
        served as agency's legislative and media liaison.

    Special Counsel to the Inspector General--March 1998 to December 
2001.

        As part of four-person Front Office management team, 
        participated in legal and policy decisions on agency work 
        products and investigations; edited major agency work products, 
        including Special Investigative Reports; drafted congressional 
        testimony; served as agency's legislative and media liaison.

    United States Sentencing Commission, Washington, D.C., Deputy Staff 
Director--January 1997 to March 1998.

        Served as second-ranking staff member of independent Judicial 
        Branch agency; responsible for day-to-day management of $9.24 
        million agency with 100 employees; primary editor of agency 
        publications, including special reports to Congress; speaker on 
        Federal sentencing guidelines at national conferences.

    Communications Director--April 1987 to January 1991.

        Managed the Commission's publications and communications unit; 
        coordinated drafting and editing of Commission documents, 
        including agency's annual report; served as agency public 
        information officer; drafted congressional testimony; member of 
        training team that provided guideline application assistance to 
        judges, assistant U.S. attorneys, Federal defenders, and 
        private defense attorneys.

    Special Assistant to the Staff Director--November 1985 to April 
1987.

        As one of three original Commission staff members, helped 
        develop initial set of Federal sentencing guidelines; served on 
        Commission's guideline training team that taught guideline 
        application to judges, prosecutors, defense attorneys, and 
        probation officers.

    The Greenville News, Greenville, SC, Special Assignment/
Investigative Reporter; Court Reporter; Police Reporter--November 1982 
to November 1985.

        Highlight: 7-month investigation revealing illegal steroid 
        distribution to student athletes at Clemson University.
Education
    Georgetown University Law Center, Washington, D.C.
    Juris Doctor--December 1990
    Admitted to the Bar in Virginia and the District of Columbia

    The Pennsylvania State University, State College, PA
    Bachelor of Arts, Journalism--May 1982

    The Chairman. Thank you.
    There are two of us and we will--I would like to start with 
you, Dr. Robinson. A lot of NASA is in Texas, but I still think 
it's generally fair to say that NASA has been given a lot of 
scrutiny over really a decade or more. Part of it may be based 
upon memories of 1962, and nothing can ever match that. Others 
are more severe in their questioning. Where this is leading us 
is where we should be spending our money.
    So with that gentle opening, you can conclude that I don't 
think that NASA has a particularly good, from my point of view, 
track record when it comes to financial management, which is 
what you're going to fix. If the agency were failing a 
financial audit, I would, of course, highlight that. But the 
fact of the matter is that NASA can't even prepare its 
financial statements to allow auditors to do their job. As a 
result, I want to know what steps you intend to take to remedy 
this situation. And just pointing out, because Ernst & Young is 
a very well-known accounting firm. They literally couldn't put 
together an audit, because what they were looking at in the 
budget process in NASA wasn't something they could work with, 
and that is their job.
    So, my question is, how are we going to fix this?
    Dr. Robinson. This is a very important challenge that faces 
NASA, and it has been going on for a number of years, as you 
have noted. The GAO has done a number of reports. Previous IGs 
have done reports as well, and Mr. Martin I think will continue 
that great tradition.
    There are significant challenges. There are a number of 
root causes, and this is definitely tops; this is my top 
priority, if confirmed at NASA, trying to uncover the root 
causes, trying to put in place mechanisms that will improve and 
lead to success, successful financial performance and database 
and a clean audit eventually.
    It's very important to any organization, much less a 
government organization like NASA, to have confidence in its 
financial transactions, to gain support from the public and 
others.
    The good news is that in my meetings with the Administrator 
and the Deputy they fully understand the challenge that NASA 
faces and are very committed to steps going forward to fix 
those. Also, in my briefings on what NASA has done already, 
they've taken a number of very good steps that have already 
produced some improvements in the data integrity as far as I 
can tell from afar, and they are poised to continue that.
    So, my job getting there will be to accelerate--to continue 
this improvement and to accelerate it if possible. I take it 
very seriously. This is a very important challenge for the 
agency.
    The Chairman. Agreed, and I'm glad that they have taken 
these steps. I mean, you're a professional. Good grief, if 
you're number two at OMB you're better than anybody in town 
except I guess the guy who runs OMB. You need to have some 
sense of what you want to do about this, other than saying that 
you are intending to do it and others have taken steps toward 
doing this or are committed to doing this. There has to be a 
harder edge, I think, to your answer.
    Dr. Robinson. I'm not in the position yet, so I do not know 
all of the details. From afar, GAO and the IG have pointed to 
issues of data integrity, making sure that as the program--as 
programs execute their financial transactions and record them, 
that errors are immediately noted. NASA just last year put in a 
continuous monitoring program where every night they go through 
and try to detect anomalies. That's new for the agency. Other 
agencies have done that and seen very good success from it.
    NASA has also been challenged in terms of valuing its 
property, everything from desktops to what is the current value 
of the Space Station. All those face different challenges, but 
again NASA is systematically going through and collecting the 
data on which you would do that.
    NASA about 5 or 6 years ago went through a major 
reorganization of its financial system. NASA is one of the few 
agencies that actually has a central headquarters, but has ten 
major centers that are operated by, except for one, by Federal 
civilians. So that means that the financial systems at those 
centers have to be integrated with the central system. Most are 
just not as diffuse as NASA is.
    So trying to get everybody onto the same system was a very 
big task, and when NASA undertook it, it didn't go well for a 
while. Things as far as I can tell are getting much, much 
better, and it'll take sort of a laser-eye focus now on each of 
those reports, each of the kinds of data that are going into 
it, to make sure that people in these far-flung enterprises who 
are doing their best are understanding what they're supposed to 
be doing with the financial system.
    So there are no magic bullets to solving these kinds of 
problems, where you have a new financial system, lots of people 
trying to fit projects that are not normal projects--they 
aren't building widgets; they're building very specialized 
pieces of equipment--into systems where they have to figure out 
how to allocate costs.
    I don't want to sound like I'm just saying, oh, it's just 
going to take time. But it will take a lot of effort, and NASA 
is putting that effort forward. We just need to make sure that 
that continues.
    The Chairman. Thank you. I'll have more to ask later.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    Thanks to each of you for submitting yourself to public 
service. I want to first say, Dr. Gallagher, I too, am the 
father of three sons. They are much younger. You and your wife 
give me hope. So thank you. Again, thanks to everyone for 
submitting yourself to public service. I know the sacrifices 
that you're making to do so.
    I want to first talk about NASA, if I can. Being a Senator 
from Florida, NASA is extremely important to Florida. It's 
extremely important to this country. Florida is literally the 
place where America has reached for the stars, and the 
program's viability, its continued viability, and the necessity 
in my mind that NASA and this country continue to explore 
manned space travel and not let this precious resource of the 
human capital of our scientists go to waste.
    I'm very concerned--and this is a little bit outside your 
ambit, but I want to make sure that you know of my concern--
that we are going to lapse in our scientists, that they are not 
going to have something meaningful to work on for a number of 
years, if we do not get to the mission of human space travel.
    We have these wonderful literally rocket scientists who 
have made their life in Florida, and if there is not something 
for them to work on they're going to be dispersed. The cost of 
bringing them back together or finding new ones if we don't get 
to the business of the Orion project and others is going to be 
immense to the country and to Florida. So I wanted to make that 
point.
    But I want to ask my first question to Dr. Robinson. As the 
Chairman has indicated, there have been irregularities at NASA, 
and you are going into a very difficult and challenging job. It 
seems to me there are two components of it. There's one, 
there's the financial accounting side, the audited financials, 
if you will. The other is just making sure, as you said, that 
there is an effective and efficient administration, that we're 
getting 100 cents worth of every dollar.
    I want you to speak to what your vision is for that type of 
management, what metrics that you might impose to make sure 
that we are managing well the dollars that we are spending at 
NASA. I'm a big believer if you cannot measure it, you cannot 
manage it. So, I'd like for you to talk about that for a 
minute, and then I have a question for Dr. Martin--or Mr. 
Martin, rather.
    Dr. Robinson. Well, two thoughts on your question. One is 
that, as all agencies are, NASA is developing a new strategic 
plan. It's that part of the cycle where a new one is due. In 
that, I know they are developing goals and then the objectives 
and metrics will follow. I think that the CFO's office plays an 
important role in developing those metrics, especially if 
they're related to financial and project and budgetary 
performance.
    In terms of the areas of project management, that's where 
NASA has some of the--in addition to the financial management, 
there's concern about NASA's ability to manage projects to cost 
and schedule. NASA has recently put new checks in place to 
allow projects to go forward. In particular, they've added cost 
and scheduling requirements at each of those that are much more 
rigorous. They intend to match those, the development of those 
projects, against those original cost and schedule estimates.
    I think that will be very important to watch as we go 
forward, but whether the new system, whether the new 
checkpoints and the rigor in that data, then matches 
performance. If not, we're going to have to work on that very 
quickly because an agency that can't manage its project 
portfolio, or at least appears to have that, again that's 
another place that erodes confidence. NASA's workforce is too 
good for that. Like you said, NASA's workforce is one of the 
best in the Nation and they all want to succeed. That is their 
driving thought every day. So we have to make sure that the 
systems, financial and project management and others, let them 
do that.
    Senator LeMieux. Thank you.
    Mr. Martin, you have an equally difficult challenge ahead 
of you, an important challenge. I looked at your background and 
your extensive service working in inspector general-type roles, 
in those roles in fact with the Department of Justice and, like 
you said, with the Sentencing Commission. It seems to me in the 
IG role there are sort of two functions. There's process--it's 
knowing the IG procedure and the techniques, and you obviously 
are very expert in that--and then there is the substance of 
what you are being an inspector general over. This is truly 
different than lawyers and crime fighters, which is what you 
work with now. This is, as I said before, rocket science and 
all those difficult, complex issues that are different than 
your prior experience.
    So I would like for you to speak, if you would, how you 
think you'll be able to adapt and use your skills that you've 
developed at the Department of Justice and your other previous 
roles to this new subject matter.
    Mr. Martin. Thank you, Senator. Again, as you indicated and 
I have remarked on in my opening remarks, I've had 11 years 
experience in the Inspector General's Office at the Department 
of Justice, one of the, I think, premier Inspector General's 
offices. While that is a 122,000-person agency and primarily a 
law enforcement focus, we still have a lot of the same issues 
and concerns that any Federal agency does: contract oversight, 
contract fraud, going in and looking at whether or not the 
taxpayers are truly getting what they are paying for, for be it 
a Space Shuttle or be it a smaller dollar program.
    Also, obviously, I would rely on the current workforce in 
the Inspector General's Office, who do have deep roots and are 
long-time Inspector General employees in NASA and have that 
background in science and NASA programs. If we didn't have the 
expertise in the Inspector General's shop, we would hire it.
    Senator LeMieux. That's all I have, Mr. Chairman. Thank 
you.
    Thank you, everyone.
    The Chairman. Thank you. And again, welcome to at least my 
first meeting with you here at the Commerce Committee.
    Senator LeMieux. It's an intimate setting today.
    The Chairman. Yes, it is.
    Senator LeMieux. Thank you, Mr. Chairman.
    The Chairman. Do you have any family members you'd like to 
introduce?
    [Laughter.]
    Senator LeMieux. Not at this time.
    The Chairman. Not at this time, OK.
    I feel badly about poor Mr. Gallagher, Dr. Gallagher. 
Nobody's asked him anything. It's interesting to me that you 
made the statement that NIST--or maybe one of us made the 
statement--that NIST has been a little bit in the background. 
Now you're so much in the foreground it's almost like you're an 
adjunct of the White House.
    That is because of two things. One of those is 
``cybersecurity'' and the other is something called ``climate 
change,'' both of which this committee are intimately involved 
with. So, I'd like to ask you about that. First of all, when I 
just say ``cybersecurity'' and ``NIST,'' what goes through your 
head?
    Dr. Gallagher. Well, thank you, Mr. Chairman. As you know, 
NIST has 30 years of experience sort of working in 
cybersecurity, and I think what that has meant to the agency 
has evolved just as the technology has evolved over that 
period.
    The Chairman. What did it mean before the computer?
    Dr. Gallagher. Well, I think originally we tended to look 
at computers as stand-alone devices, and the idea was that you 
could design them secure, make sure that you had built it the 
way you designed it, and then you would be done. I think 
there's no question that that's not the environment we're in 
today.
    There simply will be vulnerabilities in systems, and as we 
interconnect these systems and they talk to each other and 
you're starting now to deal with a worldwide computing system, 
it becomes now a very different type of environment to work in.
    For me, the activities at NIST, what goes through my mind 
when we talked about cybersecurity is the fact that NIST has a 
special role. There are many agencies that will work in the 
realm of securing the Nation's information network, but NIST 
has a special role for two reasons. One is that as part of the 
Department of Commerce we are interested not only in just 
securing, locking down, a system, but also in the use of that 
system.
    Fort Knox is probably a very secure bank, but it may not be 
a particularly useful one to use. So we're very interested in 
making sure and working with service providers, software 
developers, and everybody involved in this enterprise to 
develop a system of standards, of protocols, where this system 
is also useful.
    The other reason I think it has been very important for 
NIST is that we have a deep technical capability. We have 
primary responsibility for developing the standards that the 
civilian side, the non-national security agencies, use to 
protect Federal computer systems. That has led over 30 years to 
a very effective and very well-known capability at NIST in 
cryptography, in cybersecurity, in surety testing for software 
systems and platforms.
    I think when you bring together that capability and that 
particular viewpoint of working as a non-regulatory agency to 
support this enterprise in a secure way, it makes us a very 
essential player in this.
    The Chairman. Let me hone in a little bit more. Both 
Presidents--the second President Bush's Director of National 
Intelligence and then a couple years later President Obama's 
Director of National Intelligence, in what they call, ``a world 
threats hearing,'' which is held once a year, both of them said 
that the number one threat to this country's national security 
is cybersecurity.
    So that lifts it above dirty bombs and everything else. We 
all know that a 14-year-old youngster in Indonesia can sit down 
at his computer--he's got to have a pretty good ticker 
upstairs--and can do whatever he wants. He can shut down 
sections of grids, he can shut down hospitals, he can select 
targets at random around the world, and nobody will ever know.
    It is an utterly terrifying and utterly realistic 
proposition. In other words, it's bound to happen in a big way 
in our country.
    Now, to me this takes cybersecurity something from a matter 
that we need to be concerned about to a major, major focus of 
government attention. All of this should come with the 
understanding that as we are building our firewalls to better 
protect our Federal and other systems, others are increasing 
theirs. And then we try to increase ours. And since we're 
likely to be a major target, perhaps more than al Qaeda, for 
example, more sort of devastating, obvious attack, these subtle 
attacks are what can destroy the psyche of America, of middle 
America, all America, faster than anything else in the world, 
because we're defenseless against it.
    So you sit on something, not alone, as do we, which we 
ought to be talking about almost literally nonstop, having 
hearing after hearing after hearing after hearing. I would 
assume that that's what's taking place at NIST, that you have a 
lot of very smart people who are very, very scared about what 
is going on in the world, are not sure how to handle it, and 
are working as fast as possible to do--and then I want you to 
lay out three or four or five things for me.
    Dr. Gallagher. I think you've just given a beautiful 
summary of the situation. It is frightening. Anyone who has 
heard one of these threat assessments cannot help but be very 
sobered by the threat environment that our computer systems are 
in. And it's evolving and growing every day.
    I also think you touched on something that points to your 
first question, which is why NIST is suddenly in the limelight. 
One of the reasons these threats are so scary is that we are so 
dependent on this technology now. This infrastructure now has 
become literally embedded into our economy, into our national 
security, into how we move not only goods, but how we take care 
of people, how we move electricity, how we move supplies around 
the country.
    So, our dependency on this technology is now profound, and 
therefore, a vulnerability in that infrastructure becomes a 
very profound vulnerability. In some ways it's a side effect of 
our success. These same tools that are so powerful--we look at 
smart grid technologies as a way of enabling new functionality 
in the way we move electricity, which are essential if we're 
going to have widespread renewable energy. But the same 
technology we have to do that can increase our vulnerability 
because it's based on information technology.
    Our computer security experts do worry about this. This is 
not going to be solved by NIST alone. One way we're doing this 
is--as you know, the White House has been very active in this 
since the conclusion of the 60-day cyber review. Congress is 
very interested in this and there's a lot of legislation being 
looked at that we're very interested in.
    One of the things I think that's most essential is that we 
have a number of different agencies involved in this area. We 
need to make sure that they fit together and work very 
effectively together, because we actually need each other and 
we don't want to overlap unnecessarily.
    So one of the things that I've been doing as Deputy 
Director is fostering close interaction, particularly with DHS 
and NSA, in coordination with the NIST cybersecurity effort, 
both at the working level and at the leadership level, so that 
we can coordinate very closely on this work. That's only a 
starting point. This is a big task.
    I think one of the things that, if confirmed, I'd really 
like to focus on is improving our ability to assess and measure 
this threat environment. We know of attacks and we try to look 
at specific vulnerabilities and put patches and fixes to them 
and address standards that can reduce our vulnerability, but we 
have a very difficult time measuring the risk that our systems 
are in or measuring the security of the performance of these 
systems after they've been--and you manage what you measure, 
and I think if NIST can help support an effective way of 
assessing security performance and assessing the risk 
environment of these systems, we will really enable Federal IT 
managers to do a much better job.
    The Chairman. Good luck on that. The agencies that you've 
picked out, NSA and the Department of Homeland Security, to be 
honest, are two of the toughest nuts to crack in the raw world 
of intelligence. NSA, if you can get them to share anything 
you've really done well.
    Now, the leaders are all there for you, but down to where 
the sharing has to take place old habits prevail. It's a little 
bit like the CIA, which loves to surveil, and the FBI, which 
carries around yellow pads so they can arrest. Now they're 
told, the FBI is told, to be an intelligence agency and it's a 
very, very hard business to change people from arresting to 
surveiling.
    So I'm really interested. I don't mean to push the point 
too far, but this cooperation is going to have to be a whole 
new kind of cooperation in government. Senator Snowe, who sits 
right there, and I have put in a bill on this, and others have 
too, and I know the President is tremendously concerned about 
it.
    But this is something which is constantly imminent. Your 
other big subject is climate change. But to be quite frank 
about it, in the short term it's much less of a threat than 
cybersecurity. Cyber security is potentially next week, 
tomorrow, a year from now. Climate change is not. For the long 
term, if we don't do climate change fixing then none of the 
rest will make any difference.
    But I really hope that you will drill on that. If NIST is 
in a certain place in the pecking order, don't accept that. 
Play rough. Be aggressive, not just within your agency, but 
across the government, because everybody is so overwhelmed with 
working problems and your bureaucracy that it takes sometimes a 
relatively small agency, just like the Department of Energy in 
the whole question of weapons of mass destruction, on certain 
critical parts of that, had by far the best intelligence, even 
though they had a tiny little intelligence unit. But they were 
accurate, they were right, and others were wrong.
    So I think NIST has an extraordinary opportunity on the 
cybersecurity business. I just wanted to say that.
    Mr. Martin, I wanted to ask you two questions and then I 
think we need to wrap up, although I have a lot more. I'm sorry 
to be on the criticism edge of all of this, but when you're 
sizing somebody up for putting them into a position you need to 
ask hard questions.
    NASA, I've already done the budget part. But the budget is 
larger than just the budget, the problem. It's the combination 
of the budget and seemingly endless projects which NASA wants 
to undertake, this kind of ambition which is fostered all the 
way from 1962 forward, which is, from at least my point of 
view, trying to do too much. Now, you can disagree with that.
    I think tough economic times are going to require NASA, 
along with everybody else, to have to pull back. It's nice that 
the stock market went over 10,000 the other day, but it doesn't 
have anything to do with the general perception of the health 
of the economy and the well-being of our future yet. It 
hopefully will before too long.
    But NASA is going to have to accomplish what it really 
needs to with limited resources. So then comes the question of 
what does the IG do with something which most people hear and 
then sort of brush to the side as being, well, they couldn't 
think of anything else to say, waste, fraud, and abuse. There 
are a lot of seniors all around America who are terrified today 
because they think because the Senate Finance Committee has 
said there'll be a $500 billion cut in Medicare, that they're 
going to have their benefits cut.
    They will not. It's not going to happen. But there is 
within the health care system that affects or deals with 
Medicare--there are providers, hospitals, and all the rest of 
it--there is that kind of waste, fraud, and abuse that reaches 
that level. If you cut that $500 billion out, then seniors will 
stop worrying. I'm just making that as a comparison.
    It is real in Medicare. It is real, I would choose to 
believe--and you had some taste of that with the Augustine 
review: You need an additional $3 billion to do meaningful 
human space exploration; however, can you do that? Are you 
really in a position to do that?
    I think this is where an IG along with the person who runs 
the finances really comes in. The NASA Office of Inspector 
General has not in this Senator's view been overwhelmingly 
effective over the years. For example, the GAO found that NASA 
OIG recovers less than 40 cents for every budget dollar it 
receives. Well, so what? So what? It's not just a matter of how 
much you recover.
    Well, it does mean something. This is far below the Federal 
average of over nine dollars that other agency IGs as a rule 
recover. So how do you intend from that measurement to increase 
NASA productivity from the IG's office?
    Mr. Martin. Thank you, Mr. Chairman. It's going to be a 
challenge. This is an agency, an incredibly important agency, 
NASA, and they need an effective and aggressive Inspector 
General's Office. I think the first thing you need to do as an 
effective Inspector General's Office is choose the important 
projects, look at the important contracts, and dig deep in the 
important programs. They tend to be the high-dollar programs.
    As you know, Mr. Chairman, it's an $18 billion plus-a-year 
agency. A lot of that is in contract dollars. So, what I would 
hope to do, if confirmed, is to assess the auditors and assess 
the investigators we have within the Inspector General's 
Office. If we need to reprioritize or reposition people, we 
will do that; but to go after the important issues and the 
high-dollar issues.
    The Chairman. OK. I can't challenge your answer. I mean, 
you're committed to it and I believe you. I think it's going to 
be hard. But then again, you know, I think it will be a lot 
harder with the $500 billion in Medicare. But I believe you and 
I'm for you.
    An interesting statement was made earlier and I should have 
said it while the Senator was still here. I think we're past 
the point in this country when we can say because people are in 
an area and are trained to do a certain kind of job, that that 
job necessarily has to exist, that agency has to continue to 
exist, because people are available to work in it. That's not 
an inhuman thing to say. From a government point of view, with 
limited dollars, with everything being ratcheted back, it's a 
necessary thing to say.
    Now, that can be disagreed with from a humane point of 
view. But from running an efficient government, it can't be 
disagreed with. So that's the whole question of the role that 
both of you will play very strongly in terms of being efficient 
with what you have, not trying to overreach. Constituencies in 
the world of NASA are very ambitious for NASA. You know, this 
pay a million dollars and travel to the moon type of thing. I 
hear that and I just go blooey. I don't know how to react.
    But there are a lot of things like that that go on in the 
world of space. Some of them are strongly in America's national 
interest. Some of them may not be. I think that the two of you 
together will be the ones who help decide which are which.
    This is a little bit of a negative way to end a hearing and 
I apologize for that, but I don't really, because this is 
incredibly important stuff. You're talking about cybersecurity 
and you're talking about reaching out into space and how long 
can you continue to do this, this project, that project, 
whatever. It's all very important, which is why you are 
courageous to take on the work that you do, and why I will 
support all of you.
    Thank you very much. Thanks to your families. Thanks to the 
watching audiences that have admired you from across the world.
    I don't know about you, Dr. Gallagher. Did you have anybody 
watching you on television? Yes, your colleagues.
    Dr. Gallagher. My colleagues.
    The Chairman. I bet they were all nervous.
    Dr. Gallagher. And my parents back in Albuquerque.
    The Chairman. All right. Well, that's good then.
    So on that good note, this hearing is adjourned.
    [Whereupon, at 4:26 p.m., the hearing was adjourned.]
                            A P P E N D I X

                Prepared Statement of Hon. Jane Harman, 
           U.S. Representative from California, 36th District
    I'm honored to introduce this Committee to Erroll Southers, 
nominated to serve as Assistant Secretary for the Transportation 
Security Administration, and to welcome him back into the Federal 
Government. But this opportunity is bittersweet. Erroll Southers was 
one of the best-kept secrets in the homeland security community, and 
many of us in Los Angeles might have preferred to keep him for 
ourselves.
    Mr. Southers has a record of service as a security officer that 
spans three decades. He's worked as a police officer, an FBI Agent, a 
state-level homeland security administrator, and most recently as Chief 
of Counterterrorism and Intelligence for the world's largest airport 
police force. Clearly he is a skilled and experienced practitioner. But 
that's only half the story.
    Mr. Southers brings a formidable intellectual component to his work 
as well. In his role at the University of Southern California's Center 
for Risk and Economic Analysis of Terrorist Events or CREATE, he has 
sought to challenge and advance the thinking of the international 
counterterrorism community.
    And Mr. Southers' abilities as a do-er have yielded impressive 
results in his nearly 3 years at Los Angeles World Airports (LAWA). 
Always one to make decisions based on fact and a thorough assessment of 
risk, Chief Southers has proven critical in the transformation of the 
LAWA Police Department into one of the best trained, most professional 
and adaptable airport police departments in the world. Moreover, he 
oversaw the implementation of several cutting-edge pilot programs, 
including a randomized vehicle screening system designed to detect and 
deter IEDs.
    To paraphrase Southers himself, LAX has been transformed from the 
top airport terrorist target in the country into an operational think 
tank capable of defending itself. It is precisely his ability to blend 
theory and practice that makes Mr. Southers a superb choice to oversee 
the Transportation Security Administration. It is a complex and vital 
Federal agency that is often in the public spotlight.
    At LAX, Southers' challenge was to allow business and travel to 
continue undisturbed by fear of disruption, either from terrorist 
attack or onerous security operations. Paradoxically, the better a job 
he did, the less noticeable his efforts were. Hopefully, TSA will 
follow the same path under his leadership--it will make the traveling 
public secure while making its footprint less disruptive.
    As I run through airports, I always take a moment and thank TSA 
workers for their service. Mr. Southers takes the reigns of a dedicated 
agency, and deserves prompt confirmation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Elizabeth Robinson
    Question 1. You note in your remarks to the Committee that NASA has 
already taken steps to improve its financial statements. Given that 
outside firms are incapable of even auditing NASA's statements, the 
Agency's efforts to date appear to be completely inadequate.
    What specific steps will you take as Chief Financial Officer to fix 
this problem? While I have been told that NASA has been working hard to 
address this problem, it can and must do better. In order to address 
several underlying problems in financial data integrity, it is my 
understanding that NASA employed a new approach in Fiscal Year 2008, 
including implementation of a Continuous Monitoring Program (CMP). GAO 
and others have agreed that the implementation of these new processes 
and policies have improved NASA's ability to meet financial reporting 
and internal control standards required for a clean audit. NASA has 
also reported that due to a recently adopted Federal accounting rule 
change, it may soon resolve its long-standing property audit issue 
related to proving the historical accounting book values used for the 
Space Shuttle and International Space Station.
    Answer. If confirmed, I would continue NASA's efforts to institute 
CMP and other programs, with adjustments as necessary to achieve the 
objective. In addition, I would thoroughly investigate--and implement 
corrective actions--for any other problems that may threaten the 
completeness and integrity of NASA's financial system and data.

    Question 1a. Will you commit to this committee that NASA's 
financial statements will be auditable?
    Answer. Yes; that is our mutual goal.

    Question 1b. Will NASA's financial management system under your 
leadership generate timely, accurate, and useful financial information 
for outside review?
    Answer. Yes; that is our mutual goal.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                           Elizabeth Robinson
    Question 1. As you undertake this position, and from the 
perspective of your previous positions at the Office of Management and 
Budget and the Congressional Budget Office, what are the most 
significant financial management issues facing NASA, and what ideas and 
experience do you intend to bring to bear to meet them?
    Answer. NASA has been unable to obtain a clean financial audit for 
several years. While the agency has been working hard to address this 
problem, it can do better and I will not simply trust but verify its 
actions. If confirmed, one of my first priorities will be to review 
existing activities to address this serious challenge and develop new 
specific actions where required.
    My experience at OMB provides a unique perspective, as I was the 
senior career official overseeing the development of the president's 
budget and its implementation, including budgetary execution. As part 
of that role, I was in charge of revisions to Circular A-11 and led 
collaborative efforts with Treasury to improve government-wide 
collection of budgetary and accounting data. At CBO, I was the agency's 
representative to the Federal Accounting Standards Advisory Board and 
participated in the development of new and revised Federal accounting 
procedures and requirements. Both experiences will serve me well, if 
confirmed, as NASA's CFO.

    Question 2. Do you anticipate, at this stage, any specific 
procedural or institutional changes in NASA's financial analysis or 
management processes or procedures? (If so, what might they be?)
    Answer. In order to address the underlying problems preventing the 
Agency from regularly obtaining a clean audit opinion, it is my 
understanding that NASA took a new approach in Fiscal Year 2008 to 
resolve weaknesses and improve financial reporting. The implementation 
of these changes are reported to have improved NASA's ability to meet 
financial reporting and internal control standards. NASA has also 
reported that, due to a recently adopted Federal accounting rule 
change, it is closing in on resolving its long-standing property audit 
issue related to proving the historical accounting book values used for 
the Space Shuttle and International Space Station. Assuring that NASA 
focuses on these issues will be my top priority if confirmed.

    Question 3. Do you agree that the President and the Congress have a 
shared role and responsibility in establishing the Nation's policy 
goals in civil space? If so, once those policy goals are established, 
is it then the role of functions such as the Office of Management and 
Budget, in the White House, and the Chief Financial Officer at NASA, to 
reflect and adhere to those policy decisions and work to ensure they 
are properly funded and effectively implemented?
    Answer. Yes.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                              Paul Martin
    Question 1. To what extent are you aware of the issues and concerns 
that have been raised regarding the Management of the NASA Office of 
Inspector General over the past several years?
    Answer. I have no first-hand knowledge and therefore cannot speak 
to the specific issues that transpired during the tenure of the 
previous NASA Inspector General. However, I am aware of concerns raised 
about low staff morale in the Inspector General's Office as well as 
congressional concerns that the former IG lacked the appropriate degree 
of independence.

    Question 1a. What steps do you intend to take, if confirmed, to 
address those concerns?
    Answer. If confirmed, I would bring to NASA 11 years experience 
helping manage a large and successful Office of Inspector General. Our 
management philosophy at the Department of Justice OIG is simple--we 
treat all employees professionally and with respect. We work hard, we 
work as a team, and we produce high-quality products. If confirmed, I 
would hope to instill the same philosophy and work ethic at the NASA 
OIG.
    In addition, I am confident after one meeting with Administrator 
Bolden and Deputy Administrator Garver that they understand and 
appreciate the independent role played by the Office of Inspector 
General.

    Question 2. What is your view of the appropriate working 
relationship between the Office of the Inspector General and the NASA 
Administrator? Between the Office of the Inspector General and the NASA 
General Counsel office?
    Answer. I believe the proper relationship between the NASA OIG and 
the NASA Administrator is one of open communication and coordination, 
but founded on a clear understanding of the differing roles and 
responsibilities of each office. The NASA Administrator decides the 
agency's policy and operational direction; the OIG is not part of NASA 
management, but rather is charged with overseeing the effectiveness of 
NASA programs and investigating allegations of criminal and 
administrative misconduct against NASA personnel, and reporting its 
findings both to the Administrator and Congress.
    Similarly, I would envision open communication between the OIG and 
NASA's Office of General Counsel. However, because the OIG has its own 
General Counsel, the OIG would rely on its in-house counsel for legal 
advice as it relates to OIG operations.

    Question 3. How and where would you draw the line between the 
appropriate level of consultation with senior NASA leadership and the 
maintenance of independence and objectivity in the conduct of your 
duties and Inspector General?
    Answer. I believe it proper and helpful for the OIG to consult with 
agency leadership to inquire about what areas of agency operations they 
believe would most benefit from an OIG review. That said, the OIG would 
independently decide which audits, inspections, investigations, and 
review to initiate and how to conduct these reviews.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Erroll G. Southers
    Question 1. The GAO recently reported that TSA has, until recently, 
suffered from an attrition rate for senior-level staff at a rate higher 
than all other cabinet-level departments. What would you do 
differently? If confirmed, what steps will you take to ensure that TSA 
recruits only highly qualified people to fill Transportation Security 
Executive Service positions?
    Answer. Investing in the TSA workforce is one of my top priorities 
for the agency. It has been my experience that when an organization 
invests in its people, they invest in the organization and everyone 
benefits. In my experience, education incentives, professional 
development, and leadership development have been key not only to 
attracting but also to retaining a quality work force. If confirmed, I 
look forward to using these tools to recruit and develop tomorrow's 
leaders within TSA.

    Question 2. The Visible Intermodal Prevention and Response (VIPR) 
program works with local law enforcement to serve as a deterrent to 
potential terrorist attacks. However, a recent GAO report found that 
some VIPR teams do not have sufficient training or enough radios and 
other communication equipment to coordinate effectively with local law 
and surface transportation officials. If confirmed, what will you do to 
make sure that TSA provides sufficient training and resources so that 
VIPR teams can help protect our transportation networks?
    Answer. My current experience with VIPR teams at Los Angeles 
International Airport has been positive, as TSA has gone to great 
lengths to include local teams and work with them on deployment based 
on risk. I believe VIPR teams enhance TSA's ability to leverage 
resources quickly to increase visible security in any mode of 
transportation anywhere in the country. As a former law enforcement 
academy instructor, I understand the importance of providing the proper 
training so that officers can fulfill their duties and execute their 
mission. I recognize the importance of continuing to provide training 
and resources to all TSA employees, including VIPR teams.
    It is essential to integrate local law enforcement into the 
deployment VIPR teams. If confirmed, I will work with these key 
stakeholders to ensure that VIPR teams are helping to make our 
transportation systems the best in the world.

    Question 3. Improving the security of our mass transit and 
intercity passenger rail systems is especially critical following the 
terrorist train bombings in Mumbai, India and Madrid, Spain. The 2007 
Implementing the Recommendations of the 9/11 Commission Act included 
many provisions to better protect our Nation's mass transit and 
intercity passenger rail systems, but TSA has not met the deadline for 
many of these requirements. If confirmed, what actions will you take so 
that TSA completes all of the requirements established under the 9/11 
Act, including the comprehensive risk assessment and national security 
strategy for the rail sector?
    Answer. I understand that many of the outstanding requirements of 
the 9/11 Commission Act relate to the issuance of regulations through 
the notice and comment rulemaking process. This is a time consuming 
process that requires careful thought and consultation with all 
relevant stakeholders as the regulations are developed. I have been 
told that these rulemaking projects are underway, and that TSA 
continues to work with stakeholders on interim voluntary risk reduction 
measures.
    Additionally, the requirement to complete a comprehensive risk 
assessment for the rail sector, as required by Section 1511 of the 9/11 
Commission Act, is being incorporated into TSA's Transportation System 
Security Risk Assessment (TSSRA). When complete, the TSSRA will provide 
the context for TSA to compare railroad risks with risks in other modes 
of transportation. The national strategies, also required by the 9/11 
Commission Act, will be incorporated into the corresponding annexes of 
the upcoming update of the Transportation System Sector Security Plan 
(TSSSP). The TSSSP, a comprehensive unifying plan, will supersede 
separate interim strategies and plans for each mode of transportation. 
If confirmed, I will support this approach, to increase effectiveness 
in assessing risk and in informing and guiding mitigation efforts.

    Question 4. What do you believe is an appropriate balance between 
using a risk management framework such as DHS's National Infrastructure 
Protection Plan and intelligence reports in terms of how TSA makes 
strategic decisions on allocating resources?
    Answer. Both risk and intelligence are very important, and I 
believe that we do not need to choose between the two. In my experience 
as Assistant Chief for Homeland Security and Intelligence at Los 
Angeles World Airports Police Department, intelligence not only drives 
tactical decisions on a daily basis, it also feeds threat assessments, 
which are an important component of the risk equation. Risk management 
frameworks, such as the National Infrastructure and Protection Plan, 
improve analytic depth and efficiency of decision-making processes.

    Question 5. State and local governments operate the majority of 
mass transit systems and intercity passenger rail systems in this 
country, but securing these systems is a shared responsibility between 
Federal, state, and local partners. What would you do to improve mass 
transit agencies' and intercity passenger rail systems' contingency 
plans and their ability to handle relatively minor, as well as major 
emergencies? How would you use the tools, procedures, and training the 
TSA currently provides to transit agencies and intercity passenger rail 
systems to help them prepare to respond to and recover from 
emergencies?
    Answer. I understand that TSA partners closely with law 
enforcement, security, and emergency response professionals in order to 
achieve the important goals you asked about. This multi -faceted effort 
includes:

  <bullet> Comprehensive security assessments that evaluate the 
        effectiveness of security and emergency management plans as 
        well as coordination and integration with regional security and 
        emergency response partners;

  <bullet> Targeted grant investments, driven by these assessments, 
        that address security vulnerabilities and enhance capabilities 
        to prevent acts of terrorism and respond to threats, security 
        incidents, and other emergencies;

  <bullet> Cooperative outreach with the Federal Transit Administration 
        (FTA) and the Federal Emergency Management Agency (FEMA) that 
        brings mass transit and passenger rail agencies' security and 
        safety officials together to discuss specific challenges in 
        prevention, response, and recovery; share effective practices; 
        and collaborate in developing effective solutions; and

  <bullet> Training and exercise programs that integrate mass transit 
        and passenger rail agencies, local and State law enforcement 
        departments, emergency responders, and area Federal security 
        partners to expand the scope and enhance the effectiveness of 
        collaborative efforts in prevention, response, and recovery.

    If confirmed, I will look to build upon these initiatives. I am 
committed to maintaining direct communications with officials in the 
mass transit and passenger rail systems.

    Question 6. TSA continues to be ranked overall as one of the worst 
government organizations to work for. What do you see as the major 
reason for the poor morale in the agency? What impact do you think it 
is having on the agency's performance? What actions will you take to 
immediately address the issue?
    Answer. In my current position at Los Angeles International Airport 
with the Los Angeles World Airports Police Department, I have witnessed 
firsthand the commitment of the TSA work force. If confirmed, the TSA 
workforce will be a top priority. Throughout my career, I have focused 
on effectively utilizing my workforce and training and preparing them 
for new challenges. I understand TSA has enacted a series of workforce 
initiatives to reward and incentivize employees for their work, 
including full-time benefits for part-time employees, a peer review 
program, career progression opportunities, and enhanced training. In my 
experience, education incentives, professional development, and 
leadership development have been key not only to attracting but also 
retaining a quality work force. If confirmed, I look forward to using 
these tools to recruit and develop tomorrow's leaders within TSA.

    Question 7. Over the past several years Congress and the GAO have 
made recommendations and set requirements for TSA to resolve 
credentialing issues. The process has taken much longer than is 
expected and has been far more expensive than estimated. The original 
deadlines have passed and there are still problems with issuing, 
activating and reading the TWIC. What assurances can you give us that 
this long awaited program will be fully functioning in the near term? 
Stakeholders, pilot participants, and GAO have been very critical of 
the TSA's efforts to effectively conduct a Congressionally mandated 
card reader pilot project to test card reader technology in a variety 
of geographic areas with varying environmental conditions to test the 
performance of card reader technology in the harsh maritime domain. 
What steps will you take to establish consistent metrics across the 
port pilot areas and vessel participants to establish validity of the 
pilot program and reliability of the pilot's performance outcomes? Are 
you testing card reader technology that is capable of reading other 
certified Federal credentials?
    Answer. I understand that TSA is currently working with the Coast 
Guard to test TWIC reader technology in different environments across 
the country before the Coast Guard moves forward with a card reader 
rule for nationwide deployment. If confirmed I will work with the Coast 
Guard, port and industry partners, and this Committee, to deploy card 
reader technology as expeditiously as possible.

    Question 8. With the proliferation of credentialing programs within 
the Department of Homeland Security and within the Federal Government 
generally, how is TSA working to modernize their vetting process and 
better coordinate mutual recognition of government issued credentials 
that have similar background checks and disqualification standards such 
as the TWIC, SIDA and FAST credentialing programs? Is TSA taking steps 
to engage the Department of Defense to establish coordinated background 
check or mutually recognizes credential systems to facilitate 
transportation between the commercial transportation systems into DOD 
facilities?
    Answer. It is my understanding that TSA continues to harmonize many 
of its vetting and credentialing programs, both internally and with 
other government authorities, to the extent that it is permitted by 
law. If confirmed, I will work with the DHS Screening Coordination 
Office and other agencies, both within and outside of DHS, to modernize 
the use of threat assessment and credentialing programs, generate 
efficiencies, and enhance interagency cooperation.

    Question 9. TSA program managers have repeatedly raised concerns to 
GAO about the limited staff resources available to carry out essential 
program functions related to securing surface transportation modes, 
such as monitoring the implementation of security initiatives and 
evaluating the effectiveness of programs. What efforts will be made to 
ensure the effective allocation of staff resources across 
transportation modes, and what underlying principles will guide 
priorities for allocating staff resources among the various modes of 
transportation and threat scenarios?
    Answer. It is critical that we maintain a sustainable capability to 
support security enhancements in surface transportation.
    Congressional actions have enabled TSA to expand its capabilities 
in surface transportation security. Surface Transportation Security 
Inspectors conduct security assessments to identify potential 
vulnerabilities and subsequently apply the results to inform the 
development of security enhancement programs and allocations of 
resources, most notably transportation security grants. Congress 
provided the means to establish this program in FY 2005 and has 
continued to invest each year since.
    Congress has also acted to expand TSA's capabilities to augment 
security in surface modes through Visible Intermodal Prevention and 
Response (VIPR) team deployments, appropriating funds that enabled the 
present deployment of 10 standing teams in metropolitan areas around 
the Nation. I understand the FY 2010 DHS appropriations bill would 
support creation of up to 15 more standing teams.
    I believe effective deterrence is dependent upon variability, 
randomness, and unpredictability in security activities at and near 
surface transportation systems. Coupled with the capabilities of 
Federal Security Directors and Federal Air Marshal Special Agents-in-
Charge across the country, TSA can potentially expand the scope of the 
deployments described above to sustain a higher operational pace and in 
turn more effectively deter threats.

    Question 10. Intelligence demonstrates that the transportation 
network continues to be a key and attractive target for those wishing 
to harm U.S. interests and that the terrorist threat continues to 
evolve. DHS has made considerable progress in strengthening the 
security of commercial aviation since September 11, 2001, but must 
continue to adapt security measures to counter evolving threats, 
balance resources across missions, and enhance technologies to 
strengthen security. Since its creation following the events of 
September 11, 2001, TSA has focused much of its efforts and resources 
to strengthening commercial aviation security. TSA has more recently 
placed additional focus on securing surface modes of transportation, 
which includes establishing security standards and conducting 
assessments and inspections of surface transportation modes. In your 
view, what are the most significant challenges facing the department in 
its efforts to secure the Nation's aviation, passenger rail, bus, and 
mass transit system? What short-term and long-term actions need to be 
taken to strengthen the security of the Nation's transportation systems 
mentioned above?
    Answer. There are a number of challenges facing the Department 
ofHomeland Security (DHS) and the Transportation Security 
Administration (TSA) as the Department works with stakeholders and the 
public to strengthen security across all modes of transportation.
    I understand that perhaps the most significant challenge facing TSA 
in surface transportation security is uncertainty. We must continuously 
pursue efforts to expand our awareness and understanding of a dynamic 
threat environment and ensure we share accurate intelligence and 
security information with our partners--the owners and operators of 
surface transportation systems, law enforcement and security officials, 
and local, tribal and Federal Government partners--in a timely and 
effective manner. True collaboration is essential to maintaining a 
unified approach that integrates the broad range of people, 
institutions and organizations involved in surface transportation 
security and emergency management. I understand a foundation has been 
developed through joint security activities, exercises, training, and 
public awareness efforts, but more must be done.

    Question 11. Within the Nation's surface transportation system, 
what security priorities would you focus on as Assistant Secretary?
    Answer. As we have seen from attacks around the world in Madrid, 
London, Mumbai and elsewhere, transit systems and other soft targets 
have significant vulnerabilities. If confirmed, I will focus on the 
following surface transportation priorities: the reduction of risk, 
intelligence- and information-sharing, developing best practices, 
security training for frontline employees, a robust exercise program, 
focused use of new technology, and deployment of random, unpredictable 
security assets. Going forward, it will be critical that TSA and 
surface transportation providers also focus on developing resilient 
systems that can recover quickly.
    My experience with the California Office of Homeland Security and 
the Los Angeles World Airports Police Department has shown me 
coordination with all of the appropriate stakeholders, in both the 
public and private sectors, is a key element in strengthening our 
Nation's ability to prevent and recover from attacks on surface 
transportation systems.

    Question 12. What key steps would your experience suggest that the 
department and TSA might take to define and implement a strategy to 
strengthen security in these non-aviation modes?
    Answer. Based on my thirty years in law enforcement and the 
position I held with the State of California, I strongly believe that 
it is essential for TSA to work closely and increase communication with 
law enforcement personnel to share best security practices and 
innovations. The dialogue must be two-way so that there is a cross-
fertilization of ideas between TSA and state, local, tribal and 
territorial governments, and the private sector. I understand that TSA 
is implementing a transportation security Information Sharing and 
Analysis Center that will provide for the information-sharing and best 
practices. If confirmed, I look forward to implementing this and other 
innovative strategies to strengthen our transportation security 
efforts.

    Question 13. What do you believe the Department's role should be in 
ensuring the security of mass transit and passenger and freight rail 
systems, and what obstacles, if any, hinder the Department from 
successfully performing such a role?
    Answer. The Department of Homeland Security and the Transportation 
Security Administration play a leading role in identifying current 
threat scenarios and communicating them in a timely manner to affected 
security partners at private sector, Federal, State, tribal, and local 
levels. In partnership with transportation and critical infrastructure/
key resources owners and operators, we can develop and implement 
comprehensive, measurable, and effective risk-based security programs 
and ensure resiliency in our transportation networks. If confirmed, I 
will work to identify and overcome any potential obstacles to achieving 
this goal.

    Question 14. Since 9/11, there have been several terrorist attacks 
around the world on mass transit systems such as the attacks in Spain 
(2004), London (2005), Mumbai (2006), and most recently in China 
(2008). These attacks suggest that mass transit systems could be a 
target of future terrorist action. In addition, freight rail is the 
primary mode by which hazardous materials are transported throughout 
the nation, with railroads typically carrying about 1.8 million 
carloads of hazardous materials annually. These materials also serve as 
a potential target for terrorists. What changes, if any, do you 
envision making in TSA's current organizational approach for addressing 
the security needs of the surface transportation and aviation modes in 
a limited resource environment?
    Answer. If confirmed, I would like the opportunity to carefully 
study TSA's current organizational structure before determining what 
changes, if any, are necessary.
    I will certainly ensure that TSA continues collaboration with its 
security partners to reduce the vulnerability of all modes of 
transportation. As an example, I understand that collaboration with the 
Nation's freight railroads has already realized a measured risk 
reduction of nearly 74 percent associated with the transportation of 
hazardous materials through high threat urban areas since tracking 
began in 2006.

    Question 15. TSA has a number of programs assessing different 
assets within the transportation sector, such as mass transit, 
passenger rail, pipelines and highway infrastructure. Do you think TSA 
would benefit from conducting a risk assessment of the transportation 
sector as a whole?
    Answer. Yes, I believe that TSA would benefit from conducting a 
risk assessment of the entire transportation sector. I understand that 
TSA is currently in the process of conducting such an assessment in 
accordance with the Fiscal Year 2009 DHS Appropriations Act.

    Question 16. Through its ENGAGE training for Transportation 
Security Officers and its Screening of Passengers by Observation 
Techniques (SPOT) program, TSA has taken steps to expand its security 
efforts to screen for passengers with suspicious behaviors in addition 
to screening for prohibited items. What is your vision for expanding 
TSA's behavior-based programs? How will you gauge the success of this 
new security paradigm?
    Answer. If confirmed, I would like to carefully study TSA's 
behavior-based screening programs, such as ENGAGE! and SPOT, before 
determining how to expand these programs or committing to a method for 
gauging their success.

    Question 17. With the shift of grant programs to FEMA, stakeholders 
have raised concerns that TSA now lacks the ability to appropriately 
assess the benefits of Federal investment in the reduction of risk that 
such grant programs are intended to address for our transportation 
sectors. How can TSA become more involved is assessing the lessons 
learned from the allocation of grant funds through the various 
transportation security grants programs into the TSA's programmatic 
management and risk management overall?
    Answer. If confirmed, I will work closely with FEMA to ensure that 
the Transit Security Grant Program is functioning as efficiently as 
possible. I understand that TSA is already involved in assessing 
lessons learned, and I see that role expanding through, for example, 
continued and greater involvement of the Transportation Security 
Inspectors in conducting Baseline Assessment for Security Enhancement 
reviews. This should allow TSA to glean lessons learned from more grant 
recipients more frequently.

    Question 18. Recent press reports have raised questions about how 
well the TSA and the FAA vet individuals who receive airman 
certificates, which include pilot licenses, mechanic licenses, and 
everyone else who has direct access to aircraft. What is the status of 
efforts the agency is taking to address this vetting issue? What is the 
timeline for the anticipated completion of these efforts?
    Answer. I understand fully the importance of this issue, and 
recently met with FAA Acting Deputy Administrator Lynne Osmus and DHS 
Deputy Assistant Secretary for the Screening Coordination Office (SCO) 
Kathy Kraninger to learn more about it. If confirmed, I will work with 
FAA, SCO, and this Committee to ensure TSA is vetting against the 
correct lists and that FAA Airman Certificates are not issued to the 
wrong people or retained by people who should not have that privilege.

    Question 19. Is TSA taking steps to review other criminal watch 
lists housed in the government (e.g., Treasury Department) that are not 
currently being utilized by the Department of Homeland Security (DHS) 
for Airman Certificate vetting?
    Answer. I understand that the topic of vetting against other 
criminal watch lists is one of the items being discussed by a TSA/FAA 
working group. If confirmed, I will work with FAA, the Screening 
Coordination Office, you, and the Committee to make sure TSA is vetting 
against the correct lists and that FAA Airman Certificates are not 
issued to or retained by the wrong people.
    In response to your related question at the hearing, I followed up 
with TSA staff about general aviation and airman certificate vetting 
and was informed that TSA's vetting of airman certificate holders does, 
in fact, include general aviation pilots. TSA is checking all 3.9 
million FAA certificateholders daily (perpetual vetting) against the 
full Terrorist Screening Data base (TSDB), which includes the No Fly/
Selectee Lists. The 3.9 million figure includes both general aviation 
and commercial pilots, as well as mechanics, flight engineers, 
navigators, flight attendants, and others who are granted airman 
certificates.

    Question 20. Will TSA be incorporating the use of biometric 
identifiers in either Airman Certificate or watch list data bases?
    Answer. If confirmed, I will work with the Terrorist Screening 
Center and DHS Screening Coordination Office to enhance the 
effectiveness of watch list data bases. It is my understanding that TSA 
continues to harmonize many of its vetting and credentialing programs 
within DHS and with other government authorities, and I look forward to 
continuing that effort.

    Question 21. GA security has received relatively little attention 
since 9/11. There are a number of voluntary GA security guidelines, but 
few requirements are currently in place for this segment of the 
aviation industry. Would you consider developing a national strategy to 
address GA security? What concepts do you believe should be mandated to 
strengthen the GA security regime?
    Answer. Yes, I believe that General Aviation (GA) should be 
included as part of a national strategy for transportation security. I 
understand that the effort to update the Transportation Systems Sector 
Specific Plan (TSSSP) is well under way and will include an Annex on 
aviation that addresses GA. I've also been informed that DHS 
anticipates issuing the TSSSP with its accompanying modal Annexes in 
2010.
    In my current position an Assistant Chief for Homeland Security and 
Intelligence for the Los Angeles World Airports (LA WA) Police 
Department, I am responsible for security at Van Nuys Airport, one of 
the busiest general aviation airports in the country. What I have seen 
in my experience is that as we worked to harden security at LAX, there 
was concern that the risk might be pushed out to our other three 
general aviation airports. As we worked to mitigate that risk, we 
engaged and educated our stakeholders so that they were a part of our 
mission and were empowered to report suspicious activity. I believe in 
collaborative approaches like this one, and if confirmed, I am 
committed to reaching out to stakeholders, particularly those in 
general aviation community, to build on their partnership with TSA to 
ensure best practices and risk-based solutions are implemented.
    If confirmed, I look forward to working with you on strengthening 
GA security efforts.

    Question 22. In your experience with advanced screening 
technologies, such as backscatter and millimeter wave (new imagery 
technology) have you found them a useful tool? What do you believe is 
the future for such technologies?
    Answer. As someone who has worked on counterterrorism matters at 
the Federal, state, and local level for 30 years, most recently as an 
Assistant Chief for Homeland Security and Intelligence for the Los 
Angeles World Airports (LA WA) Police Department, I believe we need a 
multilayered approach that incorporates technology. Advanced imaging 
technology (AIT) helps mitigate known and evolving threats and provides 
the ability to detect metallic and non-metallic objects on travelers 
without physical contact.

    Question 23. What do you believe needs to be done to speed the 
deployment of such technology to the field?
    Answer. It is my understanding ARRA funds have been used to advance 
the deployment of new technology to airports across the country. If 
confirmed, I will work within the President's budget to maximize 
resources and deploy appropriate technology to provide the best 
security for the traveling public.

    Question 24. The requirement to rescreen all checked bags inbound 
from Canada has been expensive from both a TSA and individual air 
carrier perspective. With the Olympic games moving to Vancouver in 
2010, air traffic between our nations will increase substantially. Do 
you believe the TSA will be able to effectively address this sustained 
increase in traffic? Will TSA consider conducting a pilot program with 
the Canadian government to screen all bags with 100 percent Explosive 
Detection System (EDS) for the period covering the Olympic games.
    Answer. It is my understanding that TSA is well positioned to meet 
the challenges associated with increased travel between the United 
States and Canada during the 2010 Vancouver Olympics. If confirmed, I 
will continue to work with my Canadian counterparts to ensure a 
solution that generates efficiencies for passengers and meets both 
nations' security responsibilities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Erroll G. Southers
    Question 1. You mentioned that an accurate registered traveler 
program would help TSA to focus on higher risks. Earlier efforts 
reportedly stalled in part because TSA did not provide clear direction 
on what information was needed in order for pre-screened travelers to 
be accelerated through security. Are you committed to working with 
registered traveler programs to identify this information in order to 
facilitate a safe, sound process, while assuring that personal 
information is kept private and secure?
    Answer. If confirmed, I would like to explore a Registered Traveler 
concept further. I look forward to working with you and this Committee 
on ways to efficiently allocate our resources to bolster security, 
focus on risk, and enhance the passenger experience.

    Question 2. It is vital that general aviation is secure. However, 
many rules written for commercial aviation do not effectively apply to 
general aviation in the way they are intended, or do not take into 
account key differences between the two. When implementing safety and 
security policies for general aviation, will you work with the GA 
community to ensure that rules are effective and sound?
    Answer. Yes. As someone who has worked on counterterrorism matters 
at the Federal, state, and local level for 30 years, and most recently 
as an Assistant Chief for Homeland Security and Intelligence for the 
Los Angeles World Airports (LAWA) Police Department, I understand the 
challenges of securing both commercial and general aviation airports. 
The balance between ensuring the free flow of commerce and protecting 
our Nation's vital transportation systems is critical to TSA's mission.
    In my current position, I am responsible for security at Van Nuys 
Airport, one of the busiest general aviation airports in the country. 
What I have seen in my experience is that as we worked to harden 
security at LAX, there was concern that the risk might be pushed out to 
our other three general aviation airports. As we worked to mitigate 
that risk, we engaged and educated our stakeholders so that they were a 
part of our mission and were empowered to report suspicious activity. I 
believe in collaborative approaches like this one, and if confirmed, I 
am committed to reaching out to stakeholders, particularly those in 
general aviation community, to build on their partnership with TSA to 
ensure best practices and risk-based solutions are implemented. I look 
forward to the opportunity to work with you and the Committee on this 
issue moving forward.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Erroll G. Southers
    Question 1. Mr. Southers, as you know, there is a one-hundred 
percent screening requirement for all cargo placed on commercial 
passenger flights that goes into effect next August. In some instances, 
meeting this mandate without causing undo economic harm is going to be 
challenging.
    Let me give you an example. In Washington State, the fresh cherry 
season is very short and cherries need to be picked, packed and shipped 
within 24 hours. During the season, fresh cherries are flown from 
SeaTac to Asian markets on anywhere between eighty to one hundred 
dedicated freight aircraft flights as well as in the cargo hold of 
numerous commercial passenger flights.
    To help the cherry growers meet the current fifty percent 
inspection requirement, this summer TSA provided K-9 units to scan the 
cherries shipped on these commercial passenger flights. And I thank TSA 
for doing that. But everyone recognizes this is not a viable long term 
solution to meet my growers' need to have cherries shipped on 
commercial passenger flights and TSA's need to ensure the security of 
our skies.
    I have been told that equipment is being tested that would allow 
freight forwarders to scan full pallets and containers at airports 
before they are loaded onto planes. The availability of this technology 
would greatly improve the ability of our cherry growers to get their 
highly perishable product to Asian markets quickly and efficiently, and 
eliminate the need for dogs. Based on your experience at LAX, what is 
the status of the testing of this technology?
    Answer. I strongly support deployment of advanced technology to 
assist in meeting the air cargo screening requirements in the 9/11 
Commission Act. I understand that TSA is evaluating technologies that 
can be used for screening perishables on skid level (48 x40) material 
handling devices. I further understand that TSA intends to commence the 
laboratory evaluation of this technology before the end of CY 2009, 
operational testing is being planned at Miami and Boston facilities, 
and TSA anticipates that this technology will be added to its list of 
approved technologies in the first quarter of CY 2010.

    Question 1a. When do you believe freight forwarders be able to 
begin utilizing these scanners?
    Answer. Once approved by TSA and added to the approved products 
list, availability from the manufacturers will dictate when freight 
forwarders will be able to install and operate this equipment.

    Question 1b. If confirmed, will you consider accelerating the 
rollout of these scanners?
    Answer. I understand that TSA is expediting its schedule to fully 
evaluate this and other technologies in support of the 100 percent 
screening mandate. Once approved by TSA, the timeline for rolling out 
these scanners will be dependent on the availability of the technology 
from the manufacturers.

    Question 2. Mr. Southers, passengers flying in from Canada who have 
a connecting flight to other destinations within the U.S., have to get 
their baggage screened twice--first at the Canadian airport and then at 
the port-of-entry U.S. airport. This causes needless delays without 
necessarily increasing security. I imagine this situation occurs at LAX 
just as it does at airports in Washington State. Why do you think this 
type of baggage is being screened twice? Do you see a need for the U.S. 
and Canada to harmonize procedures and/or standardize on equipment? If 
confirmed, do you see this as an issue that you can help resolve?
    Answer. It is my understanding that Federal law requires all 
baggage arriving from foreign nations be screened by TSA prior to 
departing on a connecting domestic flight. TSA may only accept baggage 
screened in Canada if Canadian screening methods provide the same or a 
superior level of security than U.S. procedures. I understand that TSA 
and its Canadian counterparts continue to exchange information in 
furtherance of this goal. If confirmed, I will continue to work with my 
Canadian counterparts to achieve a solution that generates efficiencies 
for passengers and satisfies both nations' security responsibilities.

    Question 3. Mr. Southers, roughly seventy percent of container ship 
traffic entering the Port of Seattle and the Port of Tacoma is 
discretionary. That is, only thirty percent of the contents of these 
containers get consumed in Pacific Northwest, the remainder gets 
transported to points east.
    Washington Ports compete with Canadian ports in Vancouver and at 
Prince Rupert for discretionary container traffic. Asian shippers 
decide where to ship to, based on price and schedule. I understand that 
there is a statutory mandate to scan all U.S.-bound containers with 
non-intrusive equipment at overseas port of loading by July 2012.
    Do you know if container ships bound for Canadian ports will have 
similar scanning requirements for in-bound containers? If that is not 
the case, do you think that this difference in law will place U.S. west 
coast ports at a competitive disadvantage? Do you see a need to 
harmonize policies and practices with respect to ensuring the security 
of in-bound containers across North America?
    Answer. I understand that issues relating to in-bound maritime 
containers are the responsibility of U.S. Customs and Border Protection 
(CBP) and are not within the scope of TSA's responsibilities. If 
confirmed, I will work to coordinate with CBP to ensure DHS provides 
the answers to your questions.

    Question 4. Mr. Southers, the original Notice of Proposed Rule 
Making (NPRM) for Large Aircraft Security Program (LASP) would have 
required all U.S. operators of aircraft exceeding twelve thousand 
pounds maximum take-off weight to implement security programs that 
would be subject to compliance audits by TSA. As you know, there was 
considerable controversy regarding the proposed rulemaking within the 
general aviation community, general aviation airports, and those who 
rely on general aviation for transportation. The original LASP NPRM was 
rescinded earlier this year for revisions. In recent days, published 
reports indicate that TSA intends to issue a supplemental NPRM for LASP 
early next year. My understanding is that at LAX, you work with nearby 
general aviation airports on security matters. If confirmed, based on 
your experience, what is your general approach to risk management at 
general aviation airports?
    Answer. As someone who has worked on counterterrorism matters at 
the Federal, state, and local level for 30 years, and most recently as 
an Assistant Chief for Homeland Security and Intelligence for the Los 
Angeles World Airports (LA WA) Police Department, I understand the 
challenges of securing both commercial and general aviation airports. 
The balance between ensuring the free flow of commerce and protecting 
our Nation's vital transportation systems is critical to TSA's mission.

    Question 4a. Generally speaking, what do you think are the most 
serious vulnerabilities at general aviation airports?
    Answer. As you note, I am responsible for security at Van Nuys 
Airport, one of the busiest general aviation airports in the country. 
What I have seen in my experience is that as we worked to harden 
security at LAX, there was concern that the risk might be pushed out to 
our other three general aviation airports. As we worked to mitigate 
that risk, we engaged and educated our stakeholders so that they were a 
part of our mission and were empowered to report suspicious activity. I 
believe in collaborative approaches like this one, and if confirmed, I 
am committed to reaching out to stakeholders, particularly those in 
general aviation community, to build on their partnership with TSA to 
ensure best practices and risk-based solutions are implemented. I look 
forward to the opportunity to work with you and the Committee on this 
issue moving forward.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Erroll G. Southers
    Question 1. Our transportation security efforts have largely 
focused on aviation. As TSA Administrator, how will you protect the 
millions of Americans who travel by mass transit and passenger rail?
    Answer. If confirmed as Administrator, I will pursue advancing a 
collaborative security strategy that integrates key stakeholders from 
mass transit and passenger rail systems, local law enforcement 
departments, the emergency response community, and our state, local, 
tribal and Federal Government partners. I will continue to use TSA's 
Visible Intermodal Prevention and Response (VIPR) teams to expand the 
scope of resources applied to deterrent security activities. I 
understand from briefings with the TSA officials that a five-pronged 
strategic approach is in place and these priorities are:

  <bullet> Protect High Risk Assets and Systems;

  <bullet> Elevate the Security Baseline;

  <bullet> Build Security Force Multipliers;

  <bullet> Assure Information Flow; and

  <bullet> Expand Partnerships for Security Enhancement.

    If confirmed, I will review this approach carefully, with the 
specific purpose of identifying opportunities to enhance our 
effectiveness, including the sustainability of our efforts, in this 
important area.

    Question 2. As Administrator, what actions will you take 
immediately so that TSA meets all deadlines set by Congress in the 
Implementing Recommendations of the 9/11 Commission Act, including the 
comprehensive risk assessment and national security strategy for the 
rail sector due this year?
    Answer. I understand that many of the outstanding requirements of 
the 9/11 Commission Act relate to the issuance of regulations through 
the notice and comment rulemaking process. This is a time consuming 
process that requires careful thought and consultation with all 
necessary stakeholders as the regulations are developed. I have been 
told that these rulemaking projects are underway, and that TSA 
continues to work with stakeholders on interim voluntary risk reduction 
measures.
    Additionally, the requirement to complete a comprehensive risk 
assessment for the rail sector, as required by Section 1511 of the 9/11 
Commission Act, is being incorporated into TSA's Transportation System 
Security Risk Assessment (TSSRA). When complete, the TSSRA will provide 
the context for TSA to compare railroad risks with risks in other modes 
of transportation. The national strategies, also required by the 9/11 
Commission Act, will be incorporated into the corresponding annexes of 
the upcoming update of the Transportation System Sector Security Plan 
(TSSSP). The TSSSP, a comprehensive unifying plan, will supersede 
separate interim strategies and plans for each mode of transportation. 
If confirmed, I will support this approach, to increase effectiveness 
in assessing risk and in informing and guiding mitigation efforts.

    Question 3. Now that the deadline for workers to obtain these TWIC 
cards has been met, TSA must now focus on deploying technology that can 
be used to accurately read the cards. How long will it be before our 
ports have the technology in place to read TWIC cards?
    Answer. I understand that TSA is currently working with the Coast 
Guard to test TWIC reader technology in different environments across 
the country before the Coast Guard moves forward with a card reader 
rule for nationwide deployment. Like you, I am eager to see this 
technology deployed. Though I am not currently aware of the details of 
the pilot and the Coast Guard's rulemaking work, if confirmed I will 
work with the Coast Guard, port and industry partners, and this 
Committee, to expedite card reader technology deployment.

    Question 4. As Administrator, will you commit to setting the number 
of airport screeners based on an analysis of risk and need?
    Answer. If confirmed as TSA Administrator, I will explore the most 
effective method to staff screening checkpoints. I understand that TSA 
currently uses a Screening Allocation Model to determine the staffing 
of Transportation Security Officers at commercial airports. This model 
uses available resources provided by Congress to staff screening 
checkpoints based on a number of factors, including risk, airline 
schedules, and passenger volume.

    Question 5. A recent GAO report found that some of these VIPR Teams 
do not have sufficient training or enough radios to coordinate 
effectively with local law enforcement and surface transportation 
officials. How will you provide adequate training and resources so VIPR 
can protect our transportation networks?
    Answer. My current experience with VIPR teams at Los Angeles 
International Airport has been positive, as TSA has gone to great 
lengths to include local teams and work with them on deployment based 
on risk. I believe VIPR teams enhance TSA's ability to leverage 
resources quickly to increase visible security in any mode of 
transportation anywhere in the country. As a former law enforcement 
academy instructor, I understand the importance of providing the proper 
training so that officers can fulfill their duties and execute their 
mission. I recognize the importance of continuing to provide training 
and resources to all TSA employees, including VIPR teams.
    It is essential to integrate local law enforcement into the 
deployment VIPR teams. If confirmed, I will work with these key 
stakeholders to ensure that VIPR teams are helping to make our 
transportation systems the best in the world.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                           Erroll G. Southers
    Question 1. Are you aware of the persistent problems associated 
with the terrorist watch lists, whereby innocent travelers experience 
unnecessary delays or inconveniences as a result of their names being 
mistaken for individuals on the ``Selectee'' or ``No-Fly'' lists? Could 
you provide an update on the progress the Secure Flight program is 
making in reducing the number of watch list misidentifications?
    Do you believe that the Secure Flight program, once it is fully 
operational, will effectively address the problems of watch list 
misidentifications? Are there additional authorities or resources 
Congress could provide that would enhance the ability of TSA to address 
these problems?
    Do you believe that TSA will be able to meet its current goal of 
having Secure Flight fully implemented for all domestic flights by 
early 2010, and for all international flights by the end of 2010?
    Answer. I share your concerns about travel delays and watch list 
misidentifications. The additional information provided by passengers 
to the Secure Flight program will significantly reduce the number of 
watch list misidentifications, while applying the most advanced 
technology to passenger vetting. As a result, incidents where 
passengers must go to the ticket counter to resolve potential 
misidentifications will be greatly reduced.
    It is my understanding that TSA is well positioned to complete 
implementation of the Secure Flight program. TSA is working with the 
air carriers to implement Secure Flight in phases, with each airline 
incorporating the necessary changes into their systems. The key to 
success for this program is collaboration; if confirmed, I will 
continue to work with the airlines and other stakeholders to achieve 
timely implementation.

    Question 2. It is my understanding that TSA officials are engaged 
in ongoing discussions with Canadian authorities to put in place new 
baggage screening technologies and procedures at Canadian airports that 
will meet U.S. baggage screening standards. Such an agreement could 
negate the need for current regulations that require checked luggage 
screened at Canadian luggage to be rescreened before transfer to a U.S-
based connecting flight, requirements that pose significant logistical 
and cost challenges to U.S. airline and airport operators. Could you 
provide an update on the current status of discussions between TSA and 
Canadian authorities regarding this issue? Could you provide an 
estimate of the timeline for final resolution of this issue?
    Answer. I understand that TSA and its Canadian counterparts 
continue to exchange information in pursuit of this goal. If confirmed, 
I will continue to work with my Canadian counterparts to achieve a 
solution that generates efficiencies for passengers and satisfies both 
nations' security responsibilities.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Erroll G. Southers
    Question 1. In your confirmation hearing, you stated that, ``The 
whole body imaging platform still remains 100 percent optional, so our 
travelers still have the option to not participate.'' The TSA website 
states, ``Use of whole body imaging technology is always 100 percent 
optional to all passengers.'' As Administrator, will you maintain this 
policy and ensure that passengers always have an alternative screening 
method to whole body imaging?
    Answer. Yes, if confirmed I will maintain TSA's current policy that 
passengers may request alternative screening procedures. If a passenger 
opts to not use imaging technology, they will receive equivalent 
screening, which will include use of a walk through metal detector and 
a pat-down.

    Question 2. The TSA's website claims that, ``Many passengers prefer 
advanced imaging technology. In fact, over 98 percent of passengers who 
encounter this technology in TSA pilots of technology prefer it over 
other screening options.'' Do you believe that the public has been 
adequately informed about whole body imaging technology and the images 
it produces?
    Answer. I understand that TSA has provided information to the 
public and the media on the deployment and use of imaging technology to 
assist in screening passengers. However, I agree that continued and 
extensive education of the traveling public and affected stakeholders 
is critical to TSA's mission.

    Question 2a. Would you support providing more information about the 
technology to passengers before they reach the point of screening, such 
as signs placed in the terminal and at the beginning of security lines?
    Answer. Yes. It is my understanding that TSA has reached-out to 
aviation stakeholders and passengers during the technology's pilot 
phase, and that TSA has signs informing passengers about the 
technology, including sample images at airport security checkpoints, in 
front of the machine, and on the machine itself If confirmed, I will 
ensure that adequate signage is in place and also continue to build 
upon the agency's current ``Why?'' campaign so the public can better 
understand everyday practices and protocols of our security, including 
imaging technology.

    Question 3. TSA pat-down inspections are done by a TSA officer who 
is the same sex as the passenger. The images produced by whole body 
imaging technology are very detailed and the sex of the passenger is 
easily identifiable.
    In order to enhance passenger privacy, would you support a policy 
to require that the TSA officer who views the images produced by whole 
body imaging machines be the same sex as the passenger being screened?
    Answer. I believe the effort to provide effective aviation security 
requires a balance between technology, privacy and security. It is my 
understanding that TSA's current protocol requires that all images 
generated by imaging technology are viewed in a walled-off location 
that is not visible to the public. The officer assisting the passenger 
cannot view the image, and as an additional precaution, the officer 
viewing the image never sees the passenger. The image that is displayed 
uses the most advanced privacy filters currently available and I 
support TSA's long-term goal to advance the technology so the human 
image is stick-figure like while still displaying anomalies. It is my 
understanding that TSA is actively working with vendors to achieve this 
capability. If confirmed, I will work to ensure the privacy of the 
traveling public is protected while providing the necessary security to 
protect them.

    Question 4. Members of the general aviation community have 
expressed concerns about TSA's Large Aircraft Security Program (LASP) 
proposed rulemaking. My understanding is that TSA plans to respond by 
issuing a supplemental Notice of Proposed Rulemaking (NPRM) to address 
some of these concerns. Could you share how TSA under your leadership 
will engage and work with the general aviation community when 
developing and promulgating aviation security requirements?
    Answer. As someone who has worked on counterterrorism matters at 
the Federal, state, and local level for 30 years, and most recently as 
an Assistant Chief for Homeland Security and Intelligence for the Los 
Angeles World Airports (LAWA) Police Department, I understand the 
challenges of securing both commercial and general aviation airports. I 
am responsible for security at Van Nuys Airport, one of the busiest 
general aviation airports in the country. What I have seen in my 
experience is that as we worked to harden security at LAX, there was 
concern that the risk might be pushed out to our other three general 
aviation airports. As we worked to mitigate that risk, we engaged and 
educated our stakeholders so that they were a part of our mission and 
were empowered to report suspicious activity. I believe in 
collaborative approaches like this one, and if confirmed, I am 
committed to reaching out to stakeholders, particularly those in 
general aviation community, to build on their partnership with TSA to 
ensure best practices and risk-based solutions are implemented.
    With regard to the issuance of TSA's Large Aircraft Security 
Program (LASP) Notice of Proposed Rulemaking, I understand that after 
receiving more than 8,000 public comments and holding public meetings 
and comment sessions with stakeholders throughout the country, TSA is 
developing a supplemental Notice of Proposed Rulemaking for the LASP 
program that will address many of the concerns. If confirmed, I look 
forward to the opportunity to work with you and the Committee on this 
issue moving forward.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Erroll G. Southers
    Question 1. It is my understanding that, with Richmond 
International Airport's plans to rebuild its terminal in 2004, TSA 
asked them to install TSA's in-line explosive detection system during 
the reconstruction work. Completing the installation during the process 
of rebuilding Richmond's terminal would, in fact, be more cost 
effective than completing the installation on its own at a later date. 
Although TSA did not have funds available at the time, an April 28, 
2005 letter from TSA stated it would continue to work with the airport 
and would include the airport's request in future budget deliberations. 
Richmond agreed to cooperate and built TSA's explosive detection 
system, completing the work in 2007. Although the Richmond Airport 
completed the installation work 2 years ago, TSA has yet to provide 
reimbursement. Can you commit in a timely manner to making it a 
priority that TSA fulfills its commitment to reimburse Richmond 
International Airport for the $3.6 million expense of installing the 
in-line explosive detection system?
    Answer. If confirmed, you have my commitment to look into the 
Capitol Region Airport Commission's $3.6M request for reimbursement of 
the checked baggage in-line explosive detection system (EDS) installed 
at Richmond International Airport (RIC). I look forward to working with 
you, the Committee and officials at the Capitol Region Airport 
Commission and RIC on this issue.

    Question 2. The Transit Security Grant Program is intended to 
address the security needs of bus and rail systems including both 
capital projects and operating initiatives. Transit systems should be 
the primary decisionmakers on the allocation of funds toward specific 
security measures; they are the ones directly accountable to their 
employees, customers and the general public for the security of their 
systems and riders on a daily basis. Will you commit to implementing 
the TSGP so that transit agencies can use those funds to meet their 
unique and urgent security needs, including measures that mitigate the 
impacts of a terrorist attack and reduce recovery times (i.e., 
detection capability, fire suppression, emergency evacuation and 
decontamination), particularly where these measures are specified in 
agency risk assessments?
    Answer. If confirmed, I will support the TSGP to address all of the 
elements of resiliency: prevention, protection, response, and recovery. 
I recognize each transit agency is unique and the TSGP must fund 
security measures that are best suited to enhance specific systems. If 
confirmed, I will work to ensure that the projects proposed and funded 
are tied to agency security assessments, as required by the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 
110-53).

    Question 3. A new, larger security mezzanine with 24 screening 
points was recently opened at Dulles International Airport. This new 
security checkpoint was constructed to TSA standards and touted by TSA 
as the ``checkpoint of the future''. Yet, from day one, TSA has failed 
to adequately staff this new checkpoint, resulting in long lines for 
travelers trying to make it on time for flights. TSA has now moved to 
permitting screeners to work 4 days-a-week, plus one day with double 
shifts, which is hardly a sustainable solution. Can you provide a plan 
that shows how the new Dulles security mezzanine will be adequately 
staffed in the future?
    Answer. It is my understanding that the new Mezzanine Checkpoint at 
Washington Dulles International Airport has the same number of 
screening lanes as the previous Terminal Level configuration, and that 
TSA has previously committed to ensuring that the new checkpoint would 
be fully equipped and staffed for its opening. If confirmed, I will 
continue to work with the Office of Security Operations to ensure that 
all airports, including Dulles, are properly staffed to minimize wait 
times and maximize throughput.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Erroll G. Southers
    Question 1. The Large Aircraft Security Program (LASP) Notice of 
Proposed Rulemaking was introduced by the TSA at the end of the last 
Administration and generated a sizable negative response during the 
public comment period.
    Since then, the TSA has worked toward a new Supplemental NPRM which 
would take into consideration the comments filed to the original 
proposal as well as through direct TSA engagement with industry and 
stakeholders. If confirmed, will you work to move forward on this 
Supplemental NPRM? What general approach would you take with respect to 
engaging constructively with stakeholders on new security requirements? 
If confirmed, would you ensure these proposals are targeted toward 
specific risks and fully consider the practical implementation of these 
proposals?
    Answer. As someone who has worked on counterterrorism matters at 
the Federal, state, and local level for 30 years, and most recently as 
an Assistant Chief for Homeland Security and Intelligence for the Los 
Angeles World Airports (LAWA) Police Department, I understand the 
challenges of securing both commercial and general aviation airports. 
The balance between ensuring the free flow of commerce and protecting 
our Nation's vital transportation systems is critical to TSA's mission.
    In my current position, I am responsible for security at Van Nuys 
Airport, one of the busiest general aviation airports in the country. 
What I have seen in my experience is that as we worked to harden 
security at LAX, there was concern that the risk might be pushed out to 
our other three general aviation airports. As we worked to mitigate 
that risk, we engaged and educated our stakeholders so that they were a 
part of our mission and were empowered to report suspicious activity. I 
believe in collaborative approaches like this one, and if confirmed, I 
am committed to reaching out to stakeholders, particularly those in 
general aviation community, to build on their partnership with TSA to 
ensure best practices and risk-based solutions are implemented.
    I understand the need to have collaborative discussions with 
affected stakeholders before new security requirements are issued, when 
time and situation permit, and in a setting that respects the 
sensitivity of certain information. If confirmed, I intend to work with 
our partners in private industry, the traveling public and at all 
levels of government in formulating and issuing new security 
requirements.
    With regard to the issuance of TSA's Large Aircraft Security 
Program (LASP) Notice of Proposed Rulemaking, I understand that after 
receiving more than 8,000 public comments and holding public meetings 
and comment sessions with stakeholders throughout the country, TSA is 
developing a supplemental Notice of Proposed Rulemaking for the LASP 
program that will address many of the concerns. I look forward to the 
opportunity to work with you and the Committee on this issue moving 
forward.

    Question 2. If confirmed, what steps would you take to reconcile 
items prohibited by the TSA with necessary survival equipment required 
under state law?
    Answer. I understand your concern about the unique circumstances 
involving air travel in Alaska, and I share your view that it is 
important that we reexamine the prohibited items list with respect to 
rulemaking for general aviation. We should strive to ensure not only 
the safety of the traveling public, but also that we are taking a 
commonsense approach to security that Americans can easily understand.

    Question 3. The TSA has used Security Directives to expand existing 
requirements even though a May 2009 report by the DHS Inspector General 
found ``General Aviation presents only limited and mostly hypothetical 
threats to security.''
    Our most recent experience involves the expansion of security 
credentialing requirements to tens-of-thousands of pilots and employees 
at airports and aviation manufacturers. This resulted in Security 
Directive-8F (revised as SD-8G) which was developed this summer. There 
is still considerable confusion and misinformation in the aviation 
community on the actual rules and facilities impacted by this Security 
Directive. Under what circumstances should TSA use Security Directives 
instead of going through the rulemaking process?
    Answer. As noted above, I understand the need to have collaborative 
discussions with affected stakeholders before new Security Directives 
or emergency regulations are issued, when time and situation permit, 
and in a setting that respects the sensitivity of certain information. 
If confirmed, I intend to work with our partners in formulating and 
issuing new security requirements.

    Question 4. After the September 2001 terrorist attacks, Anchorage 
International Airport (ANC) was required by the TSA to invest in 
Explosive Detection Systems (EDS) with the understanding the TSA would 
reimburse the airport for at least 75 percent of the allowable costs. 
After installation of the EDS was complete the TSA determined there was 
insufficient funding and withdrew its commitments to reimburse ANC, as 
well as several other airports. Congress tried to address this with 
passage of a law implementing the recommendations of the 9/11 
Commission, which clarified airports should be reimbursed.\1\ ANC has 
still not been reimbursed because installation of the EDS was completed 
before implementation of this Act. Are you aware of this problem? If 
confirmed, what will you do to address the commitment for reimbursement 
originally made by the TSA to airports such as ANC?
---------------------------------------------------------------------------
    \1\ Public Law 110-53, Section 1604.
---------------------------------------------------------------------------
    Answer. I am aware of this issue. If confirmed, I plan to study 
TSA's reimbursement criteria and process for cost-data collection, 
review and validation. You have my commitment to look into the 
Anchorage International Airport (ANC) request for reimbursement for the 
checked baggage in-line explosive detection system. I look forward to 
working with you, the Committee and officials at the ANC on this issue.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                           Erroll G. Southers
    Question 1. TSA recently initiated an oversight change to the 
Principal Security Inspector (PSI) position. If confirmed, will you 
commit to initiating and completing a review of the PSI position 
responsibility changes and its implication on airline oversight and 
compliance before changing the role and responsibilities of PSIs?
    Answer. Yes. If confirmed, you have my commitment to look into the 
PSI matter.

    Question 2. I have attached a letter from a Sheriff in Harris 
County, Texas who has sought TSA's approval to utilize armed reserve 
deputies on commercial aircraft for the purposes of extradition cases. 
Federal law clearly states that the TSA Administrator is authorized to 
approve such requests; however, the Sheriff's office has been unable to 
gain authorization. As TSA Administrator, if confirmed, will you review 
this matter and report back to the Committee on your findings and 
intentions regarding the Harris County request and others like it? 
(Letter enclosed)
    Answer. Yes. If I am confirmed, I will review this matter. I look 
forward to working with you to resolve the Sheriff's concerns and 
engaging the Committee on the overarching policy. I believe my 
extensive law enforcement background will facilitate and enhance the 
potential for a collaborative working relationship.

    Question 3. In the face of declining passenger numbers and reduced 
traffic at screening checkpoints, Transportation Security Officers 
(TSO) are reportedly being diverted to other missions beyond the 
screening checkpoints. Many other TSOs appear to be transitioning to 
new job assignments, including behavior detection officers, a move that 
reduces the overall number pool of trained screening personnel. As more 
TSA personnel are moved to roles other than the core checkpoint 
screening mission, one could argue TSA is creating two cultures of 
``screeners'' and ``nonscreeners'' that, from a staffing perspective, 
could make it difficult to respond to traffic growth and threats that 
require more personnel at the checkpoint. As TSA Administrator, if 
confirmed, how would you address the dilution of available TSO staff at 
checkpoints, while taking into account yearly budget constraints?
    Answer. I appreciate your concern. If I am confirmed, you have my 
commitment to assess the impact of TSO and Behavior Detection Officers 
(BDO) staffing on checkpoint screening.
    My own experience at Los Angeles International Airport is that BDOs 
provide value by adding an important layer of security. This layer of 
expertise ensures the safety of the traveling public, as well as the 
reduction of delays.

    Question 4. Given your previous experience working in an airport 
environment, what are your thoughts and concerns regarding the 
implementation of 100 percent physical screening of airport employees, 
and what solutions would you propose considering existing budget 
constraints and risk based security models?
    Answer. Theoretically, the implementation of 100 percent physical 
screening of airport employees is a desirable protective protocol. 
Unfortunately, many airports, including LAX, are not configured to 
support the logistics of such a security process. As an example, at 
LAX, the entire perimeter of our 3,500 acre site would have to be 
secured, with pre-determined access points for employees. Second, all 
of the perimeter tenants would have to implement 100 percent screening 
inside their respective facilities. Other airports throughout the 
country would face similar challenges at a great cost.
    Acknowledging the different logistical scenarios present at our 
Nation's airports, the best scenario would include the ``random'' 
checkpoint screening of employees, as we have implemented at LAX. In 
those situations, unannounced, random checkpoints are established at 
employee entrances and 100 percent screening takes place. This process 
entails the check of employee identification cards and personal items, 
in order for the employee to be granted access to any restricted area. 
Given limited resources and budgetary constraints, this is often the 
most efficient model we have identified to address security while 
ensuring continuity of operations.

    Question 5. Since the inception of TSA, many stakeholders have 
consistently had concerns regarding the technology acquisition and 
procurement procedures. Stakeholders point to the lack of focus, 
clarity, communication and standardization of the technology 
acquisition and procurement process. As TSA Administrator, if 
confirmed, will you commit to reviewing the existing acquisition 
process and reporting back to the Committee on suggested improvements 
you intend to implement?
    Answer. Yes. I share the Secretary's vision for transparency and 
efficiency for the Department. If confirmed, I look forward to working 
with you and the Committee to ensure the agency provides a streamlined 
process for potential vendors to discuss technology products and issues 
and to bid on TSA procurements.

    Question 6. TSA's passenger pre-screening program Secure Flight is 
currently in the process of being launched over the next year. As that 
process moves forward, it is important the transition is smooth but 
also does not create any market based competitive advantaged or 
disadvantages on any one air carrier, solely based on early or late 
adoption into the program. As TSA Administrator, if confirmed, will you 
commit to making sure the transition to Secure Flight does not impact 
the competitive landscape of the airline industry by creating potential 
flight booking advantages or disadvantages on any one air carrier?
    Answer. If confirmed, I look forward to working with you, the 
Committee, the Secure Flight team at TSA, and stakeholders to ensure 
smooth integration of Secure Flight into the airlines' individual 
systems.

    Question 7. In August, along with several colleagues on the 
Committee I signed a letter to FAA Administrator Babbitt and Acting TSA 
Administrator Rossides regarding reported weaknesses in the existing 
vetting system of Airman Certificates. As TSA Administrator, if 
confirmed, will you commit to implementing and executing a plan to 
eliminate existing weaknesses in the vetting system and to work with 
the FAA to make sure no national security threats are allowed to 
maintain Airman Certificates?
    Answer. I understand fully the importance of this issue, and 
recently met with FAA Acting Deputy Administrator Lynne Osmus and DHS 
Deputy Assistant Secretary for the Screening Coordination Office (SCO) 
Kathy Kraninger to learn more about it. If confirmed, I will work with 
FAA, SCO, and this Committee to ensure TSA is vetting against the 
correct lists and that FAA Airman Certificates are not issued to the 
wrong people or retained by people who should not have that privilege.

    Question 8. In the 9/11 Act, TSA was directed to review ways to 
enhance security by identifying airline flight crew members and giving 
them expedited access through security. I understand that TSA has 
cooperated with stakeholders on several demonstration projects to test 
different methods for enhanced aircrew identification. As TSA 
Administrator, if confirmed, how do you intend to implement an 
expedited access program to sterile areas for aircrew and what type(s) 
of identification capabilities would be necessary in order to implement 
such a program?
    Answer. I understand that TSA has been piloting an expedited access 
program for airline flight crew members called CrewPASS. If confirmed, 
this is a program I would be willing to explore. Having a vetted 
population like this would allow us to focus on the risk presented by 
the unvetted population and may be a wise and efficient use of our 
resources. I look forward to working with you, this Committee, and 
stakeholders on innovative solutions that enhance security.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                           Erroll G. Southers
    Question 1. Mr. Southers, in your response to my letter asking 
whether you will enter into a collective bargaining agreement with 
screeners you state, ``My experiences with the bargaining units in 
those agencies have been productive, collaborative and challenging.'' 
This seems to indicate that you think unionization of screeners is not 
inconsistent with maintaining the highest levels of aviation security. 
Is this accurate?
    Answer. My statement applied to my current experience at the Los 
Angeles World Airport Police Department, where I have a manager's 
understanding of the security work force, environment and challenges, 
not to the TSA. As I mentioned in my letter to you, I would like an 
opportunity to assess operational and organizational issues and to talk 
with stakeholder groups before making a recommendation to the 
Secretary. If confirmed, it will be my duty and obligation to protect 
the Nation's transportation systems to ensure freedom of movement for 
people and commerce.

    Question 2. Mr. Southers, in my letter to you I asked for an answer 
that began with a Yes or No. Unionization of TSA screeners is one of 
the three or four highest profile public policy issues facing the 
agency you wish to lead. Do you expect the Committee to believe that 
you don't actually have an opinion on such an important public policy 
issue?
    Answer. Forming an opinion at this time would be premature and 
would not allow me the opportunity for research and discussions with 
impacted parties. I reiterate the commitment I gave you in our meeting 
and in my recent letter: as a 30-year law enforcement officer, the 
mission comes first with me. If confirmed, I will never compromise on 
ensuring the highest levels of security possible for the traveling 
public.

    Question 3. Mr. Southers, in your letter you state, ``While the 
responsibility to recommend that we modify or maintain the status quo 
rests with the TSA Administrator, the Secretary inherently retains the 
statutory authority to act upon my recommendation.'' Additionally 
during the campaign the President stated, ``If I am elected President, 
I will work to ensure that TSOs have collective bargaining rights and a 
voice at work to address issues that arise locally and nationally.'' 
Mr. Southers, it seems to me that the political leadership at the 
highest levels has indicated the fix is in on this issue. In your 
discussions with the White House and the Secretary have you been 
assured that you will have free reign to implement the policy you 
believe best protects the public, even if that policy would prohibit 
collective bargaining?
    Answer. The Secretary has said that she would like a TSA 
Administrator in place before any decision on this topic is made. If 
confirmed, I will carefully study the issue, review relevant 
information, reach out to stakeholder groups, and then make a 
recommendation to the Secretary. Before I can make that recommendation, 
I must have a thorough understanding of TSA's operations and work 
force.

    Question 4. Mr. Southers, was Kip Hawley (previous TSA 
Administrator) wrong to continue to prohibit collective bargaining?
    Answer. If I am confirmed, you have my commitment to review 
relevant information, meet with stakeholder groups, work with all 
impacted parties, and thoroughly review this matter. I was not privy to 
information that Mr. Hawley had access to in his time as Administrator. 
I commit to you that I will talk to former TSA Administrators for their 
input and counsel as part of my review process.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Erroll G. Southers
    Question 1. Mr. Southers, with your responsibility for security at 
LAX and general aviation airports in Palmdale, Ontario and Van Nuys, 
what do you see as TSA's role when it comes to general aviation--
including smaller airports in South Dakota? I pose this question 
because a number of general aviation users in South Dakota have 
inquired about recent actions by TSA when it comes to what they believe 
are controversial Security Directives that mandate commercial airports 
conduct security threat assessments on all general aviation users that 
have access to the airport. While I can understand the need to conduct 
threat assessments to improve security at commercial airports, what 
balance would you strive for to ensure that general aviation users 
aren't impeded when it comes to the freedom they currently enjoy when 
traveling from one airport to another?
    Answer. As someone who has worked on counterterrorism matters at 
the Federal, state, and local level for 30 years, and most recently as 
an Assistant Chief for Homeland Security and Intelligence for the Los 
Angeles World Airports (LAWA) Police Department, I understand the 
challenges of securing both commercial and general aviation airports. 
The balance between ensuring the free flow of commerce and protecting 
our Nation's vital transportation systems is critical to TSA's mission.
    As you note, I am responsible for security at Van Nuys Airport, one 
of the busiest general aviation airports in the country. What I have 
seen in my experience is that as we worked to harden security at LAX, 
there was concern that the risk might be pushed out to our other three 
general aviation airports. As we worked to mitigate that risk, we 
engaged and educated our stakeholders so that they were a part of our 
mission and were empowered to report suspicious activity. I believe in 
collaborative approaches like this one, and if confirmed, I am 
committed to reaching out to stakeholders, particularly those in 
general aviation community, to build on their partnership with TSA to 
ensure best practices and risk-based solutions are implemented.
    With regard to the issuance of TSA's Large Aircraft Security 
Program (LASP) Notice of Proposed Rulemaking, I understand that after 
receiving more than 8,000 public comments and holding public meetings 
and comment sessions with stakeholders throughout the country, TSA is 
developing a supplemental Notice of Proposed Rulemaking for the LASP 
program that will address many of the concerns. If confirmed, I look 
forward to the opportunity to work with you and the Committee on this 
issue moving forward.

    Question 2. What do you see when it comes to the future of Security 
Directives, especially as it relates to the manner in which they are 
issued and whether or not you believe that such measures should be 
subject to public comment and review?
    Answer. I understand the need to have collaborative discussions 
with affected stakeholders before Security Directives or emergency 
regulations are issued, when time and situation permit, and in a 
setting that respects the sensitivity of certain information.
    If confirmed, I intend to work with our partners in formulating and 
issuing Security Directives and emergency regulations.

    Question 3. Should airports be reimbursed for costs related to 
implementation of security directives?
    Answer. In my current role as Assistant Chief for Homeland Security 
and Intelligence for the Los Angeles World Airports Police Department, 
I understand the need to implement directives quickly, based on 
intelligence. However, at this time I do not have enough information to 
make an informed decision about the long-term costs to the airports. 
This is an issue I would like to look at carefully if confirmed in 
coordination with airport partners.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Roger Wicker to 
                           Erroll G. Southers
    Question 1. The FY2010 DHS appropriations conference report puts an 
emphasis on controlling the growing maintenance costs of the agency's 
screening technologies. It is my understanding that TSA is working with 
vendors to develop equipment with greater throughput and lower 
maintenance costs. What planning is in place to reduce Operational and 
Maintenance costs associated with Explosive Detection Systems (EDS)?
    Answer. In the current economic environment, I appreciate the need 
to control costs. I have been briefed that TSA is in the midst of a 
competitive procurement for EDS equipment that will use total ownership 
cost as one of the evaluation factors. For example, the Transportation 
Systems Integration Facility (TSIF) at Ronald Reagan Washington 
National Airport is dedicated to testing and refining airport security 
equipment and processes, a critical link to the identification of more 
efficient systems. It is believed that testing at TSIF may yield 
impressive savings. If confirmed, you have my commitment to review this 
effort in detail and to work closely with TSA's Office of Security 
Technology and the Department of Homeland Security's Technology 
Security Laboratory to ensure that TSA continues to maximize cost and 
efficiency.

    Question 2. How can funding for Inline Baggage Handling Systems be 
reduced while accommodating future passenger growth?
    Answer. This is a challenging problem--as Assistant Chief for 
Homeland Security and Intelligence for the Los Angeles World Airports 
(LAWA) Police Department, I have worked in an airport that experiences 
large passenger volume and a significant terrorist threat. In the 
current economic environment, the optimal investment in airport 
security would be in technology that could accommodate future passenger 
growth. Since I have seen first-hand the benefits of a collaborative 
approach to security, if confirmed, I will make sure the TSA works with 
stakeholders to understand particular airport configurations and review 
assessments about future passenger growth prior to making procurement 
decisions about technology.

    Question 3. The President's budget request for Fiscal Year 2010 
included $856 million for Explosives Detection Systems (EDS), which is 
an increase from the previous enacted level in Fiscal Year 2009 of $294 
million. Even with the large increase for EDS that will soon be passed 
by Congress, the need of airports across the country to recapitalize 
checked baggage screening equipment and accelerate the deployment of 
in-line systems remains of the upmost importance. Some argue that 
without continued funding it will be impossible to provide the latest, 
cutting-edge technology necessary to keep the aviation sector secure 
from the threats of terrorism.
    As you know, many of these checked baggage screening systems that 
were deployed immediately after September 11, 2001, have reached the 
end of their life cycles and the costs to keep these older technology 
systems functioning with minimal down time is becoming prohibitive. 
Will you support maintaining the Fiscal Year 2010 EDS procurement and 
installation funding levels at our Nation's airports in Fiscal Year 
2011 necessary to maintain the Electronic Baggage Screening Program 
(EBSP)?
    Answer. If confirmed, I will work within the President's budget to 
maximize resources and deploy appropriate technology that provides the 
best security for the traveling public.

    Question 3a. With the threat of new explosives evolving rapidly how 
do you see this factoring into the replacement of older equipment such 
as Explosive Trace Detection (ETD) with newer equipment that is 
equipped to change with these continued new threats?
    Answer. I am deeply concerned about the threat of new explosives. 
It is my understanding that ARRA funds have been used to advance 
technology at airports across the country and that newer equipment has 
the adaptability to meet the emerging threats. If confirmed, I will 
work to continue to maintain and improve security against new and 
evolving explosives.

    Question 4. In knowing that there is a need for airports across the 
country to recapitalize checked baggage screening devices and 
accelerate deployment of in-line systems, the Congress has, over the 
past several years, continued to see a proposal in the president's 
budget for a temporary, four-year surcharge in the passenger security 
fee, to have the taxpayers pay for this program. Do you anticipate 
building a budget based upon a passenger security fee and, if so, how 
much would the fee be and how much is TSA estimated to collect by a 
passenger security fee?
    Answer. I understand that the President's FY2010 budget assumes 
that a passenger security fee adjustment will be phased in over 3 
years, beginning in FY2012. The current security fee of $2.50 per 
passenger enplanement would rise to $3.50, $4.50 and $5.50 in FY2012, 
FY2013 and FY2014, respectively. This should increase revenue 
collections by approximately $850 million in each of the 3-years, to a 
total increase of $2.6 billion in FY2014. In 2014, collections would 
offset about 86 percent of discretionary passenger and property 
screening costs.

    Question 5. I applaud any effort by the Transportation Security 
Administration to enhance security at our Nation's largest airports, 
but we cannot forget the fact that a significant majority of passengers 
begin their trips at medium and small airports.
    Specifically, according to figures from the Department of 
Transportation's Bureau of Transportation Statistics, 54 percent of the 
passengers begin their trips at the Nation's top 25 airports, while 46 
percent of the passengers begin their air travel at the next 225 
airports. Therefore, since checked baggage is screened at originating 
airports, medium and small airports cannot be neglected if aviation 
security is truly to be enhanced. In is a direct result of this fact 
that Congress has set aside funding for medium and small-sized airports 
for the past two Fiscal Years. In knowing that two of the highjackers 
on 9/11 began their flight at a small airport in Bangor, Maine, would 
you agree that the need for medium and small airports to receive the 
latest explosives detection systems is as important as the Category X 
airports?
    Answer. I believe that we must continue investing in the security 
of medium and small-sized airports. Adding Explosives Detection Systems 
where feasible greatly enhances security and defends against the 
diversion of risk to these locations. If confirmed, I look forward to 
working with you and the Committee on examining ways to enhance the 
overall aviation security network.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                           Erroll G. Southers
    Question 1. It seems that our philosophy regarding airport security 
remains focused on intercepting bad things (such as guns, knives, 
explosives, liquids). It is a reactive policy, aimed at preventing the 
last terrorist plot from being repeated. Boxcutters were used on 9/11, 
so we banned them from being allowed on airplanes. The British foiled a 
plot to blow up airliners using liquids, so we limit carry on liquids 
to 3oz. containers that can fit in a 1 quart bag. A shoe bomber tries 
to destroy an airplane en route from Paris to the U.S., so we now take 
off our shoes going through security.

        1. These things don't hijack planes, however the terrorists who 
        use them do. So it would seem to me that the best way to detect 
        terrorists is to focus on intercepting not the boxcutter they 
        may use, but the actual person who may use it. Bad people, not 
        bad things necessarily, should be stopped.

        2. It is a cliche to point to El Al and Israeli airport 
        security, and in many instances their system will not work in 
        the U.S. given that Israel on an annual basis has a fraction of 
        the number of passengers that travel in the U.S. However, as 
        you know, the Israelis are constantly monitoring behavior.

                a. They look for things out of the ordinary that do not 
                fit, and may indicate a threat.

                b. Their airport security agents are constantly 
                interacting with passengers, asking questions, engaging 
                in dialogue.

        3. As I am sure you know being the Assistant Chief for Homeland 
        Security and Intelligence at LAX, Israeli security depends 
        greatly upon good intelligence.

        4. One of the other interesting things about Israeli security 
        is that security is the first thing the passenger encounters. 
        Unlike here where passengers go through security after checking 
        in for their flights and checking their bags, only when Israeli 
        security is satisfied that a passenger is not a threat are they 
        allowed to proceed to the check-in counter. By that point, 
        there is no need to make a passenger remove their shoes, or to 
        confiscate a water bottle.

        5. I understand that TSA is training some officers to notice 
        facial expressions, body language, and speech patterns, but by 
        and large it seems to me that our philosophy remains the same 
        as it always has.

    I'm not advocating for profiling but I wonder if, given the finite 
security resources we have, if this is the best approach. I would be 
curious to hear your thoughts on this.
    Answer. TSA's and the Department of Homeland Security's consistent 
policy has been that racial, ethnic, or religious profiling is 
counterproductive to the mission of providing aviation security and to 
the larger counterterrorism responsibilities of the Department and the 
Federal Government. I share that view.
    I also share your concern that we must maintain our efforts to be 
proactive in our security approach and to anticipate potential security 
threats. One important way to implement effective counterterrorism 
initiatives and procedures to counter the evolving terrorist threat is 
to do more to educate the public and increase awareness in our society. 
The prospects of success for any policy initiatives that we implement 
are likely to be significantly enhanced if we adopt a concerted effort 
to explain our initiatives and the reasoning behind them. An engaged 
and empowered community creates the potential for an understanding and 
loyal ally in our security mission. The development of this partnership 
will require a sustained and significant commitment to public outreach. 
TSA's ``Why'' campaign, designed to answer the public's security-
related procedural concerns, is a step in the right direction.

    Question 2. With regards to intelligence, from your experience at 
LAX do you believe that TSA does a sufficient job in sharing 
intelligence with the airports? Is there room for improvement on that 
front?
    Answer. As a law enforcement officer, I believe that there is 
always room for enhancing information sharing. I recognize that there 
is a need to maintain operational security and the classified nature of 
the intelligence, but the sharing of this information with those at the 
local and state level is vital to facilitating increased collaboration 
and the appropriate allocation of resources to counter threats. If 
confirmed I will work with the Secretary to push forward her 
information sharing initiatives with state, local, tribal and 
territorial governments, and with private sector stakeholders.

    Question 3. After 7 years, we finally feel like we have the 
appropriate TSA staffing, checkpoint setup and management in place at 
Hartsfield.

        1. Communication between TSA, the airport officials, and the 
        major tenants (Delta and Air Tran) is finally consistent.

        2. We remain concerned with wait times at the E Concourse 
        recheck, but understand TSA is working to mitigate those times 
        and thus far has done a good job.

        3. Hartsfield is a unique layout, unlike any other in the 
        country. It is the only airport of its size where every 
        airlines' passenger goes through the same checkpoint (unlike 
        LAX, JFK, etc. where there are individual terminals for each 
        airline).

    Please ``do no harm'' as it relates to Hartsfield. Things are going 
well there, and complaints on flow and wait times are down.

        a. We would also urge you and your staff to keep us apprised on 
        a regular basis of what is going on at Hartsfield as it relates 
        to staffing and wait times.

        b. Finally, will you commit to visiting Hartsfield during the 
        first 6 months of your tenure?

    Answer. I am pleased to hear that TSA is currently providing 
quality security and customer service to Hartsfield International 
Airport. In my current position, I and my colleagues frequently look to 
Hartsfield for best practices. If confirmed, I will work diligently to 
ensure that TSA continues to deliver both world-class security and 
customer service at Georgia's airports and at airports across the 
country. If confirmed, you have my commitment to visit 
AtlantaHartsfield, along with other airports of varying sizes and 
security and operational challenges in my first 6 months.

    Question 4. We had an unpleasant issue with TSA's handling of 
Delta's application for TSA approval for launch service to Nairobi, 
Kenya; Abuja, Nigeria; Monrovia Liberia; Luanda, Angola; Malabo, 
Equatorial Guinea; and Sal, Cape Verde Island.
    1. Delta was forced, on the day service was to commence, to cancel 
their Nairobi service at significant cost to themselves. The flights 
were sold out for the first 4 weeks of service.
    2. Given the nature of U.S. industry expansion, we would urge you 
to look at expanding the capacity of the office that oversees these 
approvals. There is going to be more expansion once the economy 
rebounds, and having the necessary staffing in place is going to be 
crucial.
    Will you commit that, once confirmed, you will look into staffing 
issues at this office and report back (in a classified manner if 
necessary) on whether staffing is sufficient and on ways to ensure the 
process guarantees some certainty for airline applicants?
    Answer. In my experience, communication has been key to addressing 
the issues you raise. If confirmed, you have my commitment to look into 
the matter, report back, and build upon the steps taken to ensure 
information flow.

    Question 5. As you will recall this past June Clear, a registered 
traveler program, ceased operations. Clear operated lanes at 20 
airports nationwide including Atlanta.

        1. Clear customers were prescreened before receiving a special 
        ID card that allows them to access designated security lanes. 
        As part of this prescreening process, Clear collected personal 
        credentialing information from its customers such as name, 
        Social Security number, passport information, date of birth, 
        address and other personal identifying information.

        2. Clear collected this information on both its website, and at 
        laptop computers located at its kiosks at airports and at Grand 
        Central Station in New York. Clear also collected biometric 
        information in the form of facial photographs, iris scans and 
        fingerprint scans. Once approved, customers accessed express 
        lanes at participating airport security checkpoints.

        3. In our State of Georgia alone Clear signed up and collected 
        personal and biometric data for over 20,000 customers. Clear 
        collected the same data on an additional 240,000 customers 
        nationwide.

        4. According to the Clear website, ``applicant and member data 
        is currently secured in accordance with the Transportation 
        Security Administration's Security, Privacy and Compliance 
        Standards. Verified Identity Pass, Inc. will continue to secure 
        such information and will take appropriate steps to delete the 
        information.''

        5. As Clear winds down its operation, we need to know that the 
        deletion of this credentialing and biometric data remains a top 
        priority. We are also concerned that the personal and biometric 
        information of our constituents could be compromised.

    Will you commit to us that once confirmed he will undertake a 
review of the process by which this biometric data is being deleted, 
and report back to the Committee on its progress?
    Answer. If confirmed, I will ensure an appropriate review process 
is implemented to determine the status of the biometric data and report 
back to the Committee.

    Question 6. What are your thoughts on registered traveler programs? 
Do you believe that TSA should continue to pursue such programs with 
private vendors?
    Answer. If confirmed, a Registered Traveler concept is something I 
would like to explore. I look forward to working with you and this 
Committee on ways to efficiently allocate our resources to bolster 
security, focus on risk, and enhance the passenger experience.

    Question 7. We hear regularly (one or two phone calls a week) 
complaints on the following issue. TSA had announced last year that 
technology would be in place to allow passengers to carry liquids of 
any quantity on board airplanes (eliminating the 3 oz. restrictions 
that are in place). Will you review that process and report back on its 
progress to the Committee?
    Answer. It is my understanding that TSA is working closely with the 
Department of Homeland Security's Science and Technology Directorate to 
automate the detection of dangerous liquids. If confirmed, I will do 
everything possible to facilitate the development of such technologies 
and to build upon my established relationships with the U.S.'s 
international partners to ensure a consistent approach to the liquids 
threat and other emerging explosives detection technology.

    Question 8. TSA employees at security checkpoints have been telling 
some of our constituents that their roll aboard bags do not fit in the 
airline ``size wise'' containers, and therefore they need to return to 
the ticket counter to check them. We have had constituents complain 
that this has happened to them at Atlanta, LaGuardia, and Phoenix. As 
one constituent said ``TSA is there to enforce security laws, not to 
enforce carry on rules. I was especially angry because the airline 
agent told me my bag was ok to carry on. Do you believe this is a core 
TSA function?
    Answer. TSA's core mission is to protect the Nation's vital 
transportation systems to ensure the free flow of commerce and the 
American people. If confirmed, I will look into the matter further to 
ensure the TSA and the air carriers are carrying out their proper roles 
and responsibilities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Sam Brownback to 
                           Erroll G. Southers
    Question 1. The Large Aircraft Security Program (LASP) Notice of 
Proposed Rulemaking (NPRM) was introduced by the TSA at the end of the 
last Administration and elicited more than 7,000 negative public 
comments because it did not address security issues in an effective, 
practical manner. Since then, the staff at the TSA has worked toward a 
new Supplemental NPRM which would take into consideration the comments 
filed to the original proposal as well as through direct TSA engagement 
with industry. Stakeholders have reached out to the TSA actively with 
constructive proposals and a willingness to work to address clearly 
identified security risks for general aviation.
    I've been told that TSA is making changes to the original proposal. 
Are you committed to working with the GA community on this and other 
issues in the future to develop reasonable and effective security 
measures?
    Answer. Yes. As someone who has worked on counterterrorism matters 
at the Federal, state, and local level for 30 years, and most recently 
as an Assistant Chief for Homeland Security and Intelligence for the 
Los Angeles World Airports (LAWA) Police Department, I understand the 
challenges of securing commercial and general aviation airports. My 
current responsibilities include the protection of three General 
Aviation airports, including Van Nuys Airport, which is one of the 
Nation's busiest. I believe in a collaborative approach and, if 
confirmed, I am committed to reaching out to stakeholders, particularly 
those in general aviation, and building on the community's partnership 
with TSA to ensure best practices and risk-based solutions are 
implemented.

    Question 2. The 2003 FAA reauthorization bill required the TSA to 
conduct security audits of all FAA certificated foreign repair 
stations. However, the TSA never fulfilled this requirement, and as a 
result Congress again required an audit in the 9/11 Recommendations 
bill and prohibited the FAA from certifying any new stations until the 
rule was finalized. TSA missed a 2008 deadline for completing the rule 
and as a result maintenance providers have been unable to open any new 
foreign repair stations. TSA is now in the process of finalizing a 
notice of proposed rulemaking (NPRM) on foreign repair station security 
rule, having sent it to OMB for review.
    Are you familiar with this issue? Will you work to get this NPRM 
through OMB as quickly as possible when you are confirmed, and will 
this be a priority for you? Will you allow for adequate stakeholder 
input and FAA coordination to ensure effective implementation of the 
final rule?
    Answer. I recognize TSA has a legal obligation to issue a final 
rule with respect to the security of foreign repair stations and that 
this is an important issue to this Committee. If confirmed, I will work 
to move the NPRM forward. It is my understanding that in advance of the 
publication of the NPRM, TSA has already conducted hundreds of 
voluntary inspections both in the United States and internationally. I 
recently had the opportunity to meet with FAA Acting Deputy 
Administrator Lynne Osmus and if confirmed, I look forward to 
strengthening the TSA-FAA partnership and building upon the work 
currently being done to analyze both foreign and domestic repair 
station security practices.

    Question 3. The TSA repeatedly uses Security Directives (SD) to 
vastly expand existing requirements without a compelling, emergency 
security threat. TSA needs to do a better job of identifying immediate 
threats that require emergency action and those actions that should be 
implemented through rulemaking. The most recent example involves the 
expansion of security credentialing requirements to tens-of-thousands 
of pilots and employees at airports and aviation manufacturers without 
due consideration and process of the Administrative Procedures Act. 
This resulted in SD-1542-8F (followed by -8G) which was developed this 
summer.
    When should TSA use Security Directives instead of rulemaking under 
the Administrative Procedures Act (APA)? What criteria would you use to 
make these decisions?
    Answer. I understand the need to have collaborative discussions 
with affected stakeholders before Security Directives or emergency 
regulations are issued, when time and situation permit, and in a 
setting that respects the sensitivity of certain information. If 
confirmed, I intend to work with our partners in formulating and 
issuing Security Directives and emergency regulations.

    Question 4. The Department of Homeland Security is currently 
undertaking a comprehensive threat, vulnerability and consequences 
study of the transportation industry to ensure that future resources 
are properly targeted. The Transportation Sector Security Risk 
Assessment (TSSRA) is scheduled to be presented to Congress on January 
10, 2010.
    Are you aware of this assessment? Have you been briefed on it yet? 
What is the advantage of this exercise? How will it help you set 
priorities particularly for an agency that has been almost solely 
focused on addressing the security risks from aviation?
    Answer. I am aware of the assessment, but I have not received a 
briefing on the TSSRA effort. I believe that protecting the traveling 
public against the evolving terrorist threat requires an innovative 
approach to security based on intelligence and risk and these 
assessments help inform where resources should be allocated.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Dr. Patrick Gallagher
    Question 1. What can you tell me about this proposal to reorganize 
the Cybersecurity Division?
    Answer. The Information Technology Laboratory has had some internal 
discussions about the structure of the Laboratory and is seeking input 
through our Advisory Committees and key external stakeholders. The 
discussions are still in the formative stage. Nothing has been 
presented to me for my consideration. Cybersecurity is a vital, central 
mission of the laboratory. Given the increasing importance and 
complexity of cybersecurity, ITL has undertaken an internal assessment 
of its operational structure to ensure that its programs fully reflect 
the important and complex, interdisciplinary nature of today's threats.

    Question 2. Do you think this is a good idea?
    Answer. I think the discussions, as I understand them, have been 
focused on the structure and demands of the Lab given the challenges to 
be addressed. They are asking: ``Is the organization aligned well?'' 
This and other questions are worthy of discussion. A reorganization is 
a long and involved process. If confirmed, I look forward to having 
discussions with the Congress, the Lab Director and others on how best 
NIST can fulfill its mission critical responsibilities in the area of 
cybersecurity. My overall mission for NIST is that resources and 
objectives be fully aligned.

    Question 3. What about all the criticism about eliminating 
cybersecurity and how this reorganization is a step backward?
    Answer. There is absolutely no effort to diminish the importance of 
cybersecurity or eliminate cybersecurity work at NIST. I can assure you 
that whether or not changes are ultimately proposed for ITL, NIST is 
committed to strengthening not diminishing its critical role in 
cybersecurity. NIST takes very seriously its cybersecurity mission to 
work efficiently and effectively on the many challenges associated with 
ensuring a robust system of cybersecurity standards, guidelines and 
protocols. As the internal draft documents made their way outside of 
NIST, NIST has received reactions across the spectrum. We look forward 
to the input of others including our Visiting Committee, other key 
external stakeholders, as well as the Congress as discussions proceed.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
         and Hon. Kay Bailey Hutchison to Dr. Patrick Gallagher
    Question 1. Can you describe the morale of the police force at 
NIST? Are the officers satisfied with their leadership?
    Answer. Morale within the NIST Police Services Group has suffered 
in the past months as a result of concerns about their management and 
work environment. Once those concerns were brought to the attention of 
NIST leadership, a number of actions were taken (detailed below) that I 
believe have contributed to a visible improvement in the overall work 
climate since then.
    The officers know that their leadership now reports to a higher 
official within the agency, who is in personal contact with the group 
and has shared her plans for changes with them directly on several 
occasions.

    Question 2. I understand that there have been allegations about the 
safety and security of NIST facilities. What is the state of security 
at NIST facilities, and what are you doing to address the issues that 
have been raised?
    Answer. I would like to assure the Committee that security at all 
of the NIST facilities continues to be maintained at the highest level.
    The Department of Commerce Office of Security in its most recent 
risk assessment of the Gaithersburg campus (August 2008) identified the 
numerous physical security and police functions that constitute the 
agency's security posture. Several recommended improvements have been 
or are in the process of being implemented, including significant 
infrastructure improvements.
    The NIST Center for Neutron Research (Building 235), was recently 
re-licensed by the Nuclear Regulatory Commission. Demonstrating full 
compliance with all necessary security requirements was a prerequisite 
for that licensing as is on-going assurance of compliance for continued 
operations.
    As we have looked into the operations of the Police Services Group, 
we have taken several measures to strengthen the group, including 
additional training and equipment, as well as issuance of several 
policies and procedures. Additional resources will be made available 
this year as part of a plan to continue enhancing the safety and 
security of our facilities.

    Question 3. Please detail the steps you or your office has taken to 
address the complaints by the NIST police officers.
    Answer. Upon receipt of the initial concerns from the police 
officers, the senior official overseeing the Emergency Services 
Division and the Police Services Group (PSG) personally took charge of 
oversight of the group. NIST received the cooperation of NOAA to detail 
a senior law enforcement official to directly oversee the PSG. He 
focused on immediate improvements, including policies, training, and 
space and facilities.
    At the same time, NIST conducted two assessments of the PSG to 
obtain an independent evaluation of the police operations and the 
issues raised by some of the Police Officers. Independent third parties 
conducted both assessments. The first assessment focused on concerns 
raised by some of the Police Officers and the second focused on an 
organizational diagnostic of the NIST Police Services Group. The 
results of the first assessment are being reviewed. The second, 
organizational diagnostic focused on the Police Services Group's 
mission, resources, and leadership.
    NIST is taking steps to implement several of the recommendations 
identified in this report. These include changes within the leadership 
of the Police Services Group, including a new higher-graded Police 
Chief, additional staffing and equipment resources, and restructuring 
of the Police Services groups to better align the access control, 
emergency response and other law enforcement functions. We have 
established a PSG Advisory Team to assist senior management as we go 
forward with the report's recommendations. This team consists of 
representatives from the Police Services Group and will be chaired by 
the Deputy Director of the NOAA Office of Law Enforcement.
    In the meantime, the senior manager responsible for Emergency 
Services Division remains personally in contact with the PSG and 
supervises the current Police Chief until a new recruitment can be 
completed. Finally, NIST and the DOC continue to investigate the EEO 
complaints, and issues of misconduct. These are being addressed through 
the appropriate channels.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                         Dr. Patrick Gallagher
    Question. In 2005, NIST issued its report on the collapse of the 
World Trade Center towers. The report made 30 recommendations for the 
building industry to improve the fire protection and structural 
integrity of our buildings. Has the building industry adopted these 
recommendations? As the Director of NIST, how will you work with 
industry to fully implement these recommendations?
    Answer. In 2008, 23 major and far-reaching building and fire code 
changes were approved by the International Code Council (ICC) based on 
recommendations from NIST.
    The changes were incorporated into the 2009 edition of the ICC's I-
Codes (specifically the International Building Code, or IBC, and the 
International Fire Code, or IFC), a state-of-the-art model code used as 
the basis for building and fire regulations promulgated and enforced by 
U.S. state and local jurisdictions. Those jurisdictions have the option 
of incorporating some or all of the code's provisions but generally 
adopt most provisions.
    The new codes address areas such as:

  <bullet> increasing structural resistance to building collapse from 
        fire and other incidents;

  <bullet> requiring a third exit stairway for tall buildings;

  <bullet> increasing the width of all stairways by 50 percent in new 
        high-rises;

  <bullet> strengthening criteria for the bonding, proper installation 
        and inspection of sprayed fire-resistive materials (commonly 
        known as ``fireproofing'');

  <bullet> improving the reliability of active fire protection systems 
        (such as automatic sprinklers);

  <bullet> requiring a new class of robust elevators for access by 
        emergency responders in lieu of an additional stairway;

  <bullet> making exit path markings more prevalent and more visible; 
        and

  <bullet> ensuring effective coverage throughout a building for 
        emergency responder radio communications.

    There are additional proposed changes to building codes to be 
considered by the ICC in the future.
    If confirmed, I look forward to working with our partners in 
industry and the standards development organizations and building code 
organizations to foster adoption of standards to help make the Nation's 
buildings safer.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Dr. Patrick Gallagher
    Question 1. Dr. Gallagher, you note in your testimony that ``our 
[nation's] economic prosperity depends upon our ability to lead the 
world in innovation. It is the foundation for creating high quality 
jobs for all Americans.''
    The Manufacturing Extension Partnership (MEP) program is one area 
where NIST can help spur innovation and job growth. Created during a 
time of concern about American competitiveness with Japan, the MEP 
program has centers in all 50 states that provide training for ``lean 
manufacturing'' and business efficiency tools such as Six Sigma. While 
still valuable, this type of training is hardly cutting edge for 
today's economy. Moreover, the MEP program today seems to exist in a 
silo separate from NIST's research labs.
    In New Mexico, Los Alamos and Sandia National Laboratories actively 
promote technology transfer, and the New Mexico MEP center has been 
able to partner with the labs to help small manufacturers across the 
state. It appears to me that NIST could do more to seek out such 
partnerships with other Federal agencies for MEP centers across the 
country.
    Moreover, NIST could probably do much more to promote technology 
transfer and industrial competitiveness if the research capabilities on 
NIST campuses more directly support the work of local MEP centers.
    What are your thoughts on how to revitalize the Manufacturing 
Extension Partnership program?
    Answer. As part of the MEP Next Generation strategic plan, the 
program has outlined a framework of four interdependent areas that are 
key for manufacturers' growth and global competitiveness. The framework 
includes continuous improvement activities necessary for a strong and 
stable foundation along with identifying and implementing opportunities 
focused in the areas of

  <bullet> supplier development

  <bullet> environmental sustainability

  <bullet> technology acceleration, and

  <bullet> workforce.

    NIST/MEP will work strategically with companies coordinating 
activities and opportunities across these areas to provide an 
environment for firms to create new sales, enter new markets, and adopt 
new technologies to build a competitive advantage globally.
    NIST/MEP is actively working to support the acceleration of 
technology into new manufactured products, processes and services. 
NIST/MEP has been working with university and Federal research 
facilities--including the NIST Labs--in the development of new programs 
and services focused on transforming technologies from the research 
into the marketplace.
    NIST/MEP has held workshops with researchers in universities and 
Federal labs to identify opportunities for manufacturers in terms of 
both the adoption of new technologies into existing products and 
processes as well as opportunities for the 
development of completely new product ideas. The translated 
technologies are key 
elements in the recently launched National Innovation Marketplace (NIM) 
(www.usainnovation.org).
    The NIM connects manufacturers to technology and business 
opportunities by facilitating connections between original equipment 
manufacturers (OEMs) and potential suppliers, encouraging technology 
translation and adoption, and estimating business growth potential.
    NIST/MEP and its nationwide network of MEP centers and partners 
will use NIM as a clearinghouse for building technology-based supplier 
networks. While still in the development stage, a fully implemented NIM 
combined with the NIST/MEP network of thousands of innovation experts 
will support manufacturers' efforts to connect with opportunities and 
access a range of product development and commercialization assistance 
services to help rapidly move ideas from concept to investment, 
manufacturing, commercialization and distribution.
    We are pleased to have high-level support for these activities 
within the Commerce Department. Secretary Locke, I know, has personally 
lent his support to successfully launching NIM.

    Question 2. President Obama has called for creating more ``green 
energy'' jobs and improving the energy efficiency of Federal buildings 
and American homes. The American Recovery and Reinvestment Act provided 
resources to the Dept. of Energy to address this issue.
    Many small firms in the construction industry, however, lack the 
know-how and trained personnel who can apply new manufacturing 
techniques to build high performance or ``green'' buildings and homes.
    Is this an area where NIST MEP centers could potentially work with 
NIST labs, such as the Building and Fire Research Laboratory, and the 
Dept. of Energy to promote technology transfer and commercialization of 
``green energy'' ideas?
    Answer. NIST/MEP is focused on helping companies gain a competitive 
edge by: (1) reducing environmental costs and impact, and (2) 
developing new environmentally-focused materials, products, and 
processes. Over the past few years, NIST/MEP has developed strong 
partnerships with Department of Energy (DOE) and Environmental 
Protection Agency (EPA) focused on helping manufacturers reduce energy 
costs and environmental impact. These partnerships have focused on 
hands-on support for manufacturers including energy and environmental 
assessments through the Industrial Assessment Centers (IACs) and the 
Green Suppliers Network.
    Most recently NIST/MEP has expanded partnerships with DOE and EPA 
along with the Small Business Administration and the Department of 
Labor on the E3 (Economy, Energy, Environment) initiative. This joint 
collaboration works directly with local utilities, local government, 
and small- and medium-sized manufacturers, leveraging existing 
resources to generate and provide direct customized assistance to 
strengthen manufacturers. The E3 effort begins with a comprehensive 
assessment of a process or facility in lean manufacturing, energy and 
environment to identify target opportunities for environmental 
improvements and cost reductions. With a focus on continuous 
improvement, the team then works with the company to identify 
resources, available financing options, training and capacity building 
to support the implementation strategy.
    Upon completion of two pilot projects this summer in Columbus, 
Ohio, and San Antonio, Texas, partner agencies will look to expand the 
E3 program in other states that have expressed interest.
    NIST/MEP continually seeks opportunities to leverage the work of 
the NIST labs in support of the smaller manufacturer. It has worked 
with NIST's Building and Fire Research Laboratory (BFRL) to promote 
tools to aid manufacturers such as BFRL's Building for Environmental 
and Economic Sustainability (BEES) program, which is focused on 
measuring the life-cycle performance of building products. As NIST/MEP 
and the NIST Labs move forward in supporting the President's efforts in 
creating green jobs and promoting energy efficiency, we will explore 
other collaborative opportunities.
    The National Innovation Marketplace will also serve as a tool to: 
(1) move technologies focused on reducing the environmental impact of 
manufacturing processes into practice, and (2) identify technologies 
that will create of new environmentally sustainable products.

    Question 3. My understanding is that NIST already provides testing 
and validation for information technology products used by the Federal 
Government, particularly for encrypting sensitive data.
    Congress is now considering several proposals to encourage private 
companies to take more proactive measures to protect consumers from the 
potential harm from cyber attacks and data breaches. One measure would 
create a ``safe harbor'' for companies that suffer data breaches 
contingent upon those companies having safeguards in place to render 
the lost data unusable by hackers.
    This proposal would require a robust data security standard, 
perhaps FIPS-140 or a version of it, as well as a certification process 
to ensure compliance. Could NIST leverage existing standards like FIPS-
140 for use by private sector companies?
    Answer. NIST recognizes the value to non-Federal organizations that 
is provided by many of its cybersecurity publications. The current FIPS 
140-2 cryptographic standard is also an ISO international standard 
suitable for reference by both public sector and private sector 
organizations. We are prepared to support leveraging our Federal 
standards and guidelines to meet private sector needs.
    FIPS 140-2 itself addresses only the cryptographic element of 
cybersecurity. NIST has published a broad range of standards and 
guidelines for both cryptographic and non-cryptographic controls but 
currently has security validation programs for only the cryptographic 
controls.

    Question 3a. Does NIST currently have the capability to analyze and 
certify technologies and methodologies used in the private sector for 
rendering personally identifiable information and other sensitive 
materials unusable by potential hackers?
    Answer. NIST has the technical expertise to do so. However, outside 
the realm of cryptography, NIST does not have authority to analyze and 
certify technologies and methodologies used in the private sector for 
rendering personally identifiable information and other sensitive 
materials unusable by potential hackers.

    Question 3b. Would certifying IT products and services provided by 
private companies be an appropriate role for NIST?
    Answer. Certification of products and services is an effective way 
to demonstrate compliance with specific standards, and may be an 
effective approach for computer security standards. While this issue is 
under active discussion, to date, NIST has not provided this type of 
service for IT products or services. One important consideration is the 
rapid pace of technology change in this sector. It is difficult to 
envision how NIST would itself be able to scale up to provide services 
in a timely and comprehensive way. In other areas, NIST works closely 
with private sector testing laboratories and certifiers to provide this 
type of service. This role may be the most effective way to leverage 
NIST's unique expertise to support any certification program.

    Question 3c. If not, where should such certification take place?
    Answer. NIST will continue to catalyze and coordinate the 
development of private sector testing, inspection and certification 
programs to address the needs and scale of business based on 
appropriate demand.

    Question 4. The United States follows a sector-based approach to 
voluntary standardization activities as outlined in the United States 
Standards Strategy. NIST experts actively participate in 
standardization activities. Their participation is critical to the 
success of America's public-private partnership approach to 
standardization.
    Under your leadership, how will NIST continue its involvement in 
the U.S. voluntary standards system to best serve the needs of 
government, the private sector, and general public?
    Answer. NIST will continue to provide strong technical input into 
standards that support global trade, innovation and competitiveness. We 
will also continue to work to ensure good U.S. Input for standards used 
worldwide. NIST will work to catalyze and coordinate the development of 
private sector testing, inspection and certification programs to 
address the needs and scale of business based on appropriate demand.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                         Dr. Patrick Gallagher
    Question 1. This Committee has long enjoyed a close and productive 
working relationship with the agencies within its jurisdiction. We rely 
on the legal and technical expertise of agency staff when developing or 
reviewing proposed legislation. Can all members of the Committee, and 
the staff on their behalf, count on this cooperative relationship 
continuing?
    Answer. Absolutely, Senator Hutchison. If confirmed, I look forward 
to working collaboratively and cooperatively with you, members of the 
Committee, and their staffs.

    Question 2. NIST recently released a draft report on the Dallas 
Cowboys practice facility collapse. As you know, this structure failed 
after a violent storm common to Texas and other areas of the Gulf 
Coast. Could you briefly summarize what knowledge was gained through 
this investigation and also tell the committee how that knowledge will 
translate into safer buildings and safer building standards for the 
general public?
    Answer. Our study found that the facility collapsed under wind 
conditions that a building of this type would be expected to withstand.
    The NIST researchers who carried out this study recommended that 
fabric-covered structures like this be re-evaluated to ensure that the 
structural framing system will hold up during such storms.
    They noted that a building of this type should be expected to 
withstand winds of 90 miles an hour, while they found that the winds in 
the vicinity of the Cowboys facility on the day it collapsed were in 
the range of 55 to 65 miles per hour--well below the 90 mph design wind 
speed specified in the ASCE 7 Standard.
    To protect the public in the future, the study team highlighted 
specific design assumptions that should be carefully addressed.
    NIST's role is to study the incident and provide good science to 
policymakers and others who can use that information to make their 
decisions.
    Also, both the ICC and American Society of Civil Engineers/
Structural Engineering Institute have expressed interest in having 
technical briefings on the findings of the study.

    Question 3. What is NIST's long-range plan for oversight and 
reporting to the public of the use of $610 million the agency received 
through the American Recovery and Reinvestment Act? What internal 
controls are currently in place and what additional measures have been 
taken to ensure that stimulus money is being used for activities that 
will help grow the economy rather than programs and activities that do 
not directly influence the economic recovery?
    Answer. NIST has established an ARRA Project Management Program, a 
Program Management Office, an ARRA Performance and Risk Management 
Committee, and an ARRA Executive Steering Committee to provide 
structure and oversight to the planning, execution, and reporting of 
ARRA funding for as long as NIST is dealing with ARRA funds. For each 
ARRA project an Action Plan has been developed including specific 
Milestones, Tasks, Issues, and Risks. Each project has an assigned 
owner. Project plans are updated monthly and reviewed for performance, 
issues, and risks. Weekly spending reports are provided to senior 
leadership and tracked as compared to plans.
    For ARRA funding provided for non-NIST, external entities (e.g., 
grants), NIST has developed criteria that will be used to ensure 
activities will help grow the economy while promoting long-term 
measurement science. For internally funded projects NIST has directed 
funding to activities that will help drive both objectives of economic 
recovery and enhanced scientific measurement through the specific 
selection of scientific equipment and construction projects. The 
programs structure and activities cited in the first half of this 
question will ensure that the actual expenditure of funds is consistent 
with the plans for which the funding was provided. We also have the 
added benefit of oversight at the Commerce Department level, via ARRA 
auditing programs established by the department's Inspector General.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Olympia J. Snowe to 
                         Dr. Patrick Gallagher
    Question. The Manufacturing Extension Partnership (MEP) is an 
impressive program at the National Institute of Standards and 
Technology (NIST) that assists small- and medium-sized manufacturers 
with technical assistance projects, training, and long-term strategic 
support.
    In my home state of Maine, over the past twelve months, the MEP has 
directly created or retained over 500 jobs, while increasing or 
retaining $73.4 million in sales.
    Unfortunately the previous Administration attempted to kill the MEP 
program, by recommending a paltry $4 million for the MEP in its FY2008 
budget request. That, of course, was unacceptable. Senator Lieberman 
and I, in our capacities as Co-Chairs of the Senate Task Force on 
Manufacturing, have for years led the Senate efforts to secure proper 
MEP funding and are pleased that President Obama requested, and the 
Senate and House Appropriators provided, $124.7 million for the program 
for Fiscal Year 2010.
    While $124.7 million for the MEP for Fiscal Year 2010 is a welcome 
step in the right direction, more remains to be done. In fact, 
repeatedly during his campaign, the President advocated for ultimately 
doubling MEP funding. Will you continue to advocate for increasing the 
MEP's budget in future Fiscal Years?
    Additionally, how will you raise the visibility of the MEP to 
ensure that this crucial program thrives, so that small-and medium-
sized manufacturers can help fuel our economic recovery?
    Answer. I fully support the President's vision for the MEP program, 
which includes a doubling of funding for this program. MEP plays a 
critical role in driving innovation and creating an environment in 
which small and medium sized businesses can grow and thrive in a global 
economy. MEP's partnerships at the Federal, State and local level are 
crucial for the success of the program, and we value our partners. The 
MEP Center network is a powerful force to drive the innovation economy, 
and if confirmed, I am committed to working to strengthen the MEP 
network to provide the tools, services, and partnerships to foster the 
global competitiveness and profitability of U.S. manufacturers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                         Dr. Patrick Gallagher
    Question 1. What role do you foresee for NIST in revitalizing 
American manufacturing and productivity?
    Answer. Revitalizing American manufacturing depends upon fostering 
an environment in which firms can innovate to adapt to economic and 
technological changes. NIST, through the MEP program, is committed to 
providing the tools and services needed by U.S. manufacturers to allow 
them to weather the current economic uncertainties and be positioned to 
take advantage of future opportunities. Specifically, the NIST/MEP 
network works with companies to build a strong foundation through 
continuous improvement to foster productivity and efficiencies while 
developing and identifying opportunities to diversify into new markets, 
create new sales, and adopt technologies to build global competitive 
advantages. NIST/MEP will continue to develop and expand the tools, 
services, and partnerships necessary to foster a revitalized U.S. 
manufacturing industry.

    Question 2. The process of transitioning from the laboratory to the 
factory is often difficult and time-consuming. How can NIST better 
leverage the Manufacturing Extension Partnership to transition leading 
edge innovations rather than focusing on incremental improvements?
    Answer. As part of the MEP Next Generation strategic plan, the 
program has outlined a framework of four interdependent areas that are 
key for manufacturers' growth and global competitiveness. The framework 
includes continuous improvement activities necessary for a strong and 
stable foundation along with identifying and implementing opportunities 
focused in the areas of:

  <bullet> supplier development,

  <bullet> environmental sustainability,

  <bullet> technology acceleration, and

  <bullet> workforce.

    NIST/MEP will work strategically with companies coordinating 
activities and opportunities across these areas to provide an 
environment for firms to create new sales, enter new markets, and adopt 
new technologies to build a competitive advantage globally.
    NIST/MEP is actively working to support the acceleration of 
technology into new manufactured products, processes and services. 
NIST/MEP has been working with university and Federal research 
facilities--including the NIST Labs--in the development of new programs 
and services focused on transforming technologies from the research 
into the marketplace.
    NIST/MEP has held workshops with researchers in universities and 
Federal labs to identify opportunities for manufacturers in terms of 
both the adoption of new technologies into existing products and 
processes as well as opportunities for the 
development of completely new product ideas. The translated 
technologies are key 
elements in the recently launched National Innovation Marketplace (NIM) 
(www.usainnovation.org).
    The NIM connects manufacturers to technology and business 
opportunities by facilitating connections between original equipment 
manufacturers (OEMs) and potential suppliers, encouraging technology 
translation and adoption, and estimating business growth potential.
    NIST/MEP and its nationwide network of MEP centers and partners 
will use NIM as a clearinghouse for building technology-based supplier 
networks. While still in the development stage, a fully implemented NIM 
combined with the NIST/MEP network of thousands of innovation experts 
will support manufacturers efforts to connect with opportunities and 
access a range of product development and commercialization assistance 
services to help rapidly move ideas from concept to investment, 
manufacturing, commercialization and distribution.
    We are pleased to have high-level support for these activities 
within the Commerce Department. Secretary Locke, I know, has personally 
lent his support to successfully launching NIM.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
